<html>
<title> - RESEARCH, EDUCATION AND TRAINING PROGRAMS TO FACILITATE ADOPTION OF SOLAR ENERGY TECHNOLOGIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                    RESEARCH, EDUCATION AND TRAINING
                    PROGRAMS TO FACILITATE ADOPTION
                      OF SOLAR ENERGY TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2007

                               __________

                           Serial No. 110-41

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                     U.S. GOVERNMENT PRINTING OFFICE

36-001 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona           VACANCY
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
         ELAINE PAULIONIS Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
                    STACEY STEEP Research Assistant
                            C O N T E N T S

                             June 19, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Prepared Statement by Representative Nick Lampson, Chairman, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     8

Statement by Representative Gabrielle Giffords, Vice Chair, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     5
    Written Statement............................................     6

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     7
    Written Statement............................................     7

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     8

                               Witnesses:

Mr. Herbert T. Hayden, Solar Technology Coordinator, Arizona 
  Public Service Company, Phoenix, Arizona
    Oral Statement...............................................     9
    Written Statement............................................    11
    Biography....................................................    14

Mr. Rhone Resch, President, Solar Energy Industries Association
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    23

Ms. Jane M. Weissman, Executive Director, Interstate Renewable 
  Energy Council; Vice Chair, North American Board of Certified 
  Energy Practitioners
    Oral Statement...............................................    24
    Written Statement............................................    25
    Biography....................................................    28

Mr. Joseph T. Sarubbi, Professor/Department Chair, Building 
  Systems Technology Department, Hudson Valley Community College
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    40

Dr. Daniel E. Arvizu, Director, National Renewable Energy 
  Laboratory, U.S. Department of Energy
    Oral Statement...............................................    41
    Written Statement............................................    43

Discussion
  Solar Energy in Germany........................................    49
  Solar Check-off Program........................................    50
  Comparison of Solar Energy to ANWR.............................    51
  More on Solar Check-off Program................................    52
  Manufacturing Cost for Solar Energy............................    53
  Tax Incentives for Solar Energy................................    54
  Tax Incentives and Net Metering of Solar Energy................    55
  More on Solar Check-off Program................................    55
  Storage and Efficiency of Solar Energy.........................    56
  Characterization of Support for Solar Energy...................    57
  Comparison of Centralized to Distributed Solar Energy..........    58
  Net Metering...................................................    58
  Reliability of Solar Energy....................................    59
  Solar Workforce Training Program...............................    59
  More on Solar Workforce Training...............................    61
  Efficiency of Solar Energy.....................................    63
  Storage for Solar Energy.......................................    64
  Conversion to Hydrogen.........................................    65
  More on Solar Check-off Program................................    65
  More on Solar Check-off Program................................    67
  More on Storage for Solar......................................    68
  Water Use for Concentrating Solar Power........................    69
  Concentrating Solar Power......................................    70
  More on Solar Workforce Training...............................    71
  More on Solar Check-off Program................................    72

             Appendix 1: Answers to Post-Hearing Questions

Mr. Herbert T. Hayden, Solar Technology Coordinator, Arizona 
  Public Service Company, Phoenix, Arizona.......................    76

Mr. Rhone Resch, President, Solar Energy Industries Association..    80

Ms. Jane M. Weissman, Executive Director, Interstate Renewable 
  Energy Council; Vice Chair, North American Board of Certified 
  Energy Practitioners...........................................    83

Mr. Joseph T. Sarubbi, Professor/Department Chair, Building 
  Systems Technology Department, Hudson Valley Community College.    85

Dr. Daniel E. Arvizu, Director, National Renewable Energy 
  Laboratory, U.S. Department of Energy..........................    88

             Appendix 2: Additional Material for the Record

Discussion Draft, June 14, 2007..................................    92


  RESEARCH, EDUCATION AND TRAINING PROGRAMS TO FACILITATE ADOPTION OF 
                       SOLAR ENERGY TECHNOLOGIES

                              ----------                              


                         TUESDAY, JUNE 19, 2007

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Gabrielle 
Giffords [Vice-Chair of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    Research, Education and Training

                    Programs to Facilitate Adoption

                      of Solar Energy Technologies

                         tuesday, june 19, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, June 19, 2007 the House Committee on Science & 
Technology, Subcommittee on Energy and Environment will hold a hearing 
to receive testimony on the Discussion Draft sponsored by Rep. Giffords 
which establishes several important research, education, and training 
programs to facilitate the adoption of solar energy technologies.
    This bill addresses issues in solar research, education, and 
training not covered by the Energy Policy Act of 2005. These include a 
research and development program on thermal energy storage technologies 
for concentrating solar power, a study to determine the necessary steps 
to integrate concentrating solar power plants with the regional and 
national electric grid, a program to ensure that a sufficient number of 
people are properly trained to install and maintain solar energy 
equipment, and the establishment of a solar energy research and 
information program, modeled on similar such programs for the beef and 
dairy industries. The program is supported by pooling funds from the 
private sector for the research and promotion of the solar power 
industry as a whole.
    This hearing will seek to address the following issues relating to 
the discussion Draft:

        <bullet>  Is thermal energy storage technology important to the 
        viability of concentrating solar power? Would the increased 
        research and development on thermal storage proposed 
        significantly accelerate the advancement of this technology?

        <bullet>  Would a study on how to integrate concentrating solar 
        power plants with the regional and national electric grid be 
        useful?

        <bullet>  Is there a sufficient number of people trained to 
        install and maintain solar energy equipment to meet the current 
        and future needs of the solar industry? Are such programs 
        necessary or useful for prospective solar panel installers and 
        potential consumers?

        <bullet>  How would the solar research and information program 
        for the solar industry authorized in the bill help to support 
        research and promote the adoption of solar power across the 
        Nation?

Background

    The Discussion Draft contains 4 basic components, as described 
above. The first two are specifically related to concentrating solar 
power (CSP). A 2006 report by the Western Governors' Association 
assessed the overall near-term potential for CSP capacity in the 
American Southwest, taking into account areas of high solar ray 
intensity, near-level land, non-sensitivity to CSP use, and proximity 
to transmission. The resulting set of potential plant sites totaled 200 
GW of potential power production. To put this in perspective, the 
electric generating capacity of the entire United States is currently 
about 1,000 GW. Some significant challenges remain to widespread 
implementation of CSP, however.
    CSP plants produce electric power by converting the sun's energy 
into high-temperature heat using various mirror configurations. The 
heat is then channeled through a conventional generator. These plants 
consist of two parts: one that collects solar energy and converts it to 
heat, and another that converts heat energy to electricity. Thermal 
energy storage technology allows this heat to be retained for later use 
in generating electricity, such as during periods of passing clouds or 
into the evening. The Energy Policy Act of 2005 establishes a CSP 
research and development program, but storage is not included in the 
language. Section 3 of the Discussion Draft authorizes a program 
dedicated to advancing research and development in thermal energy 
storage for CSP. Section 4 of the Discussion Draft tasks the Department 
of Energy (DOE) with conducting a study on methods to integrate 
concentrating solar power with regional electricity transmission 
systems, and to identify new transmission or transmission upgrades 
needed to bring electricity from high concentrating solar power 
resource areas to growing electric power load centers throughout the 
United States. The results of this study will help define a roadmap for 
large-scale implementation of CSP to meet the Nation's growing energy 
needs.
    The other two components of Discussion Draft address the solar 
industry in general. Having a certified, well-trained workforce to 
install and maintain solar energy products is critical to the success 
of the industry. Some states, such as New York and Florida, working 
with local community colleges, businesses, the Interstate Renewable 
Energy Council (IREC), and the North American Board of Certified Energy 
Practitioners (NABCEP) have recently established successful programs to 
create a workforce to meet local demand, however there is currently no 
federal program to help establish or improve these training programs 
across the Nation. Section 5 creates such a program, authorizing $10 
million in each year from FY08 through FY12. This section instructs DOE 
to ensure sufficient geographic distribution of training programs 
nationally, and to only award grants for programs certified by the 
Institute of Sustainable Power or equivalent industry-accepted quality-
control certification institution, or for new and growing programs with 
a credible path to certification.
    A successful model for promoting a particular U.S. commodity, 
rather than an individual brand, has been demonstrated by the 
agriculture industry. Funded entirely by a small portion of industry 
revenues and overseen by the USDA, organizations such as the 
Cattlemen's Beef Promotion and Research Board and the National Dairy 
Board were created to coordinate mutually beneficial research efforts 
and increase awareness of their industry as a whole, as well as ensure 
that consumers knew the proper certification standards to seek out 
before making a purchase. Modeled after these examples, Sections 6-13 
create the Solar Industries Research and Promotion Board, overseen by 
DOE, which would similarly plan and conduct mutually beneficial solar 
industry research efforts, increase awareness of solar as an energy 
option across the Nation, and ensure that consumers know what 
certifications a technician should have for installation or maintenance 
of solar energy equipment. The Solar Energy Industries Association 
(SEIA) has expressed a strong interest in creating such a program.

Witnesses

        <bullet>  Mr. Herbert Hayden is the Arizona Public Service 
        (APS) Solar Technology Coordinator. Mr. Hayden will testify on 
        how thermal storage research and development and the bill's 
        proposed studies on grid integration and water usage will help 
        advance the implementation of concentrating solar power.

        <bullet>  Mr. Rhone Resch is the President of the Solar Energy 
        Industries Association (SEIA). Mr. Resch will testify on how 
        the proposed research and information for the solar industry 
        would help to support research and promote the adoption of 
        solar power across the Nation.

        <bullet>  Ms. Jane Weissman is the Executive Director of the 
        Interstate Renewable Energy Council (IREC), and the Vice-Chair 
        of the North American Board of Certified Energy Practitioners 
        (NABCEP). Ms. Weissman will testify on the current status of 
        workforce training in solar installation and maintenance across 
        the country, and the need for a national solar workforce 
        training program.

        <bullet>  Prof. Joseph Sarubbi is the Chair of the Building 
        Systems Technology Department at Hudson Valley Community 
        College. Prof. Sarubbi will testify on his ground-level 
        experience in creating a solar workforce training program, 
        including his partnership with local businesses and the State 
        of New York in developing a successful curriculum.

        <bullet>  Dr. David Arvizu is the Director of the Department of 
        Energy's National Renewable Energy Laboratory. Dr. Arvizu will 
        testify on the DOE's current solar research and development 
        activities, and on his views regarding the proposed 
        legislation.
    Ms. Giffords. Welcome to today's hearing entitled 
``Research, Education and Training Programs to Facilitate 
Adoption of Solar Energy Technologies.'' I want to thank 
Chairman Gordon, Ranking Member Hall, Chairman Lampson and 
Ranking Member Inglis for holding this hearing on solar energy 
this morning. Solar energy offers one of the best solutions to 
the greatest challenges facing our nation, global warming, 
dependence on foreign oil and concerns about American 
competitiveness.
    It has tremendous potential across the United States, 
especially in regions like Southern Arizona, where we have over 
300 days of sunshine every single year.
    Solar energy, as we all know, is a nonpartisan issue. The 
sun beats down on Republicans and Democrats and Independents 
with equal intensity, and we could all benefit from harnessing 
the power of the sun. It stimulates business development. It 
creates new jobs, helps protect our environment, and promotes 
energy independence.
    My legislation, entitled the Solar Energy Research and 
Advancement Act of 2007, will move solar energy forward by 
targeting some of the gaps that several experts have identified 
in our national solar energy strategy.
    Today we are going to hear from experts on the discussion 
draft that was earlier circulated. This is a great first step 
in the overall solar energy agenda for the 110th Congress. I am 
considering other pieces of legislation and I know that other 
House committees are looking at solar-related bills as well. As 
we move forward, the cumulative efforts to focus on the use of 
solar energy should be very positive.
    Let me briefly summarize the four components of this bill. 
The first component would establish a Thermal Energy Storage 
Research and Development Program within the Department of 
Energy. This will help us solve perhaps the most significant 
problem with concentrated solar power technology: energy 
storage. We need more advanced technology so that we can store 
solar energy produced during the day and use it at night or on 
a cloudy day. This is all about energy reliability and 
viability. We need to assure the public that they will have 
enough electricity when the sun goes down and when they need 
it.
    The second component would require DOE to conduct two 
concentrating solar power commercial application studies. One 
would study methods to integrate concentrated solar power 
energy into regional electricity transmission systems. The best 
time of the day to produce and use solar energy is from 10 a.m. 
to 5 p.m. We need to research how to connect the major solar 
power plants to the electric grid, relieve expensive demand on 
electric utilities and use solar energy during these peak 
hours. It also makes sense to examine how to bring electricity 
from high solar resource areas like Arizona and Nevada to other 
parts of the United States that have other energy needs as 
well.
    The other study would require DOE to inform Congress on 
methods to reduce the amount of water consumed by concentrating 
solar power systems. CSP has its greatest potential in the 
southwest United States, and like all power plants, it requires 
tremendous use of water. Given the strain on water resources 
already in this region, we must research ways to research water 
consumption so that we can realize the benefits of CSP 
technology.
    The third component of the legislation will authorize a 
competitive grant program at DOE to create and strengthen solar 
industry workforce training and internship programs in 
installation, operation and maintenance of solar energy 
products. The goal of this program is to ensure an adequate 
supply of well-trained individuals to support the expansion of 
the solar energy industry. If we want to increase our use of 
solar energy, we have to make sure that we have a trained and 
qualified workforce. This section will promote job growth in a 
fast-growing solar industry.
    Lastly, we have got beef for dinner and we have all got 
milk, but who has gone solar? The fourth component of this bill 
will create a Solar Energy Industries Research and Commercial 
Application Board to plan and coordinate projects of research 
and commercial application, certification, information and 
other purposes of benefit to the application of solar 
technologies and educate people on why we need to be doing 
this. This public-private partnership will also help the 
general public understand how they can benefit from solar 
energy technology. I want to note that this program will be 
paid for by the solar industry and will cost the taxpayer 
absolutely nothing. It is important to my constituents and all 
the other people's constituents as well.
    I look forward to working with my colleagues on both sides 
of the aisle to pass this important legislation.
    [The prepared statement of Ms. Giffords follows:]
        Prepared Statement of Representative Gabrielle Giffords
    I want to thank Chairman Gordon, Ranking Member Hall, Chairman 
Lampson, and Ranking Member Inglis for holding this hearing on solar 
energy today.
    Solar energy offers one of the best solutions to the greatest 
challenges facing our nation--global warming, dependence on foreign 
oil, and concerns about American competitiveness.
    It has tremendous potential across the United States, especially in 
regions like Southern Arizona, where we have over 300 days of sunshine 
every year.
    Solar energy is a non-partisan issue. The sun beats down on 
Democrats, Republicans, and Independents with equal intensity, and we 
can all benefit from harnessing the power of the sun.
    It stimulates business development, creates new jobs, helps protect 
our environment, and promotes energy independence.
    My legislation, entitled the Solar Energy Research and Advancement 
Act of 2007, will move solar energy forward by targeting some of the 
gaps that several experts have identified in our national solar energy 
strategy.
    Today, we will hear expert opinions on the discussion draft that 
was circulated.
    This is a great first step in the overall solar energy agenda for 
the 110th Congress. I am considering other pieces of legislation, and I 
know that other House committees are looking at solar-related bills. As 
we move forward, the cumulative efforts to advance the use of solar 
energy should be very positive.
    Let me briefly summarize the four components of this bill.
    The first component would establish a ``Thermal Energy Storage 
Research and Development Program'' within the Department of Energy. 
This will help us solve perhaps the most significant problem with 
concentrating solar power technology: energy storage. We need more 
advanced technology so that we can store solar energy produced during 
the day and use it at night or on a cloudy day. This is all about 
energy reliability and viability. We need to assure the public that 
they will have enough electricity when the sun goes down.
    The second component would require DOE to conduct two 
``Concentrating Solar Power Commercial Application Studies.''
    One would study methods to integrate concentrating solar power 
energy into regional electricity transmission systems. The best time of 
the day to produce and use solar energy is from 10 a.m.-5 p.m. We need 
to research how to connect major solar power plants to the electric 
grid, relieve expensive demand on electric utilities, and use solar 
energy during these peak hours. It also makes sense to examine how to 
bring electricity from high solar resource areas, like Arizona and 
Nevada, to meet energy needs throughout the United States.
    The other study would require DOE to inform Congress on methods to 
reduce the amount of water consumed by concentrating solar power 
systems. CSP has its greatest potential in the Southwest United States, 
and like all power plants, it requires the use of water. Given the 
strain on water resources in this region, we must research ways to 
reduce water consumption so that we can realize the benefits of CSP 
technology.
    The third component of this legislation will authorize a 
competitive grant program at DOE to create and strengthen solar 
industry workforce training and internship programs in installation, 
operation, and maintenance of solar energy products. The goal of this 
program is to ensure an adequate supply of well-trained individuals to 
support the expansion of the solar energy industry. If we want to 
increase our use of solar energy, we have got to make sure that we have 
a trained, qualified workforce. This section will promote job growth in 
the fast-growing solar industry.
    Lastly, we've got beef for dinner, and we've all got milk. But 
who's gone solar? The fourth component of this bill will create a Solar 
Energy Industries Research and Commercial Application Board to plan and 
coordinate projects of research, commercial application, certification, 
information, and other purposes of benefit to the application of solar 
technologies. This public-private partnership will also help the 
general public understand how they can benefit from solar energy 
technology. I want to note that this program will be paid for by the 
solar industry and will cost the taxpayer absolutely nothing.
    I look forward to working with my colleagues on both sides of the 
aisle to pass this important legislation.

    Ms. Giffords. The Chair now recognizes the Ranking Member 
from South Carolina, Mr. Inglis, for an opening statement.
    Mr. Inglis. I thank the Chair for holding this legislative 
hearing on facilitating the adoption of solar energy 
technologies.
    Solar energy occupies just a sliver of the global energy 
market. However, when you consider the Earth receives more 
energy from the sun in just one hour than the world uses in a 
whole year, it makes sense that we should look into making that 
thin sliver into a big piece of the energy pie. With some 
advancements in technology and conversion efficiencies, solar 
will fit the bill for our energy goals: clean, renewable and 
abundant.
    Today we are going to discuss draft legislation that seeks 
to address ways that the Federal Government can help speed 
commercial viability of solar energy. I look forward to hearing 
from our expert panel of witnesses as to how we might meet our 
goals.
    Madam Chairman, as we discuss these proposals today and 
move to markup, I hope we give adequate time to make this bill 
as good as it can be. America's scientists, engineers, 
inventors and entrepreneurs realize the potential of solar 
power and other renewable sources, and I hope we can set 
policies that facilitate the development, the best development 
of those sources.
    Thank you again for holding the hearing and I look forward 
to hearing from our witnesses.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good afternoon. Thank you, Mr. Chairman, for holding this 
legislative hearing on facilitating the adoption of solar energy 
technologies.
    Solar energy occupies just a sliver of the global energy market. 
However, when you consider that the Earth receives more energy from the 
sun in just one hour than the world uses in a whole year, it makes 
sense that we should look into making that thin sliver into a big piece 
of the energy pie. With some advancements in technology and conversion 
efficiencies, solar will fit the bill for our energy goals: clean, 
renewable, and abundant.
    Today, we're going to discuss draft legislation that seeks to 
address ways that the Federal Government can help speed commercial 
viability of solar energy. I look forward to hearing from our expert 
panel of witnesses as to how we might meet our goals.
    Mr. Chairman, as we discuss this proposal today, and move to 
markup, I hope we give adequate time to make the bill as good as it can 
be. America's scientists, engineers, inventors, and entrepreneurs 
realize the potential of solar power and other renewable sources, and I 
hope we can set policies that facilitate the development of these 
sources.
    Thank you again, Mr. Chairman and I look forward to hearing from 
our witnesses.

    Ms. Giffords. Thank you, Mr. Inglis.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Chairman Lampson follows:]
              Prepared Statement of Chairman Nick Lampson
    I am very pleased to be here this morning to discuss the 
legislation proposed by my colleague from Arizona, Rep. Giffords. Solar 
energy holds great promise and potential to deliver clean, affordable 
electricity to homes and businesses across the Nation.
    Rep. Giffords has identified several areas where federal support 
could further the goal of diversifying our energy supply by expanding 
the adoption of solar energy technologies. The basic and applied 
research and development programs that we have invested in through the 
Department of Energy over the years have yielded significant 
advancements in solar energy technologies. Our challenge now is to move 
these technologies into the market place more aggressively.
    I also serve on the Committee on Agriculture. In the agricultural 
sector, USDA has managed numerous promotion programs for agricultural 
commodities that have helped to educate consumers about the nutritional 
benefits of different foods and have expanded markets for all commodity 
producers. I believe it provides a good model for solar energy 
technologies and will deliver additional applied research and 
information designed to communicate with the general public to support 
the entire solar industry.
    My home State of Texas has moved aggressively to encourage the 
development of renewable energy. We have abundant solar resources that 
could be used to further expand our renewable energy portfolio. As 
several of our witnesses will point out today, the U.S. has significant 
solar potential that we are not yet taking full advantage of. We can no 
longer afford to overlook obvious opportunities to diversify our energy 
supply.
    I commend my colleague for her work on this legislation and I look 
forward to moving it forward in our committee very soon. We have an 
excellent panel of witnesses today that will help us to refine this 
legislation and expand our use of the abundant, clean source of energy.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you Mr. Chairman for holding today's hearing to 
receive testimony on the discussion draft legislation sponsored by 
Congresswoman Giffords. The bill establishes research, education, and 
training programs to facilitate the adoption of solar energy 
technologies.
    My home State of Illinois has a plentiful supply of coal, which is 
why our region specializes in clean coal research and demonstration 
projects. In the West, solar energy and thermal energy storage is also 
an environmentally friendly energy source. Regardless of where you live 
in the country, I believe it is important to invest in multiple energy 
sources to ensure the U.S. has diverse a energy portfolio.
    Specifically, the Discussion Draft with regard to thermal energy 
storage addresses an important issue related to solar energy and its 
impact on utilities. Adding thermal storage to concentrated solar power 
(CSP) plants enables solar energy to be a potentially provided at a low 
cost, which is critical for our nation's economy. Further, the 
discussion draft also addresses transmission integration, an important 
issue for CSP plants.
    Similar to clean coal technologies, cost is the greatest obstacle 
with regard to producing solar power. I look forward to hearing from 
our witnesses on how the solar research and information program for the 
solar industry authorized in the bill would help to support research 
and promote the adoption of solar power across the Nation. With that, I 
again thank the Chairman for calling this hearing.

    Ms. Giffords. At this time I would like to introduce our 
fabulous, fabulous panel of witnesses with some Arizona 
connections, I would also like to point out. I always bring it 
back to Arizona. We have Mr. Hayden, who is Solar Technology 
Coordinator for Arizona Public Service Corporation. Mr. Rhone 
Resch is the President of the Solar Energy Industries 
Association. Ms. Jane Weissman is the Executive Director of the 
Interstate Renewable Energy Council and the Vice-Chair of the 
North American Board of Certified Energy Practitioners. I just 
have to mention that Ms. Weissman earlier has talked about 1991 
at the Westford Look Hotel in Tucson where a lot of this work 
actually began, so I think that is pretty interesting. We also 
have Professor Joseph Sarubbi, who is the Chair of the Building 
Systems Technology Department at Hudson Valley Community 
College, and Mr. Daniel Arvizu, who is the Director of the 
Department of Energy's National Renewable Energy Laboratory and 
originally from Douglas, Arizona. So that is very cool.
    So as our witnesses should know, spoken testimony, we would 
like to try to limit to five minutes after which the Members of 
the Committee will have five minutes to ask questions, and as 
far as I know, we are okay on time in terms of votes, so no 
particular pressure here to speed through this. But let us get 
going with Mr. Hayden, please.

     STATEMENT OF MR. HERBERT T. HAYDEN, SOLAR TECHNOLOGY 
 COORDINATOR, ARIZONA PUBLIC SERVICE COMPANY, PHOENIX, ARIZONA

    Mr. Hayden. Madam Chairman and Members of the Committee, my 
name is Herbert T. Hayden. I am the solar technology 
coordinator for Arizona Public Service Company, APS, in 
Arizona. Thank you for the opportunity to testify to you today 
regarding concentrating solar power, or CSP. CSP is a 
technology of great interest to APS for its potential to 
provide lower cost and more-reliable solar power in the desert 
Southwest.
    I would like to submit my written comments to you and 
briefly summarize them now on the main points, which are, 
number one, the importance of thermal energy storage to the 
viability of concentrating solar power; number two, the 
importance of reduction of water use to the viability of 
concentrating solar; and number three, how a study to integrate 
concentrating solar power plants with the electric grid can 
facilitate the commercialization and implementation of large-
scale CSP.
    APS is the largest and longest serving electric power 
utility in Arizona, the fastest growing state in the Nation. We 
are adding customers at three times the national average and 
electricity demand is growing at four times the national 
average. To meet this rapid growth in electricity demand, 
Arizona's electric utilities are investing over $2 billion a 
year in infrastructure. Plans for the future include 
conventional generation, new transmission and distribution, and 
an increased focus on conservation and cost-effective renewable 
energy resources.
    In Arizona, our most abundant renewable resource is 
sunshine. For the past 15 years, my responsibility has been to 
work with the solar industry and researchers around the United 
States and the world to bring lower cost and reliable solar 
electricity to our customers. From a technology perspective, 
our primary focus has been on technologies that can be lower 
cost on a utility scale in the near-term. As early as 1995, the 
APS STAR Center was a test site for dish Stirling systems and 
for the advancement of concentrating PV systems, both of which 
are forms of concentrating solar power. Based on inquiries from 
companies around the world, it seems clear that our work has 
helped stimulate the growing interest in concentrating solar 
power technology.
    One of the most successful CSP technologies to date are the 
solar trough systems that use solar heat to drive turbine 
engines and generators. For more than a decade, solar trough 
plants in California have been the largest collection of solar 
power in the world and they have operated well. CSP is 
currently the most cost-effective solar technology for large-
scale use and has the potential to compete with conventional 
generation in the near- to mid-term.
    Because of this potential, last year APS completed the 
first solar trough plant in the United States in over 14 years, 
the one-megawatt APS Saguaro Solar Trough plant near Tucson, 
Arizona. Our intent of that project was to help reestablish and 
again advance the U.S. solar trough technology. In short order, 
the APS plant was followed by a much larger project in Nevada 
which has benefited from the new solar collector design 
experience gained in the APS project.
    An important attribute of the CSP systems is the ability to 
incorporate thermal storage into the design to improve the 
reliability of power output. This is an extremely important 
feature that many intermittent renewable resources such as PV 
and wind do not have. All renewables have value for the ability 
to help reduce the use of fossil fuels but the ability to store 
the thermal energy for times when it is needed provides for a 
reliability that does not exist with intermittent resources. 
This is especially critical to utilities because they have the 
obligation to provide reliable power at all times. It is 
commonly considered that solar provides power when it is needed 
the most, during the daytime. This is largely true but there 
are fluctuations due to clouds and a rolloff of solar before 
the late day hours of high power consumption. For example, 
power consumption in Arizona reaches a peak in the months of 
July, August and September and the summer heat results in heavy 
air conditioning loads. During that period, Arizonans use the 
most energy between 5 and 7 p.m. when they go home, increase 
the air conditioning and do things for their lives. But 
unfortunately, the solar resource peaks sometime in the mid-
afternoon and tails off significantly as the sun lowers on the 
horizon. Thermal storage has the potential to bridge the gap 
between maximum solar generation and peak customer demand by 
extending the hours of operation sufficiently to cover much of 
the evening demand.
    There has already been some support in the national labs 
for the development of thermal storage concept and we recognize 
and appreciate that past support. However, the resources are 
apparently limited in comparison to the substantial expense of 
a meaningful development and test plant. Certainly a dedicated 
research and development program on thermal storage could 
significantly accelerate the use of this promising technology.
    Another key area for improvement of CSP is water use. The 
current design of large CSP plants use water simply for cooling 
a power plant in the same way that water is used for 
conventional power plant cooling. Though CSP technology has 
been successful with its current water cooling approaches, 
growth in the desert has placed ever-increasing demands on 
water use and reductions in water use would increase the 
attractiveness of CSP.
    On the third topic relating to CSP of the study of 
integrating large CSP plants into the regional and national 
electric grid, it is true that planning for CSP does raise 
numerous issues including the availability of land, land-use 
issues such as water and permitting, and increasingly, the 
availability of transmission facilities and transmission 
capacity to deliver the energy to load centers from the areas 
where solar might be developed. Transmission is generally 
constrained in much of the West and significant new 
transmission investment is needed in the coming years for all 
types of generation, renewable or conventional. The 
Southwestern states and utilities, including APS, are 
considering the needs and benefits for transmission to ensure a 
robust grid to meet the needs of the West's rapidly growing 
population. A federal study of the potential for the 
integration of CSP into the transmission plans would be timely 
and supportive of the further commercial implementation of CSP 
and could help address the same kind of issues that have been 
encountered in the successful growth of the wind industry.
    So finally, we are currently leading a group of 
southwestern utilities in the exploration of a 250-megawatt CSP 
plant to be built in the Southwest. In the process, we have run 
into these issues--transmission, water, et cetera. Also, land 
on federal land could be considered.
    So finally, I would just say that we believe, APS believes 
that large-scale CSP has very good potential to provide cost-
effective energy to the United States. We also believe that the 
U.S. industries have still been a leader in concentrating 
technologies and have the opportunity to benefit by that, and 
finally that CSP can be improved with the additional of thermal 
storage and with reduction of water use and the proper 
integration of CSP in the national grid.
    Thank you, Madam Chairman and the Members of the Committee 
for the opportunity to share these observations with you, and I 
would be available to answer questions if I can. Thank you.
    [The prepared statement of Mr. Hayden follows:]
                Prepared Statement of Herbert T. Hayden
    Mr. Chairman, Members of the Committee, it is a pleasure to provide 
testimony to you regarding 1) the importance of thermal energy storage 
technology to the viability of concentrating solar power, and 2) how a 
study to integrate concentrating solar power plants with the electric 
grid can facilitate the commercialization and implementation of large-
scale CSP.
    Arizona Public Service Company (APS) is the largest and longest 
serving electric power utility in Arizona. Arizona is also the fastest 
growing state in the United States. APS is adding customers at three 
times the national average and our customers' electricity demand is 
growing at four times the national average. To meet this rapid growth 
in electricity demand Arizona's electric utilities are investing over 
$2 billion a year in infrastructure. Plans for the future include 
conventional generation, new transmission and distribution and an 
increased focus on conservation and cost effective renewable energy 
resources.
    In Arizona our most abundant renewable resource is sunshine. And, 
for the past 15 years, my responsibility has been to work with the 
solar industry and researchers around the U.S. and the world to bring 
lower cost and reliable solar electricity to our customers.
    APS' first work in the solar technology area was .in 1954 when APS 
helped organize the first International Solar Energy Exposition in 
Phoenix, AZ that lead to the formation of the International Solar 
Energy Society. In the 1970's, APS applied early solar PV technology in 
remote off-grid telecommunications applications, and since the early 
1980's APS has been an active participant in the study and development 
of solar energy for large scale utility use.
    In 1988, the APS Solar Technology Applied Research (STAR) center 
was developed to support the advancement of solar resources, including 
field operation of both photovoltaic (PV) and concentrating solar 
technologies. Our early work at STAR gave APS the expertise and 
experience to undertake several noteworthy projects including Arizona's 
first customer-sited PV systems tied to the grid, and Arizona's first 
utility scale grid-tied solar PV system. APS is proud to provide solar 
services to the National Park Service and several military bases in 
Arizona to assist with the use of PV in support of remote off-grid 
operations. And, we currently have over five MW of PV tracker power 
plants in operation providing reliable solar energy to our customers.
    From a technology development perspective our primary focus has 
been on large scale solar technologies. As early as 1995, APS STAR 
center was a test site for the dish Stirling systems, and the 
advancement of Concentrating PV (CPV) systems. We have more then 10 
years experience operating silicon CPV, and three years ago installed 
the Nation's first grid-tied triple-junction high concentration PV 
system. Based upon inquiries from companies around the world it seems 
clear that our CPV work has helped stimulate new interest in CPV 
technology. And while there is significant CPV work now being 
undertaken in other countries, it is my belief that the United States 
remains in the technological lead of this very promising solar 
technology.
    In another very promising technology area, APS has supported the 
advancement of concentrating solar power (CSP). These technologies are 
``thermal electric systems'' that use solar heat to drive engines and 
generators. CSP thermal systems include solar trough concentrator 
systems and central receiver (power tower) systems that use many 
mirrors to focus light on a central solar collector. CSP also include 
solar dish Stirling systems and other advanced solar concepts.
    The solar trough systems are worth particular note. For more then a 
decade solar trough systems in California have been the largest 
collection of solar power in the world, and they have operated well. 
CSP is also currently the most cost effective solar technology and has 
the greatest potential to compete economically with conventional 
generation in the near to mid-term.
    Because of this potential, just last year, APS constructed the 
first solar trough plant in the U.S. in over 14 years. Our intent was 
to help to re-establish and again advance the U.S. solar trough 
technology. The plant is the one MW APS Saguaro Solar Trough plant, 
near Tucson, Arizona.
    While not part of the Saguaro design, an important attribute of the 
solar thermal CSP systems is the ability to incorporate thermal storage 
techniques into the design to improve the reliability of power output. 
This is an extremely important feature that many intermittent renewable 
resources such as PV and wind do not have. While all renewables have 
value for their ability to help reduce the use of fossil fuels, the 
ability to store the thermal energy for times when its needed provides 
a level of reliability that does not exist with intermittent resources. 
This is especially critical to utilities that have an obligation to 
provide reliable power at all times.
    Common wisdom is that solar technologies produce power when it is 
needed the most, during the daytime. While this is largely true, there 
are exceptions that are not obvious such as fluctuations due to clouds 
and a mismatch to late-day power consumption. This latter exception is 
the norm for Arizona and most of the desert southwest. In the 
southwest, power consumption reaches its peak in the months of July, 
August and September, when the summer heat result in heavy air 
conditioning loads. The correlation between power consumption and high 
summer temperatures are a good match for CSP however the correlation is 
not as perfect as one might expect. In a 24 hour period, Arizonan's use 
the most energy in the early evening, between 5 and 7 p.m., when they 
return home from work, turn down the air conditioning, cook dinner, do 
laundry and generally go about their lives. Unfortunately, solar 
electricity production, even from CSP, does not match this hourly 
demand profile very well. Solar electricity production reaches its peak 
levels sometime in the mid-afternoon and tails off significantly in the 
early evening as the sun lowers on the horizon. Thermal storage has the 
potential to bridge the gap between maximum generation and peak demand.
    Without the availability of solar energy during the peak, utilities 
must look to other reliable resources like natural gas to meet customer 
demand. But, thermal storage has the real potential to change utility 
resource decisions because with storage CSP systems will be able to 
reliably serve customers when electricity costs are the highest.
    There currently exists some support in the national labs for the 
development of the thermal storage concept, which we recognize and 
appreciate. However the resources are apparently limited in comparison 
to the substantial expense of a meaningful development and test plant. 
Certainly a dedicated research and development program on thermal 
storage could significantly accelerate the use of this promising 
technology.
    The second topic of discussion relating to CSP is the integration 
of large CSP plants into the regional and national electric grid. This 
topic raises numerous issues including availability of land for large 
scale installation, land-use issues such as water use and permitting 
and the availability of transmission facilities and transmission 
capacity to deliver the energy to load centers. The cost, timing and 
risks associated with each of these factors must also be considered.
    One additional aspect of large scale CSP that must be considered is 
the status of financial incentives. Currently, the 30 percent 
Investment Tax Credit (ITC) for solar has resulted in projected project 
costs that are significantly more competitive than any time in the 
past. But without a long-term extension of the ITC, many large scale 
CSP projects will never be launch due to the time it takes to address 
the issues noted in the preceding paragraph. Large scale CSP plants 
require three to five years from commitment to start up Today, the ITC 
is set to expire at the end of 2008. The one to two year ITC extensions 
that have been typical in previous years, will not provide sufficient 
certainty to enable major CSP development. Long-term extension of the 
ITC is critical to CSP development.
    One critical aspect of the ITC is the fact that it is not available 
to public utilities. The restriction needlessly narrows application of 
the credit and is unfair to U.S. citizens because the vast majority 
purchase power from a public utility, as it is defined by the tax code. 
Therefore, a utility wishing to plan a large CSP resource would need to 
assume no ITC, or secure a third-party owner of the plant. This current 
policy forcing a third-party relationship to take advantage of the ITC 
creates unnecessary uncertainty and costs to the system. It forces the 
utility and regional grid to consider the operational and financial 
risks inherent in any third party relationship thus affecting the 
utility operating strategies. These risks can certainly be analyzed and 
managed but create a potential sub-optimum situation when they are the 
only strategy available.
    While there are numerous issues to be addressed, APS is bullish 
about CSP and is leading a group of southwestern utilities exploring a 
250 MW CSP plant in the desert southwest. We have found several 
constraints to a successful project including the financial factors 
associated with the end of the ITC in 2008, and the lack of 
transmission capacity. In fact, transmission is generally constrained 
in much of the west and significant new transmission investment is 
needed in the coming years for all types of generation be they 
renewable or conventional generation. New transmission is being planned 
throughout the west and in California and Texas specifically to access 
renewable resources including wind and geothermal. Others states and 
utilities, including APS, are studying their needs for both intra and 
interstate transmission to ensure a robust grid to meet the needs of 
the West's burgeoning population. The studies include the ability to 
reach those areas of the west with abundant low cost renewable 
resources.
    Answers to the questions about CSP, and indeed renewables in 
general, are not simple. Intermittent renewable resources such as wind 
and solar present special economic challenges for transmission 
investment because they do not efficiently utilize the transmission 
investment at all times. Wind integration studies have and are being 
performed. We believe CSP has a significant potential to provide large 
amounts of renewable energy to the U.S. and that a federal study on 
transmission for large scale CSP would be beneficial and appropriate.
    Finally the issue of locating large scale CSP on federal land 
should be investigated and analyzed. By its nature, solar technologies 
require significant geographic footprints. A general rule of thumb for 
a solar installation is five to 10 acres per megawatt. That means for a 
single 250 megawatt facility, 1,250 to 2,500 contiguous acres of land 
would be required. Considering that the Federal Government is the 
largest land owner in the U.S., a study of federal land in high solar 
resource areas that may be made available for CSP development would 
also be beneficial and appropriate.
    In summary, APS is proud of its contributions to the advancement of 
solar technologies including CSP, but more needs to be done. APS 
believes that large scale CSP has the best potential to provide cost 
effective solar energy to the U.S. and this potential improves 
dramatically with the addition of thermal storage. Understanding how 
these large CSP installations will impact the regional and national 
grid must be understood. We support federal funding for a CSP 
integration study. We encourage additional federal attention and 
support for CSP and welcome the opportunity to continue to work with 
the U.S. national labs and the solar industry on the further 
advancement of solar resources into our national energy portfolio.
    Thank you Mr. Chairman and the Members of the Committee for the 
opportunity to share these observations and opinions with you.

                    Biography for Herbert T. Hayden
    Since 1993, Herb Hayden has led the development, construction and 
operation of solar power plants for APS, the largest and longest-
serving electric utility in Arizona. Over six Megawatts (MW) of solar 
generation has been installed to date by APS, including photovoltaic 
(PV) and advanced concentrator solar power systems (CSP). These CSP 
systems include Concentrating PV (CPV) and one MW of Concentrating 
Solar Trough thermal generating systems.
    Herb has managed the development of new solar technologies that 
have placed APS in a leadership role for solar systems of particular 
promise for utility use. These include larger-scale PV tracking systems 
using present-day commercial PV panels, and the high concentration PV 
(CPV) and dish-engine systems that are emerging to address the price 
and supply limitations of conventional PV products. Much of this work 
is visible at the APS Solar Test And Research (STAR) center, where new 
solar technologies are under test in the Arizona environment.
    In addition to grid-connected solar, Herb initiated the development 
of the APS Remote Solar Electric Service. This program provided off-
grid solar power services to 50 homes and ranches in Arizona, as well 
as several unique larger scale ``solar hybrid'' systems for military, 
national park and commercial customers in the U.S. southwest and 
Mexico.
    Herb is a PE in Arizona, having received his BSEE with honors from 
Arizona State University in 1983. Prior to his solar work at APS, Herb 
performed project management and engineering for APS telecommunications 
systems, and worked four years at Motorola in the development of 
advanced electronic systems.
    Solar technology participation areas:

        <bullet>  Over six MW of solar generation currently installed 
        and operating

        <bullet>  Development and operation of 500 kW of CPV, in 
        collaboration with Amonix Inc.

        <bullet>  Formation of Concentrating Technologies LLC, 
        developing an advanced new triple-junction CPV product in 
        collaboration with Spectrolab

        <bullet>  First Dish Stirling utility installation in Arizona, 
        in collaboration with SAIC and Stirling Thermal Motors, plus 
        studies of advanced Dish Turbine concepts

        <bullet>  Demonstration of the solar generation of hydrogen 
        using Dish Stirling, and the reversible use of hydrogen to 
        generate electricity using the Stirling engine

        <bullet>  Development of the APS large two-axis tracker system 
        for high concentrating solar (320 m2 per unit tracking area)

        <bullet>  Development of APS Single-Axis horizontal tracker PV 
        system

        <bullet>  Development of APS Single-Axis Tilted Tracker PV 
        system

        <bullet>  The first use, and APS development role in Shingleton 
        single-axis tracker, which later was purchased by Powerlight 
        and sold as their Powertracker

        <bullet>  Formation of FWR LLC, manufacturer of solar tracking 
        control electronics, and data acquisition equipment

        <bullet>  Development of APS Remote Solar Electric Service, 
        providing and maintaining small hybrid PV systems for service 
        to remote homes, ranches and larger scale uses

        <bullet>  Working relationships with NREL, Sandia National 
        Labs, Arizona State University, University of Nevada Las Vegas, 
        Weizmann Institute of Science Solar Institute

        <bullet>  Served as member of DOE Concentrating Solar Power 
        Peer Review Commission, 2002

        <bullet>  Several patents, and several papers on high 
        concentration PV and solar tracking systems, numerous 
        international presentations

    Patents:

        <bullet>  Four patents awarded for solar tracking systems and 
        controls

        <bullet>  Four additional patent applications in process

    Ms. Giffords. Thank you, Mr. Hayden.
    Mr. Resch, please.

     STATEMENT OF MR. RHONE RESCH, PRESIDENT, SOLAR ENERGY 
                     INDUSTRIES ASSOCIATION

    Mr. Resch. Thank you, Chairman Lampson, Congresswoman 
Giffords and the Members of the Subcommittee for providing me 
the opportunity to testify on these important issues this 
morning.
    My name is Rhone Resch. I am President of the Solar Energy 
Industries Association, a trade group here in Washington that 
represents over 500 companies and over 20,000 people employed 
in the U.S. solar energy industry including hundreds of small 
businesses throughout the United States.
    I would like to thank the Committee and its staff for 
providing true leadership in advancing solar energy in the 
United States. A key element of leadership is providing the 
opportunity to empower others to lead and today you seek to 
empower individual Americans to strengthen our energy 
independence, to become high-tech workers, adopters and 
advocates for solar technologies that can help meet America's 
energy challenges in the 21st century.
    With regard to the establishment of a check-off program for 
solar, I would like to convey three points. First, the high 
priority--the highest priority for the solar energy industry is 
the creation of a long-term incentive for solar to help lower 
costs and provide a clear market signal to manufacturers to 
actually expand production. Only then will we have a supply to 
meet the demand of an educated market and only then will a 
check-off program succeed. Second, solar energy technologies 
provide significant energy security, environmental, and 
economic benefits to the American public and must be a 
significant part of our energy portfolio going forward. And 
third, the solar industry would greatly benefit from the 
creation of a federal check-off program just as dozens of other 
U.S. industries have benefited from these programs.
    While solar prices have dropped by 90 percent in the last 
25 years, solar is still two to three times as expensive as the 
national retail electricity rates. Furthermore, the United 
States has been eclipsed by Germany, Japan and China in the 
manufacturing and use of solar. Incredibly, Germany installs 
eight times the amount of solar each year as the United States 
despite having the same amount of sunlight as Anchorage, 
Alaska, as you can see from this map here. When you do look at 
that map, you can see that the United States really does have 
world-class solar resources in all 50 states. Certainly if you 
can make solar work well in Germany, you can make it work well 
in all 50 states in the United States. But Germany enjoys 
market leadership because its government has enacted long-term 
incentive policies that have jump-started the installation 
market. Congress is currently considering legislation to extend 
the federal solar investment tax credits for homeowners and 
businesses, H.R. 550, the Securing America's Energy 
Independence Act. Specifically, these bills will create an 
eight-year extension in expansion of the ITC for commercial 
systems and an eight-year extension in expansion for the 
residential systems. I want to commend Chairman Gordon, 
Subcommittee Ranking Member Inglis, Congresswoman Giffords, 
Congressman Udall, Congressman Baird, Congressman Bartlett, 
Congressman McCaul for co-sponsoring this important legislation 
without which a check-off program would not galvanize in the 
United States. We need to have this policy support in place to 
make the domestic industry competitive in the global 
marketplace for solar technologies, and I respectfully request 
that the Committee reach out to Chairman Rangel of the Ways and 
Means Committee and ask him to support the provisions in H.R. 
550 and the tax title of the energy bill which will be marked 
up tomorrow.
    Solar energy is the Nation's most abundant energy resource 
and it can greatly improve the U.S.'s ability to have a secure 
and reliable energy supply. Solar requires no field to operate 
and our panels are warrantied to last for 20 to 25 years, and 
you will see a panel being put up here in just a minute, and 
this is one of the things to point out. Once you install--once 
you buy and install a solar system on your house, it is like 
buying a car with all the gas you will need for it for its 
entire lifetime. Sure, it has most of a cost upfront but it 
will hedge the consumer against rising energy prices in the 
future. And on a community scale, solar can help stabilize 
volatile electricity prices and relieve tight markets for 
natural gas by reducing demand during midday peak when the most 
expensive, least efficient generation is used.
    Moreover, solar is the cleanest method of electricity 
generation. Electricity for solar produces no air pollution, no 
water pollution, no noise pollution, no radiation, no solid 
waste, has no impact on wildlife, except maybe inconveniencing 
the squirrels that are running around on your roof, and uses no 
water for generating electricity, an increasingly important 
issue for the fast-growing communities of Arizona, Nevada, New 
Mexico, California and Colorado, as Herb just pointed out.
    As we begin to tackle climate change in a real manner, keep 
in mind that over the 40- to 50-year life of a solar electric 
system, every kilowatt of solar electric power reduces 217,000 
pounds of CO<INF>2</INF>.
    Finally, as today's hearing demonstrates, there are 
tremendous economic benefits to be gained form increasing our 
use of solar energy. Solar photovoltaic creates 32 jobs per 
megawatt, more than any other form of energy. Solar could 
provide more than tens of thousands of new jobs in the coming 
decade in manufacturing, engineering, construction and 
installation, investing America's energy dollars in America's 
workers.
    If we are to begin harnessing this potential, we must 
significantly increase consumer education and awareness of 
solar technologies. While the public strongly supports the 
increased use of solar, market research shows a broad gap in 
the understanding that solar electricity operates just like 
regular electricity and that solar can work anywhere in the 
United States. Many outdated misconceptions exist that the 
technology must be overcome in order for consumers' use to 
increase of solar. As you can see, this is a solar electric 
panel. Most people still think that solar looks like the 
technology on Skylab, checkerboard pattern, inefficient use. 
This is made by a company in the United States. It looks like a 
flat-screen TV. It is the most efficient panel made in the 
world, 22 percent efficient, absolutely gorgeous. I actually 
put it up on my house last year. It generates about 85 percent 
of my electricity right here in Washington, D.C. It is very 
exciting. But consumers lack the information on how to find 
solar companies and what solar products might be available, and 
most solar installation companies are small businesses, 
typically employing no more than a few dozen people and lacking 
the budget to reduce a broad swath of consumers.
    So in short, the solar industry needs to launch a national 
awareness campaign and numerous other industries have provided 
us with a blueprint to do so. Congressionally created check-off 
programs have served as the backbone of many industries' 
successful promotion campaigns. Mr. Chairman, I am sure we are 
all familiar with the dairy industry's ``Got Milk,'' the cotton 
industry's ``Cotton, The Fabric Of Our Lives'' and the National 
Pork Board's ``Pork, The Other White Meat.'' But Mr. Chairman, 
no pork was involved in the creation of these campaigns, at 
least no Congressional pork. Rather, these industries pooled 
their resources through a comprehensive program to fund 
consumer education. A ``Got Solar'' program, if you will, would 
provide major benefits to the American public. Consumers would 
be able to obtain market information on product and company 
quality and become educated about local and national energy use 
patterns. Meanwhile, local solar installers would benefit from 
broad public outreach that they would otherwise be unable to 
afford and see the resultant growth in their business.
    To be clear, consumer awareness is only one major obstacle 
to the widespread use of solar and a check-off program can only 
work if we have proper market incentives and market mechanisms 
in place.
    I want to thank the Committee for giving me the opportunity 
to speak, and I am available to answer any questions that you 
may have.
    [The prepared statement of Mr. Resch follows:]
                   Prepared Statement of Rhone Resch
    Thank you, Mr. Chairman and Members of the Subcommittee, for 
providing me the opportunity to testify today.
    On behalf of over 500 companies and more than 20,000 employees in 
the U.S. solar energy industry, I would like to express support for the 
Solar Energy Research and Advancement Act of 2007, legislation that 
would help solar energy to make major strides in contributing to a 
clean, domestic, renewable supply of electricity that is of, by, and 
for the American people. SEIA applauds Congresswoman Gabrielle Giffords 
for her visionary leadership in introducing this bill.
    My comments today will focus on the importance of a solar check-off 
program, or ``Got Solar,'' to the future utilization of solar energy 
resources in the U.S. Aside from cost, the greatest obstacle to solar 
reaching a wider domestic market is education and public awareness. 
With respect to a ``Got Solar'' program, I would like to convey the 
following points:

        <bullet>  Greater use of carbon-smart, domestic solar energy 
        would have myriad energy security, economic, and environmental 
        benefits for the American public.

        <bullet>  While the public broadly supports the greater use of 
        solar energy, most Americans do not have a basic understanding 
        of solar technology products or how to purchase them.

        <bullet>  Educating the public on solar energy is primarily the 
        responsibility of the solar industry, but most solar installers 
        are small businesses that lack the means to reach a broader 
        swathe of consumers.

        <bullet>  Building on dozens of U.S. industries' successful 
        examples, Congress should establish a coordinated program of 
        promotion and research, funded by industry at no cost to the 
        government, to increase consumer education about solar energy.

        <bullet>  Finally, a check-off program will only succeed if 
        appropriate incentives are in place, including an eight-year 
        extension of the federal investment tax credits (ITC).

Public Benefits of Solar Energy

    The U.S. solar energy industry is growing and providing more 
carbon-smart, domestic energy every year. Solar energy technologies can 
provide major energy security, environmental, and economic benefits to 
the American public, all of which will be realized with broader 
consumer awareness and adoption of solar.
Energy Security
    As Congress looks to increase the use of carbon-smart renewable 
energy, it is critical that priority be placed on technologies that 
also improve U.S. energy security. Solar energy, in all of its forms, 
is a technology that can greatly improve the U.S.'s ability to have a 
secure and reliable energy supply.
    The electricity infrastructure in the U.S. is aging and energy 
consumers are increasingly subject to outages that affect critical 
infrastructure and disrupt business. The blackout of August 2003 in the 
Northeast, triggered by a tree limb landing on power lines, cost 
consumers and businesses tens of billions of dollars. Unfortunately, 
this event is not unique and will occur with greater frequency if 
Congress does not take steps to diversify our energy portfolio.
    The good news is that this event could easily have been avoided 
through greater use of solar energy. A 2004 Department of Energy (DOE) 
study entitled Solution to the Summer Blackouts? concludes that if 
solar energy had met just one percent of local peak demand, we would 
have avoided the August 2003 blackout and other local brown-outs. DOE's 
explanation was simple: high air conditioning loads stressed the grid 
and created the circumstances for the blackout. This extreme load 
occurred on one of the hottest and sunniest days during the summer--the 
exact time when output from solar systems is greatest. DOE also 
concluded that over reliance on central generating stations led to grid 
fatigue and failure. This infrastructure vulnerability could have been 
minimized through greater reliance on distributed solar energy.
    Photovoltaic (PV) and solar water heating systems are distributed 
generation (DG) technologies. Like other DG technologies, they provide 
energy at the point of consumption rather than at a central power plant 
hundreds of miles away. As such, DG does not rely on vulnerable 
regional transmission lines and local distribution networks. By 
producing energy at the source of consumption, solar power alleviates 
stress and vulnerability on the grid.
    The DOE study also concluded that investing in solar energy is a 
more economically efficient and cost effective way to improve our 
energy infrastructure than capital intensive and often community-
opposed transmission line upgrades and brand-new transmission lines. In 
sum, using solar energy is a cost-effective, affordable way to 
alleviate stress on the electricity grid and improve the overall 
reliability of our electricity infrastructure.
    Solar is also the most reliable source of energy. This reliable 
track record has resulted in wide deployment of the technology in 
applications where power interruptions are unacceptable, including: oil 
and gas industry use of solar energy to power pumps and meters at 
remote locations; telecommunications industry use of solar to power 
relay stations and remote equipment; and, every satellite that has been 
sent out into space in the last 30 years has been powered by solar 
energy.
    Ironically, energy industry acceptance of the technology stands in 
stark contrast to consumer behavior. Consumers are investing hundreds 
of millions of dollars in small gasoline-powered generators. During 
grid failure and electricity outages, electronic gasoline pumps at the 
gas stations do not operate, rendering many generators idle because of 
fuel shortage. Solar energy is a technology that can provide reliable 
power during power outages.
    Finally, solar stabilizes volatile energy prices, a critical energy 
security issue affecting the U.S. today. In the last five years, 
consumers have seen electricity prices escalate between 20 and 78 
percent. At the same time, we have seen the price of natural gas triple 
and the price of gasoline routinely exceed $3.00 per gallon. Each year 
the cost of energy is taking a larger percentage of a family's income 
than at any other time in U.S. history. This energy inflation 
vulnerability especially impacts the poor and elderly on fixed incomes.
    Solar can help address this vulnerability because it requires no 
fuel to operate. Although a solar system is more expensive up front, 
there are no additional costs for operating a system once installed. 
Furthermore, solar panels are guaranteed for 20-25 years, allowing 
consumers to ``lock in'' their electricity prices for decades. 
Recognizing the upward trend in energy costs, incentivizing the use of 
a technology that requires no fuel inputs is an important element of 
any energy security plan.
Energy Independence
    Solar energy is a domestic and abundant energy source in the U.S. 
The U.S. has the best solar resources of any developed country in the 
world. Proportionally, U.S. solar energy resources exceed those of 
fossil, nuclear or other renewable energy resources. Despite this 
tremendous advantage, the U.S. has failed to capture and harness this 
free and readily available energy. In 2006, solar energy produced just 
1/30th of one percent of all electricity in the U.S.; Germany in 
contrast, with the solar resources of Alaska, installed seven times 
more solar energy property than the entire U.S.\1\
---------------------------------------------------------------------------
    \1\ Energy Information Administration, Net Generation by Energy 
Source by Type of Producer, October 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The U.S. is over-dependent on foreign sources of energy. Demand for 
natural gas continues to rise, primarily for electricity generation. 
Increasingly we are turning to countries like Algeria to provide us 
with liquefied natural gas (LNG) to meet our growing demand. According 
to the Federal Energy Regulatory Commission, 41 new LNG terminals are 
proposed for construction in U.S. harbors and off U.S. beaches. 
Constructing these plants will exacerbate our addiction to foreign 
sources of energy. Our desire for energy independence demands a 
different course.
    Solar energy directly displaces natural gas used for heating homes 
and water. In a home, solar can directly replace natural gas used to 
heat radiant systems and can displace up to 70 percent of the natural 
gas used to generate hot water. Many countries that do not have a 
domestic source of fossil fuels, including Spain and Israel, mandate 
that all new homes must have solar water heating systems installed. The 
U.S. can demonstrate similar energy independence by using market 
incentives that spur solar investment and market growth.
    Solar energy also displaces natural gas used to generate 
electricity. Almost all intermediate and peaking electricity plants use 
natural gas as the source of energy. These plants are often very 
inefficient and produce expensive electricity. Solar energy, which 
generates electricity from 8 A.M.-7 P.M. daily, can displace these 
inefficient, high cost power plants, and become a reliable source of 
firm, dispatchable power. Given the high price of natural gas to key 
industrial sectors and consumers, the U.S. can no longer afford to 
neglect its abundant solar resources.
    In addition to tempering natural gas demand growth, solar can also 
generate electricity to be used by plug-in hybrids and electric 
vehicles, thereby displacing gasoline derived from foreign oil 
supplies. Imagine a gasoline-free electric vehicle that also uses 
electricity derived from the sun rather than a coal-fired plant. The 
technology is advancing rapidly in this direction.
Environmental Benefits
    Though the environmental benefits of solar energy might be 
considered a given, it is worth highlighting several points. Solar is 
the cleanest method of energy generation, in terms of avoided air, 
waste and noise pollution, energy payback, water conservation, avoided 
radiation and harm to wildlife, or environmental risk in the event of 
an accident.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Solar energy produces no greenhouse gases, no acid precipitation or 
toxic emissions, and no other air pollution of any kind. Over the 40-50 
year life of a solar electric system, every kilowatt (kW) of solar 
electric power reduces 217,000 pounds of carbon dioxide, 1500 pounds of 
sulfur dioxide, and 830 pounds of nitrogen oxides emissions as compared 
to electricity produced by conventional generation.\2\
---------------------------------------------------------------------------
    \2\ NREL report, ``Distributed Energy Resources for the California 
Local Government Commission,'' October 2000.
---------------------------------------------------------------------------
    Photovoltaic solar energy generates electricity without use any 
water. In contrast, fossil fuel and nuclear based electricity 
generation use substantial amounts of water to run steam turbines. 
Across the western United States, approximately 40 percent of fresh 
water withdrawals are used for electric generation.\3\ If water-starved 
communities like Phoenix and Las Vegas are to continue growing, we must 
place greater emphasis on water-free electricity generating 
technologies.
---------------------------------------------------------------------------
    \3\ Sandia National Laboratories, Energy-Water Nexus, http://
www.sandia.gov/news-center/news-releases/2006/environ-waste-mgmt/
mapwest.html
---------------------------------------------------------------------------
    Concerns have been raised whether the energy used to produce solar 
panels is surpassed by the amount of energy generated from the panels. 
This energy relationship is referred to as the ``energy payback 
period.'' Currently, the energy payback for PV panels varies from 1-4 
years depending on different manufacturing variables. This means that a 
PV panel with a life expectancy of 40-50 years will generate between 10 
and 50 times more energy than was required to create the panel. Despite 
this superior ``energy return on investment,'' the manufacturing 
process is still growing more efficient every year as the scale of 
production increases.\4\
---------------------------------------------------------------------------
    \4\ NREL Report No. NREL/FS-520-24619: ``Energy Payback: Clean 
Energy from PV''
---------------------------------------------------------------------------

Strong Public Support Exists for Greater Solar Development

    Polls consistently reflect that the American public strongly 
supports the accelerated use of solar technologies. For example, a 2005 
poll by the Yale Center of Environmental Law and Policy 2005 found that 
90 percent of Americans support building more solar power facilities to 
help reduce U.S. dependence on energy imports. A Roper Public Affairs 
poll conducted in May 2007 found that nearly 90 percent of Americans 
believe home builders should offer solar power as an option for all new 
homes constructed. And 73 percent of those surveyed in another Roper 
survey in 2006 said that solar energy technology is more important 
today than ever in responding to America's energy challenges.
    In general, Americans would like to see the Federal Government take 
a more active role in promoting solar development. A February 2006 poll 
by the Pew Research Center found that 82 percent of respondents favored 
increasing federal funding for research on wind, solar and hydrogen 
technology. A March 2006 ABC News/Time/Stanford University poll found 
that 87 percent favored tax breaks for companies to produce more 
electricity from water, wind and solar. Note that these policies would 
require the use of taxpayer funds, unlike a check-off program.
    Finally, polling surveys demonstrate that Americans are willing to 
pay more for solar technologies under certain conditions. An April 2007 
study by the New York Times and CBS News found that 75 percent of 
Americans were willing to pay more for solar electricity if it helped 
reduce global warming. Meanwhile, one-half of respondents in the May 
2007 Roper survey said they would spend up to 10 percent more for a 
solar-equipped house when told that solar homes have a proven higher 
resale value. A majority of respondents cited the financial and energy 
savings of a solar system as the main benefit of buying a solar system, 
indicating that consumers are assessing solar for its potential savings 
benefits and would support a program that drives down the cost of 
solar.

Need for Improved Consumer Education About Solar

    However, while 87 percent of respondents to the New York Times/CBS 
News poll supported the use of solar to generate electricity, just 
three percent of respondents said that they used solar to generate 
heat, hot water, or electricity. That is actually a far higher solar 
use percentage than amongst the American public at large, but it 
nevertheless illustrates the gap between broad public support for solar 
and its de minimis use today.
    Though growing exponentially and constantly innovating, the U.S. 
solar industry is still in a nascent period. As mentioned above, solar 
PV provides less than 1/30th of one percent of the current U.S. 
electricity supply. Furthermore, PV is primarily a distributed 
generation technology that is installed on the rooftops of homes and 
businesses throughout the U.S.--a paradigm shift from the traditional 
model of centralized electricity generation. Most solar installation 
companies are small businesses, typically employing no more than a few 
dozen people, and lacking the budget to reach a broad swathe of 
consumers.
    Thus, even as consumers embrace the idea of solar power, they are 
usually not fully aware of its capabilities and they have 
misconceptions about how a solar energy system works in a home. Market 
reports demonstrate a lack of consumer understanding that solar 
electricity operates just like regular electricity and is the same kind 
of electricity that a local utility company provides. 29 percent of 
respondents to the May 2007 Roper survey were not aware that solar 
energy can power common electric devices like computers or appliances. 
A number of common myths persist about modern solar technology, such as 
the belief that solar will not work in places outside of the Sunbelt or 
that solar devices require more energy to manufacture than they produce 
in their lifetime, and these myths often inhibit consumer consideration 
of solar as a viable energy source.
    Furthermore, consumers lack information on how to find solar 
companies or what solar products might be available. On a daily basis, 
the most common phone calls to SEIA come from consumers who ask, 
``Where can I find solar for my home?'' The industry has taken a number 
of steps to centralize this type of information, including the 
development of a national solar installer directory, Findsolar.com. 
Individually, several companies have undertaken consumer awareness 
campaigns that focus on basic technology education. Yet these efforts 
clearly do not equate to the potential reach of a national consumer 
awareness campaign.

Benefits of a Solar Check-Off Program

    A ``Got Solar'' program, based on a successful model used by other 
industries, would address the above concerns by creating an industry-
funded national education campaign on the benefits of solar energy. 
Collectively, the industry would pool its resources through an 
industry-wide program to fund this educational effort.
    SEIA anticipates major benefits both to the consumer and to the 
industry with the creation of a check-off program. Consumers would 
increasingly have the information they need to ``go solar.'' As the 
availability of market information increases, consumers would be better 
able to conduct due diligence on product and firm quality before 
purchasing a system. Educated consumers could convince their 
businesses, local utilities, and public representatives to adopt solar 
energy and promote its use. And the program would also help to drive 
down the costs of solar to the consumer over time, creating a market 
demand signal that would help companies to rapidly increase production 
for the U.S. market and achieve economies of scale.
    The solar industry would also reap the benefits of increased 
consumer education and focused demand, which would translate into 
industry growth. A vibrant and well-functioning market system would 
greatly help to make the domestic industry competitive in the global 
marketplace for solar energy technologies. The benefits of increased 
awareness of solar would accrue to a wide group of small-to mid-sized 
industry players (installers, local integrators, equipment suppliers), 
many of whom would not be able to afford this type of broad public 
outreach and education.

Successful Precedents for a Solar Check-Off Program

    The ``Got Solar'' program is based on a very successful model used 
in other industries to increase consumer awareness of their product. 
Check-off programs have helped fund the dairy industry's ``Got Milk'' 
campaign, the American Egg Board's ``Incredible Edible Egg,'' the 
America's Cotton Producers and Importers' ``Cotton, the Fabric of Our 
Lives,'' and the National Pork Board's ``Pork, the Other White Meat.'' 
In each case, a piece of legislation similar to the ``Got Solar'' 
program created a board that collects a small assessment from each of 
the industry's members.\5\ The funds are then directed toward education 
and public awareness campaigns.
---------------------------------------------------------------------------
    \5\ Examples of statutes establishing check-off programs include: 
National Oilheat Research Alliance Act, 42 U.S.C.  6201; Commodity 
Promotion, Research, and Information Act, 7 U.S.C.  7401; 7411-7425; 
Cotton Research and Promotion Act, 7 U.S.C.  2102-2118; Potato 
Research and Consumer Information Act, 7 U.S.C.  2611-2627; Egg 
Research and Consumer Information Act, 7 U.S.C.  2701-2718; Beef 
Research and Information Act, 7 U.S.C.  2901-2911; Wheat and Wheat 
Foods Research and Nutrition Education Act, 7 U.S.C.  3401-3417; 
Floral Research and Consumer Information Act, 7 U.S.C.  4301-4319; 
Dairy Production Stabilization Act, 7 U.S.C.  4501-4538; Honey 
Research, Promotion, and Consumer Information Act, 7 U.S.C.  4601-
4613; Pork Promotion, Research, and Consumer Information Act, 7 U.S.C. 
 4801-4819; Watermelon Research and Promotion Act, 7 U.S.C.  4901-
4916; Pecan Promotion and Research Act, 7 U.S.C.  6001-6013; Mushroom 
Promotion, Research, and Consumer Information Act, 7 U.S.C.  6101-
6112; Lime Research, Promotion, and Consumer Information Act, 7 U.S.C. 
 6201-6212; Soybean Promotion, Research, and Consumer Information 
Act, 7 U.S.C.  6301-6311; Fluid Milk Promotion Act, 7 U.S.C.  6401-
6417; Fresh Cut Flowers and Fresh Cut Greens Promotion and Information 
Act, 7 U.S.C.  6801-6814; Sheep Promotion, Research, and Information 
Act, 7 U.S.C.  7101-7111; Canola and Rapeseed Research, Promotion, 
and Consumer Information Act, 7 U.S.C.  7441-7452; National Kiwifruit 
Research, Promotion, and Consumer Information Act, 7 U.S.C.  7461-
7473; Popcorn Promotion, Research, and Consumer Information Act, 7 
U.S.C.  7481-7491; Hass Avocado Promotion, Research, and Information 
Act, 7 U.S.C.  7801-7813.
---------------------------------------------------------------------------
    Two examples of well-functioning check-off programs can be found in 
the oil heating and beef industries. The oil heating industry pushed 
for passage of the National Oilheat Research Alliance (NORA) Act of 
2000, which assesses a charge of $.002 per gallon produced on members 
of the oil heating industry. The program has allowed an otherwise 
fragmented industry to pool its resources for advertising and also for 
crucial research and development. NORA uses the funds to help 
development new oil heating technologies, bringing better products with 
higher efficiencies to the public.
    In another well-known example, the Beef Promotion and Research Act 
of 1985 charges cattle producers and importers $1 per head of cattle, 
with the assessments overseen by the Beef Board and going to fund the 
National Cattlemen's Beef Association. The program brings in millions 
of dollars per year to fund public education and advertising campaigns, 
including the popular ``Beef, It's What's for Dinner'' campaign. This 
check-off program has been the backbone of the modern beef industry in 
the United States.
    The beef industry's check-off program has undergone close economic 
analysis since it was established. The most recent report, by Dr. Ron 
Ward of the University of Florida, studying the check-off program from 
2000-2004, showed the program to be an exceptionally good method of 
growing an industry's market. The study found that for every dollar 
invested in the check-off program, there was an industry return of 
$5.\6\
---------------------------------------------------------------------------
    \6\ Dr. Ronald W. Ward, ``Beef Demand and the Rate-of-Return to the 
U.S. Beef Checkoff,'' September 2004, http://www.beefboard.org/uDocs/
wardstudy-2004.pdf; Agricultural Marketing Service of the Department of 
Agriculture, http://www.ams.usda.gov/lsg/mpb/beef/beefchk.htm
---------------------------------------------------------------------------

Need for Legislative Authority

    For a solar check-off program to be effective, it must be 
established through the legislative process. Historically, industries 
have organized voluntary check-offs, but they account for only a small 
share of all funding for generic efforts. Hundreds of mandatory farm 
commodity promotion programs have been legislated by states or the 
Federal Government. Nine out of ten U.S. farmers were contributing to 
one or more of these efforts by the mid-1990s.\7\
---------------------------------------------------------------------------
    \7\ Armbruster, Walter J., and John P. Nichols. Commodity Promotion 
Policy. 1995 Farm Bill
---------------------------------------------------------------------------
    The adoption of a check-off program would ensure that all 
companies, both domestic and foreign, participate in a campaign to 
educate consumers on solar energy technologies. Authority to collect 
assessments is facilitated by the government for the practicalities of 
dealing in interstate commerce and the realities of enforcement to 
eliminate the problem of ``free riders,'' or nonpaying companies that 
might otherwise benefit economically from programs that others have 
funded.
    The establishment of legislative authority would help ensure that a 
solar check-off program would succeed. Though it may be viewed as an 
industry-imposed ``tax,'' it is a tax that is established by the 
industry, with the blessing of members of the industry, and for the 
benefit of the industry. Thus, the industry would have the power to 
periodically evaluate the effectiveness of the program, with a focus on 
its economic benefits to industry members.

Comments on the Solar ERA Proposal

    SEIA requests a few key modifications to the proposed check-off 
program in the Solar ERA Act. First, current language would exclude 
SEIA from nominating its member companies to the Board of the new 
organization, and SEIA would not be able to have a representative 
participate on the Board. As the national trade association 
representing the industry, SEIA would appropriately play a significant 
role in a national industry consumer awareness and education campaign. 
Therefore, we request that the criteria for eligible groups be modified 
to provide SEIA with the opportunity to nominate candidates and 
directly participate in Board activities.
    Second, while we support a scheduled industry referendum on the 
continuation of the program, we believe that the current 22-month 
target date does not provide enough time for the creation of a new 
organizational infrastructure and the development, testing, and 
execution of a national campaign. We request that the target date be 
set no earlier than four years from the passage of legislation. 
Additionally, we believe that the current 10 percent threshold of 
companies needed to request future referenda is too low and could 
potentially derail the program from being effective, and we propose 
that the threshold be raised to a minimum of 25 percent.

Conclusion

    A ``Got Solar'' program would be a sound investment in our 
country's energy future. By providing a mechanism to increase consumer 
awareness about solar energy products, we can empower the American 
consumer to become part of the solution to the energy challenges we 
face as a society. A check-off program would see more of our energy 
purchasing dollars go towards an economically vibrant domestic 
manufacturing and installation base, and promote a carbon-smart, 
domestically produced energy source from the most abundant source on 
the planet--the sun.
    Thank you very much for your consideration of my testimony. I look 
forward to answering any questions you may have.

                       Biography for Rhone Resch
    Rhone Resch is the President of the Solar Energy Industries 
Association (SEIA), the national trade association of the solar energy 
industry. In this capacity he is responsible for managing all aspects 
of the trade association and ensuring their success in advancing solar 
energy in the U.S.
    SEIA represents all solar technologies and serves as the voice of 
solar energy in the United States and is responsible for all market 
analysis and lobbying on behalf of the solar industry with Congress and 
the Administration. SEIA's recent successes include the creation of the 
residential and commercial tax credits in the 2005 Energy Policy Act 
and an expansion of the Department of Energy's solar program budget 
from $84 million to $175 million. SEIA also orchestrates public 
campaigns working with the media to help shape public support for solar 
energy.
    Mr. Resch has over 15 years of experience in clean energy and 
energy efficiency, both in the private sector and the Federal 
Government. Prior to coming to SEIA, he was Senior Vice President of 
the Natural Gas Supply Association, a trade association that represents 
both major and independent companies that produce and market natural 
gas.
    In addition he has served as Program Manager at the EPA's Climate 
Protection Division in the Office of Air and Radiation, where he 
developed and implemented energy efficiency programs to reduce 
greenhouse gas emissions and hazardous air pollutants from the 
petroleum industry.
    He also sits on the boards of the Business Council for Sustainable 
Energy, the Global PV Solar Energy Council, and is Chairman of the 
Western Governors Association Solar Energy Task Force.
    He holds an MPA in Management from Syracuse University's Maxwell 
School, a Master of Environmental Engineering from SUNY Syracuse, and a 
B.A. from the University of Michigan. He lives in Washington, D.C. with 
his wife Lisa and two children and has a six kW photovoltaic system on 
his home.

    Ms. Giffords. Thank you.
    Ms. Weissman, please.

    STATEMENT OF MS. JANE M. WEISSMAN, EXECUTIVE DIRECTOR, 
INTERSTATE RENEWABLE ENERGY COUNCIL; VICE CHAIR, NORTH AMERICAN 
            BOARD OF CERTIFIED ENERGY PRACTITIONERS

    Ms. Weissman. Madam Chairman, Chairman Lampson, Members of 
the Committee and staff, I am very encouraged to be here this 
morning and I really thank you for the opportunity.
    This is a perfect time to be talking about training and 
building a confident and strong workforce for solar energy. 
Solar electric installations grew by over 40 percent in 2006. 
If we meet the goals of the photovoltaic industry roadmap, 
direct employment will increase from 20,000 now to 62,000 in 
2015. By the U.S. Department of Energy's own estimates, as many 
as 5,000 trained installers may be needed to accomplish their 
new Solar America Initiative. Many recent and well-documented 
reports and research show continued and robust investment and 
growth for the solar energy market, but as the market grows, so 
does the need for quality and accessible training opportunities 
for these new green collar jobs.
    The good news is that the framework is in place to give us 
the tools we need to develop a strong workforce. NABCEP, the 
North American Board of Certified Energy Practitioners, offers 
professional credentials for renewable energy installers. Since 
2003, NABCEP has certified 365 solar electric installers from 
40 states. NABCEP certifications are based on strict 
psychometric guidelines and credentialing principles. The 
process is rigorous for the applicant and requires documenting 
experience and passing a four-hour exam. NABCEP's competency 
standard sends a clear message to consumers and public 
officials that the industry stresses safe and ethical business 
practices and high-quality workmanship standards. The bar has 
been raised for professional services in the solar industry.
    While NABCEP certifies the installer, IREC, the Interstate 
Renewable Energy Council, accredits the training programs and 
certifies the instructors. Credentials are awarded using 
standards developed by the Institute for Sustainable Power. 
These standards ensure legitimacy of what is being taught and 
by whom. A system of review and audit provides a means to 
compare content, quality and resources across a broad range of 
training.
    We see promising trends for new practitioner programs. 
Community colleges, as my colleague, Joe Sarubbi, will talk 
about, and technical schools are offering renewable energy 
courses. These range from stand-alone courses, new energy 
certificates and associate degree programs. Classes are 
expanding from three- to five-day workshops to semester-long 
courses.
    The Committee asked me three questions. Question number 1: 
Is there a sufficient number of people trained? As market 
performance continues to grow, the number of current training 
opportunities falls far short of meeting the demand for 
qualified workers. We need more classroom and hands-on training 
tailored to meet local labor needs. Alliances need to be 
developed and advisory committees established between training 
centers and local business. The curriculum needs to include 
real-world preparation with field and on-the-roof internships.
    Question 2: Are such programs necessary or useful? The 
current training programs are a start at providing a critical 
service that supports a strong and growing solar industry. 
However, their reach is limited and training opportunities need 
to be broadened. We must make sure that training programs are 
teaching students the right skills to do a good job, that the 
facilities include the right equipment and hardware, that safe 
practices are utilized and that teachers are qualified. While 
many states support workshops and training programs, New York 
provides a national model for us. Installer training is a top 
priority for NYSERDA, the New York State Energy Research and 
Development Authority. To date, NYSERDA has invested nearly $1 
million to develop seven accredited solar training centers 
across the state. NYSERDA's program is one to emulate and 
replicate as it serves as a proven model for future training 
programs.
    Question 3: How can the quality of training programs be 
ensured? Training needs to be based on industry standards so 
that students are taught the right skills with the right 
equipment. We recommend the following. Training should lead to 
defined workplace knowledge, skills and abilities. Training 
should address issues of safety, codes and core competencies of 
an industry-approved task or job analysis. Training should be 
in an environment with appropriate facilities, tools and safe 
practices. Training should offer a formal and planned learning 
structure where the learner receives some sort of feedback and 
their progress is monitored and training programs and learning 
objectives should be assessed and receive independent approval 
or accreditation.
    We have the foundation in place for training and developing 
a strong workforce. NABCEP's third-party certification programs 
are a means for consumers to identify qualified workers. NABCEP 
has set industry standards high. Now we need to provide the 
training to meet these standards.
    Madam Chair, I thank you for this opportunity. Members of 
the Committee, thank you, and I would be happy to answer any 
questions.
    [The prepared statement of Ms. Weissman follows:]
                 Prepared Statement of Jane M. Weissman
    Mr. Chairman, Representative Giffords, and Members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss education and training programs to facilitate the adoption of 
solar energy technology.
    I am the Executive Director of the Interstate Renewable Energy 
Council, a non profit organization working with state agencies, 
communities and industry across the country. Along with technical 
assistance, targeted outreach, promoting uniform guidelines and 
standards, and consumer protection, we focus on some of the current and 
often difficult issues facing expanded renewable energy use such as 
connecting small-scale renewables to the utility grid and developing 
quality assessment programs for renewable energy professionals, 
products and training programs. The Interstate Renewable Energy Council 
offers third-party verification of training programs and instructors 
using an application and audit assessment process based on standards 
developed by the Institute for Sustainable Power which is used 
internationally. This framework of standards and metrics verify that 
training programs and instructors have met predetermined and consistent 
criteria. The Interstate Renewable Energy Council is celebrating its 
25th anniversary this year.
    I also serve as the Vice Chair of the North American Board of 
Certified Energy Practitioners, NABCEP, a national, non profit 
corporation offering professional credentials for renewable energy 
installers. NABCEP was started in 2002 with the first certification 
program for solar electric installers launched in 2003. To date, there 
are 365 certified solar electric installers from 40 states. Both the 
photovoltaic and solar thermal programs are based on strict, 
psychometric principles and credentialing guidelines. It is a rigorous 
process requiring documentation of experience and/or training and the 
passing of a four-hour exam. NABCEP's competency standards for 
certification sends a clear message to consumers and public officials 
that the Industry stresses high quality, safe and ethical business 
practices and workmanship standards. The bar has been raised for 
professional services for the solar industry.
    This is a perfect time to be talking about training and building a 
competent and strong workforce.
    The solar industry reports that solar electric installations grew 
by over 20 percent in 2006. If the goals of the Photovoltaic Industry 
Road Map are met, total installed capacity could increase to 9,600 MW 
by 2015. Direct employment would increase from 20,000 now to 62,000 by 
2015.\1\
---------------------------------------------------------------------------
    \1\ Our Solar Power Future. PV Energy Road Map. www.seia.org
---------------------------------------------------------------------------
    The U.S. Department of Energy estimates that as many as 5,000 
trained installers may be needed by 2015 to accomplish their new Solar 
America Initiative.\2\
---------------------------------------------------------------------------
    \2\ DOE Solar America Initiative (SAI) Funding Opportunity 
Announcement, October 11, 2006. The goal of the SAI is to reduce the 
cost of solar photovoltaic technologies so that they become cost-
competitive by 2015.
---------------------------------------------------------------------------
    A survey conducted by the investment bank Jefferies & Company in 
February 2007 said that among renewable energy sources, solar power is 
viewed as likely to contribute most to the world's primary energy 
supplies by 2020.\3\
---------------------------------------------------------------------------
    \3\ March 7, 2007. RenewableEnergyAccess.com
---------------------------------------------------------------------------
    According to a report released in March 2007 by Clean Edge, global 
clean-energy markets are ready to quadruple in the next decade, growing 
from $55.4 billion in revenues in 2006 to more than $226.5 billion by 
2016 for four technologies--biofuels, wind power, solar photovoltaics 
and the fuel cell and distributed hydrogen market.\4\
---------------------------------------------------------------------------
    \4\ Clean Energy Trends 2007. Authors: Joel Makower, Ron Pernick 
and Clint Wilder, Clean Edge.
---------------------------------------------------------------------------
    Add to these facts and market-based predictions rising retail 
electric grid prices, volatile pump prices, climate change, the 
increasing value of energy independence, and new and expanded state and 
federal policies. All of these influences are resulting in new ``green-
collar'' jobs.

Training Trends

    Over the years, the renewable energy industry has been fortunate to 
have a number of training centers--the Florida Solar Energy Center, 
Solar Energy International, the Midwest Renewable Energy Association, 
the North Carolina Solar Center and the Great Lakes Renewable Energy 
Association. These dedicated programs have provided us with experienced 
instructors and well-trained students. But as the market grows, so does 
the need for quality and accessible training opportunities.
    We are starting to see encouraging trends.\5\
---------------------------------------------------------------------------
    \5\ Trends in Practitioner Training for the Renewable Energy 
Trades. Weissman, J.M. and Laflin, K. Proceedings American Solar Energy 
Society Conference, July 2006, Denver, CO.

        <bullet>  More and more Community Colleges and Technical 
        Schools (high schools and private) are offering Renewable 
        Energy Courses. These range from stand-alone courses, new 
        energy certificates, associate degree programs, and customized 
---------------------------------------------------------------------------
        training for business and industry.

        <bullet>  Classes are expanding from three- to five-day 
        workshops to semester-long courses.

        <bullet>  Students range anywhere from 18-45 years of age. They 
        may be existing college students in energy programs, other 
        technology disciplines, existing trades people, those looking 
        at changing careers or those who are currently working in the 
        industry and are upgrading their skills and knowledge.

        <bullet>  Some Community Colleges are incorporating renewable 
        and alternative energy technology into existing trade programs 
        such as construction, electrical, Heating, Ventilation & Air 
        Conditioning, and industrial maintenance trades programs.

    In Eugene, Oregon, Lane Community College Energy Management Program 
offers a degree and certificate program with a concentration for 
Renewable Energy Technicians.\6\
---------------------------------------------------------------------------
    \6\ Workforce Education for Renewable Energy: Lessons Learned from 
a National Gathering of Educators. Weissman, J.M., Ferranti, A. and 
Laflin, K. Proceedings American Solar Energy Society Conference, July 
2007, Cleveland, OH.
---------------------------------------------------------------------------
    Cape Cod Community College Construction Technology program was 
recently relocated under the umbrella of the Environmental/Renewable 
Energy Program. All of the Renewable Energy and Energy Efficiency 
courses will be electives for the Construction Tech program.
    The curriculum at two technical high schools on Cape Cod in 
Massachusetts has been developed so that renewable energy is integrated 
into existing shops and academic areas with articulations at Cape Cod 
Community College.
    In January 2006, Austin Community College and the Texas State 
Energy Conservation Office advertised the offering of a 48-hour, 14-
week course in solar electricity. The class at Austin Community College 
sold out two weeks ahead of the official start date prompting Austin 
Community College to offer a second section for the 2006 winter 
semester.
    In November 2005, Hudson Valley Community College in Troy, New York 
opened its photovoltaic laboratory providing students hands-on 
experience installing photovoltaic systems. The courses are included in 
the college's Electrical Construction and Maintenance program 
curriculum.
    Madison Area Technical College's Consortium for Education in 
Renewable Energy Technology is a partnership among multiple 
institutions to share instructional resources and expertise. The 
curriculum is designed to supplement traditional degree and 
apprenticeship programs and serve the needs of workers and employers.
    The Renewable Energy Diploma Series at North Carolina State 
University is structured so that intensive technology training covers 
not only the technical aspects but also the policy and business parts 
of the industry.
    Through internship programs, students are gaining in-field, on-the-
roof installation experiences in New York through the state and 
industry mentor/student program. The program is administered by the New 
York Solar Energy Industry Association and supported by the New York 
State Energy Research and Development Authority (NYSERDA).
    And the National Joint Apprenticeship & Training Program, the 
training arm for the IBEW, offers its members and local unions quality 
training in photovoltaics. In fact, they just published a text book on 
Photovoltaic Systems, which is an important contribution to training 
around the country.

Question 1.  Is there sufficient number of people trained and if not, 
is there a sufficient number of training programs?

    If market past performance continues and current projections are 
realized, these emerging training opportunities fall far short of 
expected demand for qualified workers. The Solar Energy Industries 
Association predicts that direct employment could increase from 20,000 
now to 62,000 by 2015. The U.S. Department of Energy estimates that 
5,000 trained installers could be needed to meet their goals. To date, 
we have just 365 certified solar electric installers and 40 certified 
solar thermal installers. While there are more installers who have not 
become NABCEP-certified, and while some of them hold licenses providing 
evidence of competency, there is still a growing demand for trained and 
qualified workers.
    And, even though we are seeing more Community Colleges and other 
educational providers offer training programs and even with distance 
learning and web-based instructional opportunities, we need more 
classroom and hands-on training tailored to meet local labor needs. We 
need to see alliances developed and advisory committees established 
between training centers and local business and industry. Curriculum 
needs to include real-world preparation for solar installers with field 
and laboratory experiences provided.

Question 2.  Are such programs necessary or useful for prospective 
solar panel installers and consumers?

    The programs described above are providing a critical service to 
support a strong and growing solar industry. However, their reach is 
limited and training opportunities need to be broadened.
    As part of the Solar America Initiative (SAI), the DOE Solar Energy 
Technologies Program is analyzing the current situation to identify 
needs for the training and certification of photovoltaic system 
designers and installers. A task force has been convened to study and 
report on these issues.
    As training programs are offered by a variety of educational 
providers, how do potential students know that they will be taught the 
skills and knowledge they will need to do a good job? Do the facilities 
include the right equipment and hardware for training? Are there 
procedures that ensure safety and safe practices? Are the programs 
managed in a fiscally responsible way? Are the teachers qualified? 
These are some of the questions that come to mind as more courses are 
offered and enrollment increases.
    While many states support workshops and training programs, New York 
provides a national model. Installer training is a top priority for the 
New York State Energy Research and Development Authority. NYSERDA is 
supporting the development of an in-state network of training programs 
to provide accessible and quality instructional opportunities for those 
already in the renewable energy trades or for those who are planning to 
enter the profession. To date, NYSERDA has invested nearly $1,000,000 
in developing seven accredited solar training centers and continuing 
education programs across the state, partnering with SUNY Delhi, SUNY 
Farmingdale, the Ulster County Board of Cooperative Educational 
Services (BOCES), Alfred University, Hudson Valley Community College, 
the City University of New York and local Joint Apprenticeship & 
Training Committees/IBEW.
    The NYSERDA program is one to emulate and replicate as it serves as 
a proven model for future training programs.

Question 3.  How can the quality of training programs be ensured?

    Training needs to be based on industry standards so that students 
are taught the right skills with the right equipment.
    The Interstate Renewable Energy Council, with input from industry 
and education subject matter experts, recommends the following 
guidelines for practitioner training:

        <bullet>  Training should be designed to provide educational, 
        training, and skill development experiences that lead to 
        defined workplace knowledge, skills, and abilities.

        <bullet>  Training should appropriately addresses issues of 
        safety, codes, and core competencies of an industry-approved 
        task or job analysis.

        <bullet>  Training should be taught in an atmosphere with 
        appropriate facilities, tools, safe practices as well as 
        administrative and managerial quality.

        <bullet>  Training should offer a formal and planned learning 
        structure where the learner receives some sort of feedback and 
        the learner's progress is monitored.

        <bullet>  Training should be taught under the administration of 
        a legally registered entity.

        <bullet>  Training programs and learning objectives should be 
        assessed and receive independent approval or accreditation.

Closing Remarks

    The foundation is in place for training and developing a strong 
workforce. NABCEP's third-party verification and certification programs 
result in a means for consumers to identify qualified installers and 
encourage the development of a well-qualified workforce. NABCEP has set 
industry standards high. . .now we need to provide the training to meet 
these standards.
    Mr. Chairman, Representative Giffords and Members of the Committee, 
this concludes my prepared statement. I would be happy to take any 
questions.

                     Biography for Jane M. Weissman

POSITIONS

        <bullet>  Executive Director, Interstate Renewable Energy 
        Council (IREC). 1994-Present

                 Responsible for all policy directions, operations, and 
                management for this non-profit, membership 
                organization. Developed the strategic route that 
                resulted in national recognition of the Council for its 
                education, procurement, and market-based programs. 
                Collaborate with the U.S. Department of Energy, 
                National Laboratories, state energy offices, other 
                state and municipal offices, community groups, 
                industry, and national organizations to promote the 
                procurement and use of renewable energy resources. 
                Developed expertise in quality assessment through the 
                development of certification and accreditation 
                programs.

        <bullet>  National Director, Photovoltaics for You Program. 
        1991-1994

                 Directed this national commercialization initiative. 
                Worked with utilities, regulators, government, consumer 
                advocacy groups, and the photovoltaic industry.

        <bullet>  Executive Director of the Massachusetts Photovoltaic 
        Center of Excellence. Commonwealth of Massachusetts. 1985-1991.

                 Directed this multi-million dollar solar electric 
                high-tech, public/private initiative. Responsible for 
                all policy, marketing, operations, and program 
                development.

EDUCATION

        <bullet>  Harvard University, John F. Kennedy School of 
        Government, Program for Senior Executives of the Commonwealth 
        of Massachusetts, 1989.

        <bullet>  Suffolk University, Business and Public 
        Administration Graduate Courses, 1974.

        <bullet>  B.A. Hood College, Frederick, Maryland. 1970.

        <bullet>  ANSI Standards Training Course: Requirements of the 
        ISO/IEC 17024

        <bullet>  ANSI Standards Training Course: Standards Development 
        Process

PUBLICATIONS

        <bullet>  Jane M. Weissman (IREC), Kirk Laflin (PETE). Trends 
        in Practitioner Training for the Renewable Energy Trades. 
        Proceedings at the ASES Solar 2006 Conference. July 2006.

        <bullet>  Jane M. Weissman (IREC). Defining the Workforce 
        Development Framework & Labor Market Needs for the Renewable 
        Energy Industries. Proceedings at the ASES Solar 2004 
        Conference. July 2004.

        <bullet>  Ward Bower (SNL), Jane Weissman (IREC), Wendy Parker 
        (ISP). Certification Programs for the Photovoltaic Industry--
        Status and Plans. February 2003.

        <bullet>  Barbara Martin (FSEC), Jane M. Weissman (IREC), Mark 
        Fitzgerald (ISP). A National Program for Certifying Solar 
        Electric Practitioners. Proceedings at the 8th International 
        Symposium on Renewable Energy Education. August 2002.

        <bullet>  Wendy Parker (ISP), Ward Bower (SNL), Jane Weissman 
        (IREC). Costs and Benefits of Practitioner Certification or 
        Licensure for the Solar Industry. Proceedings of the IEEE 29th 
        PV Specialist Conference, New Orleans, LA, May, 2002.

AFFILIATIONS

        <bullet>  Board Member & Vice Chair, North American Board of 
        Certified Energy Practitioners. 2001-Present

        <bullet>  Board Member, Solar Rating and Certification 
        Corporation. 2005-Present.

        <bullet>  Elected as a Fellow of the American Solar Energy 
        Society. 2004.

        <bullet>  Board Member & Secretary, Institute for Sustainable 
        Power. 2004-Present.

        <bullet>  Member, Solar Today Magazine Advisory Council. 
        Present.

    Ms. Giffords. Thank you.
    Mr. Sarubbi, please.

STATEMENT OF MR. JOSEPH T. SARUBBI, PROFESSOR/DEPARTMENT CHAIR, 
BUILDING SYSTEMS TECHNOLOGY DEPARTMENT, HUDSON VALLEY COMMUNITY 
                            COLLEGE

    Mr. Sarubbi. Thank you. Madam Chair, Members of the 
Committee, it is certainly an honor and a pleasure for me to 
appear before you today to discuss the value of training 
programs for the installation and maintenance of photovoltaic 
systems. I truly believe the timing is right for our country to 
invest in renewable energy technologies. We are witnessing a 
renaissance in thinking about the way we generate and use 
energy in America and solar power is a key component of this 
new mindset.
    As we continue to embrace solar power, we need a well-
training workforce to be responsive to this fast-growing 
industry to ensure success and our country has the educational 
infrastructure at the post-secondary level capable of creating 
a skilled workforce in photovoltaic installation and 
maintenance.
    At the forefront of this training are community colleges. 
With the right resources, I have witnessed firsthand the 
ability of community colleges to quickly take action and 
develop credit and non-credit courses, certificate programs as 
well as associate's degrees to develop a skilled workforce in 
myriad occupations. Hudson Valley Community College can 
certainly be viewed as a case study for developing a successful 
solar energy training program. We have gained national and 
international recognition for our PV installers programs and 
our training facilities. Our success was based on three 
variables. First, a government agency such as the New York 
State Research and Development Authority, who provided the 
funding stream through grant opportunities as well as 
tremendous guidance to help ensure success along with other 
organizations such as the Interstate Renewable Energy Council 
and the North American Board of Certified Energy Practitioners, 
who are guiding us toward accreditation. The second variable is 
collaborating with the local certified PV companies with the 
expertise to recommend the best equipment for training, advice 
on curriculum and on-the-job training for our students, and 
third, well-trained faculty to deliver high-quality education.
    Now, we weren't sure what was going to happen when we 
started this process but to steal the baseball analogy, build 
it and they will come, certainly held true for our solar 
training programs. Once the word got out, interest came quickly 
and is growing fast in many ways. From PV companies expressing 
interest in hiring our students, from individuals interested in 
gaining the solar training, from homeowners seeking information 
about having solar systems installed, and from other schools 
interested in learning from our success, there has been 
tremendous synergy surrounding the development of our solar 
training program, so much so that Hudson Valley Community 
College hosted the first-ever national conference for educators 
and trainers on renewable energy training and energy efficiency 
workforce education, and that happened last November with 
educators and school administrators from other 30 states and 
six countries. We had somebody come from Australia who was 
interested in seeing what we were doing. It was tremendously 
successful and we are hosting a second conference in March 
2008, and I share that because great things have come out of us 
starting a training program in the solar industry. Members of 
the community now have another career path. Solar companies are 
happy because they can expand their services as more and more 
homeowners clamor for solar power, all leading to job growth 
and economic development. Furthermore, our success has opened 
the door to develop wonderful partnerships with local solar 
installation companies as well as large solar manufacturing 
companies such as Sun Power, who uses our facilities for 
training, and they are a California-based company and they come 
to Troy, New York, to utilize our facilities.
    In closing, I can't emphasize enough the importance of 
solar--you know, certified solar training programs in ensuring 
the continued growth of the solar industry. It is a critical 
cog in the wheel of success. Without sound training programs, 
that wheel might keep rolling for a while but it will break 
down. I ask the Members of this Committee to please consider 
supporting this exciting bill and thank you for giving me the 
opportunity to present my thoughts on this, and I will 
certainly entertain questions afterwards.
    [The prepared statement of Mr. Sarubbi follows:]
                Prepared Statement of Joseph T. Sarubbi
    Mr. Chairman, Members of the Committee, it's an honor and a 
pleasure for me to appear before you today to discuss the value of 
training programs for the installation and maintenance of photovoltaic 
systems.
    The timing is right for our country to invest in renewable energy 
technologies and develop a workforce that will meet the demands of the 
ever-growing solar energy industry. We are witnessing a renaissance in 
thinking about the way we generate and use energy in America and solar 
power is a key component of this new mindset. In fact, there is a real 
grassroots effort to increase the use of ``green'' energy technology 
and its time for a national policy to keep this momentum. Moreover, our 
country has the educational infrastructure at the post-secondary level 
to respond to the challenges of creating a skilled workforce in 
photovoltaic (PV) installation. What we need is a comprehensive 
national plan for training that will help spur further development and 
interest in solar energy.
    At the forefront of training a workforce to meet the needs of this 
emerging industry are community colleges. While most four-year 
institutions gain notoriety for research and development, it's 
community colleges that are, and will continue to be, responsive to 
national, state and local initiatives that drive the development of 
training programs. With the right resources, I've witnessed first-hand 
the ability of community colleges to quickly take action and develop 
credit and non-credit courses, certificate programs, and new 
associate's degrees that act as a catalyst for economic growth by 
providing skilled workforces. For example, Hudson Valley Community 
College is a comprehensive institution that serves the greater Capital 
Region of upstate New York. With more than 70 degree and certificate 
programs and more than 12,000 students, Hudson Valley Community College 
has positioned itself as a true partner with businesses and government 
agencies in the region and across the state. The college has received 
national and international recognition for its world-class technologies 
programs, and its photovoltaic training program is no exception.
    At the forefront of the college's success with solar energy 
training, are the partnerships forged with government agencies such as 
the New York State Research and Development Authority (NYSERDA), which 
offers numerous grant opportunities in renewable energy technology 
training. In fact, NYSERDA's funding program for the development of 
photovoltaic installers was the catalyst and mechanism that allowed 
Hudson Valley Community College to invest in PV training. By reaching 
out to local PV Companies, Hudson Valley Community College was able to 
tap into experts in the field who are Certified PV installers as 
recognized by the North American Board of Certified Energy 
Practitioners (NABCEP). With their help, as well as assistance from 
NYSERDA, Hudson Valley Community College was able to create, in a 
rather short period of time, a nationally recognized facility to train 
PV installers (see exhibits 1-3). The college developed credited PV 
courses to augment its Electrical Construction and Maintenance 
Associate's Degree program, as well as a State University of New York 
(SUNY) approved Photovoltaic Installers Certificate Program. In 
addition, through the college's Workforce Development Institute, 
numerous non-credit PV installer training programs have been developed 
and are offered on an on-going basis.

Demand for Solar Energy Training

    This collaborative effort between government, education and 
business has generated significant interest and demand throughout New 
York State and the entire northeast. The perfect analogy to this 
venture: ``build it and they will come'' could not be anymore true. The 
college was cautious in its approach to the number of skilled PV 
workers it planned on training, not yet understanding the market 
demands. Today, it's safe to say that the college underestimated the 
public interest and PV company needs as the solar industry has 
witnessed exponential growth in the number of installations of the past 
few years. For example, in 2003, NYSERDA received 80 applications for 
funding assistance of solar installations. By 2006 that number grew to 
286 applications, and 2007 is on pace to well exceed 400 applications 
(source: NYSERDA). Other agencies such as Long Island Power Authority 
observed similar growth. Ever since Hudson Valley Community College 
began to showcase its photovoltaic program and corresponding 
facilities, interest has grown at the same rate. I receive inquiries 
from individuals seeking to obtain photovoltaic skills via e-mail and 
phone on a regular basis. During the past year, five (5) companies from 
throughout the region have inquired about the availability of PV 
students for employment. One local certified photovoltaic installation 
company started its business in 2004 and had $80,000 in sales. In 2005 
the company increased its sales revenue to $300,000 and by the end of 
2006 it reached $1.2 million. This same company has a sales revenue 
projection for 2007 that will exceed $2.4 million. Another PV company 
stated that they need to hire three (3) installers for every $1 million 
increase in PV sales procured. Hudson Valley Community College is 
witnessing this growth first hand and is positioning itself to meet the 
increase demand for installers.

Students Finding Jobs in the Solar Industry

    As I stated earlier, Hudson Valley Community College was originally 
unsure of the potential growth of the photovoltaic industry and decided 
to move cautiously towards training a workforce that exceeded demand. 
Our strategy was to supplement an already popular and successful 
Electrical Construction and Maintenance associate's degree program by 
introducing photovoltaic courses as an additional load to students' 
schedules. The college limited the number of students who could enter 
the ``PV Program'' to eight to 12 students a year. The college just 
completed its second year of training. Of the eighteen (18) students 
who completed the PV program four (4) chose to immediately enter the PV 
field while the others sought employment with the myriad opportunities 
in the electrical industry that each student is afforded upon 
graduation, such as electricians, electronic technicians, electric line 
workers, electrical estimators, assistant project designers, etc. This 
spring, one particular PV company alone sought to hire four installers 
and two designers, but they inquired too late to capture a good portion 
of our electrical students who had the PV installation skills, as many 
already secured employment in other areas. The college is starting its 
PV Installers Certificate program this fall and is currently accepting 
applications of students for the one-year program. This certificate 
program, coupled with our Workforce Development Institute non-credit PV 
training programs, should help reduce the current shortage of trained 
PV installers.

Involvement of Local Business and the State of New York in Building 
                    Curriculum

    The success of Hudson Valley Community College's PV training 
programs and the development of its photovoltaic laboratory wouldn't be 
possible without the funding initiatives and guidance provided by 
NYSERDA, as well as the expertise offered by local PV companies. Both 
were instrumental and paramount to the advancement of a first-class 
training program. In addition to the excellent laboratory facilities, 
which were funded through a NYSERDA grant, our partnership with a local 
PV company created the opportunity for students to work out in the 
field on actual residential installations thereby augmenting their 
training skills (see exhibits 4 & 5). Such a relationship has helped 
ensure that our students enjoy high passage rates for the North 
American Board of Certified Energy Practitioners Photovoltaic Entry 
Level Certificate of Knowledge. Furthermore, Hudson Valley Community 
College is currently working with the Interstate Renewable Energy 
Council (IREC) as it positions itself to become a national accredited 
training institution as well as offering accredited training programs. 
The college expects to be accredited near the end of the year.
    Yet it's the local and state partnerships that allowed Hudson 
Valley Community College to be responsive to the needs of the 
community. Through NYSERDA's networking Hudson Valley was able to forge 
a solid partnership with California-based SunPower Corporation. 
SunPower, seeking an East Coast presence for their growing business, 
donated equipment for the faculty and students of the College to 
utilize in exchange for SunPower's use of our photovoltaic laboratory 
at intermittent times throughout the year (see exhibits 6-8). This 
relationship gave our students greater exposure to more types of 
photovoltaic equipment and practices. SunPower has enjoyed their 
relationship with the college and is currently seeking additional 
avenues of training with Hudson Valley. Moreover, other types of 
training associated with photovoltaic installations have emerged that 
is equally important to the success of solar technologies. Local 
building inspector training as well as augmented training on electrical 
codes will ensure quality installations. When New York State, 
educational institutions and businesses are all invested in developing 
beneficial training programs such as photovoltaic installation, then 
the link between job growth and economic development becomes 
transparent.
    Photovoltaic training programs, much like other technology training 
programs are expensive by nature. Yet, if done right, the high academic 
quality of such programs becomes apparent and is usually successful in 
fulfilling its mission. Community colleges are the best fit to offer 
such training programs, but because of the shear nature of funding 
community colleges need financial assistance to develop first class 
training programs. Continued partnering with government agencies and 
businesses that have a vested interest in such programs could help 
build a national program that will facilitate the adoption of solar 
technology.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Joseph T. Sarubbi
    Joseph T. Sarubbi of East Greenbush, NY, is a Professor and 
Department Chair of the Building Systems Technology department at 
Hudson Valley Community College. He is a seasoned educator with more 
than 35 years' experience in education and the electrical construction 
and maintenance industry, and has more than 20 years' experience 
developing customized training programs for firms such as General 
Electric, Owens Corning, National Grid, and Georgia Pacific.
    Through a strong partnership with the New York State Energy and 
Research Development Authority, Mr. Sarubbi has emerged as a leader in 
New York State in developing credit and non-credit instructional 
programs in renewable energy technology in the areas of photovoltaic 
installation and energy efficiency, and is currently establishing 
training programs for the installation and maintenance of geothermal 
heat pumps, and wind energy systems. Under his leadership, in 2006, 
Hudson Valley Community College hosted the first-ever Renewable Energy 
& Energy Efficiency Workforce Education: A National Conference for 
Educators and Trainers. It was attended by individuals from 30 states 
and six countries. The college will play host to the conference again 
in 2008.
    Mr. Sarubbi has a Bachelor's degree in vocational technical 
education from State University of New York Institute of Technology in 
Utica, NY and a Master's degree in education administration and policy 
studies from University at Albany. He also earned his journeyman 
electrician certificate through the International Brotherhood of 
Electrical Workers.

    Ms. Giffords. Thank you, Mr. Sarubbi.
    Dr. Arvizu.

STATEMENT OF DR. DANIEL E. ARVIZU, DIRECTOR, NATIONAL RENEWABLE 
          ENERGY LABORATORY, U.S. DEPARTMENT OF ENERGY

    Dr. Arvizu. Thank you, Madam Chair, and thank you, Members 
of the Committee, for this opportunity to discuss important 
issues related to the Nation's energy policies to meet our 
future energy needs. I am the director of the National 
Renewable Energy Laboratory in Golden, Colorado, and NREL, as 
we call it, is the U.S. Department of Energy's primary 
laboratory for research and development of renewable energy and 
energy efficiency technologies. I am honored to be here to 
speak with you today. I might note, as I preface my remarks, 
that I started in the solar business more than 30 years ago as 
a young engineer working on solar power towers, concentrating 
solar power at Sandia National Laboratories, and we have come a 
long way in that time.
    I applaud the Committee for its continuing examination of 
solar and other resources of renewable electricity and fuels. 
If we are to ensure the Nation receives the full range of 
benefits from renewable energy technologies, we need to 
carefully balance and blend new technology, market acceptance 
and government policies. It is not a question of whether to 
rely on the market, on the research or on the government 
action. As we work together, we need to solve our energy 
problems by deploying all of these things simultaneously. DOE's 
Solar Energy Research Program supports the development and 
deployment of solar energy technologies and systems that can 
help meet our nation's electricity needs and reduce stress on 
our electricity infrastructure. The solar program supports 
research at NREL as well as other institutions in 
photovoltaics, concentrating solar power, solar heating and 
lighting. Through the President's Solar America Initiative, the 
SAI, the Nation's goal is to reduce the cost of solar 
photovoltaic technologies so they become cost-competitive and 
effective with other sources of electricity in all major U.S. 
markets by the year 2015. Although the bulk of the U.S. 
national program is focused on photovoltaics, I will focus my 
remarks today, oral remarks, that is, on concentrating solar 
power, CSP, since that is really the topic of the discussion 
draft. It is primarily addressing where CSP fits into the 
overall portfolio.
    Recent developments in the western U.S. illustrate the 
growing concern over greenhouse gas emissions, consequently a 
market climate is opening up that is furthering the 
encouragement to deploy concentrating solar power certainly in 
the U.S. Southwest. In the United States, nine CSP power plants 
totaling 354 megawatts have been operating reliably in 
California for the past 16 years and there seems to be--we seem 
to be poised for some growth. These plants are especially 
interesting because with the addition of thermal storage, they 
are ideally suited to meet peak demands of energy use in the 
Southwest. Until recently, however, this CSP technology has 
been stagnant, and as with all new energy technologies, cost is 
the issue. CSP has had additional challenges in that this 
technology requires scale to achieve its ultimate cost-
effectiveness. Couple the scale issue with high upfront capital 
costs and what you have is a pretty high investment risk that 
really is difficult in the traditional marketplace. In 2003, 
the solar program at the Department of Energy addressed cost by 
commissioning a detailed technical analysis of what this 
technology could produce, and it was reviewed subsequently by 
the National Academies and I participated on that panel. The 
cost of CSP at that point was concluded that even though at 
that time it was around 12 to 14 cents a kilowatt-hour, that it 
could ultimately be down in the six to five cents a kilowatt-
hour, and we believe that today even though costs could be 
exceeded.
    The discussion draft language on thermal energy storage 
addresses an important issue related to the intermittent nature 
of solar energy and its impact on utilities and the potential 
for low-cost and efficient thermal storage is one of the key 
long-term attributes of large-scale CSP technologies. The 
ability of CSP technologies to store energy presents an 
opportunity for DOE and NREL to establish an R&D effort that 
focuses on solar technologies that can produce baseload power 
at five cents a kilowatt-hour, and these systems could include 
storage of up to 17 hours that would compete for firm power 
from coal power plants, especially when they are outfitted with 
carbon sequestration technology. So it is expected that an 
aggressive R&D program could achieve these cost goals by the 
year 2020.
    The discussion draft also addresses transmission 
integration, and an important issue for CSP is that CSP is best 
when the sun is most intense and you have cloudless days, as we 
do in the sunny Southwest. So plants are often located in 
desert or semi-arid locations where very few people live. 
Transmission lines are required to bring that power from remote 
locations to the urban load centers. Throughout the West, 
access to transmission is generally limited because many lines 
operate at or near capacity. While transmission is a problem, 
it is particularly difficult for solar because solar power 
plants need to be located where the solar resource is and they 
do not always have close access to existing transmission lines. 
Additional transmission lines would allow solar energies from 
the Southwest to provide a very significant fraction of the 
overall total electricity needs of the country. So early market 
penetration of CSP could be driven by long-term extension of 30 
percent investment tax credits for commercial solar 
technologies, but if the cost of CSP power is too high when the 
tax credits expire, the market will be significantly impacted 
because there will be a downtown in that technology. An 
objective of our program is to see that the Department of 
Energy's CSP R&D activities would be to decrease the cost of 
the technology in a timely fashion so the market remains 
healthy when tax credits might expire.
    The Solar America Initiative of the Department has doubled 
the effort to accelerate the deployment of photovoltaics in the 
marketplace and earlier this year 12 technology pathway 
partnership projects were selected to receive up to $168 
million over the next three years and the awardees contributing 
over 50 percent of the funding. The new portfolio continues our 
historic investment in thin films and increases support 
significantly for concentrating photovoltaics and silicon 
technologies.
    In summary, to address our near-term needs in solar power, 
we need a national strategy that promotes deployment of solar 
systems and processes that are ready to serve us today. At the 
same time, to address our longer-term needs and achieve a truly 
significant contribution from solar power technologies, we must 
make a new major commitment to the research required to deliver 
the next and subsequent generations of concentrating solar 
power, photovoltaics and other new technologies. We also need 
to invest in the infrastructure and in the workforce required 
to promote sustainable businesses and job creation. The good 
news is that the U.S. can take back the global leadership that 
it once had in the solar energy field. What is likely to be one 
of the most important new industries of the century is solar 
energy through investing wisely now and in the future. The 
timing is fortuitous because by most accounts, the next big 
major market for global renewable energy use is here in the 
United States.
    I would be happy to answer any questions. Thank you.
    [The prepared statement of Dr. Arvizu follows:]
                 Prepared Statement of Daniel E. Arvizu
    Mr. Chairman, thank you for this opportunity to discuss important 
issues related to the Nation's energy policies to meet our energy 
demands for the future. I am the director of the National Renewable 
Energy Laboratory (NREL) in Golden, Colorado. NREL is the U.S. 
Department of Energy's primary laboratory for research and development 
of renewable energy and energy efficiency technologies. I am honored to 
be here, and to speak with you today.
    We applaud the Committee for its continuing examination of solar 
and other sources of renewable electricity and fuels. If we are to 
ensure the Nation receives the full range of benefits that renewable 
energy technologies can provide, we will need a carefully balanced 
blend of new technology, market acceptance and government policies. It 
is not a question of whether to rely solely on the market, or on new 
research, or on government action, as we work to solve our energy 
problems. To accelerate deployment of renewable energy technologies, we 
need to effectively combine all three.
    It's also crucial that this mix of technology, markets and policies 
be crafted so that each works in conjunction with the others. The 
reality is that distinct renewable energy technologies--be they solar 
photovoltaic, solar thermal, wind, biomass power, biofuels or 
geothermal--are in different places in terms of their economics, 
technological maturity and market acceptance. While a broad range of 
policies are needed to spur on these varied technologies, the specifics 
of policies and incentives to be enacted ideally must be tailored to 
fit the unique requirements of each of the systems and devices we are 
seeking to deploy.
    My testimony will address the Committee's Solar Discussion Draft, 
share with you related activities underway in the Solar Energy Program 
of the Department of Energy's Office of Energy Efficiency and Renewable 
Energy and provide some specific reactions to the draft from our 
laboratory's perspective. I should note that on behalf of DOE, the 
Administration has not had sufficient time to coordinate interagency 
views on the Discussion Draft, but the Department wants to provide some 
preliminary comments.

SOLAR POWER: CURRENT RESEARCH AND DEVELOPMENT PROGRAM AND POTENTIAL 
                    CONTRIBUTION TO THE NATION'S ENERGY PORTFOLIO

    DOE's Solar Energy Program sponsors research, development, and 
deployment of solar energy technologies and systems that can help meet 
our nation's electricity needs and reduce stress on our electricity 
infrastructure. The Solar Program supports research in photovoltaics 
(PV), concentrating solar power (CSP), and solar heating and lighting. 
Through the President's Solar America Initiative (SAI), a major effort 
within his Advanced Energy Initiative, the Solar Energy Program goal is 
to reduce the cost of solar photovoltaic technologies so that they 
become cost-competitive with other sources of electricity in all major 
U.S. markets by 2015.
    The SAI is being implemented at a critical time in the evolution of 
the global solar market. Worldwide growth rates for photovoltaics have 
averaged well over 35 percent for the last five years, which means the 
amount of installed solar power doubles every four years or less. 
However, this rapid growth is from a very small base; PV still accounts 
for less than one percent of electricity generation worldwide. 
Presently, several nations--including China, Germany, India, Japan, 
South Korea, and Taiwan--are attempting to attain larger shares of the 
global photovoltaic market by making significant public investments to 
spur private industry. At the same time, technology improvements and 
State incentives are stimulating domestic demand for photovoltaic 
systems in the U.S. The Solar America Initiative will provide the 
investment needed to expand U.S. advantages in product design and 
manufacturing, assuring that American technologies play a leading role 
in the growing domestic and global markets for solar electricity.
    The SAI provides a unique opportunity to focus our efforts on 
accelerating cost reductions and manufacturing scale-up of the domestic 
photovoltaic industry to capitalize on this opportunity. As we work to 
increase our energy independence and reduce our impact on environmental 
resources, solar technologies offer an attractive carbon-free, 
pollution-free energy resource.
    In Fiscal Year 2007, President Bush requested $148 million for 
SAI--a 78 percent increase over pre-initiative levels--and the 
significant Fiscal Year 2007 Congressional appropriation demonstrated 
that our nation's leaders are in agreement that developing cost-
competitive solar technologies is an important priority. The SAI R&D 
efforts supported by this funding are expected to expand domestic 
installed PV generating capacity up to 10 GW by 2015. Beyond enabling 
increases in manufacturing capacity, these projects will help put U.S. 
industry on track to reduce the cost of electricity produced by PV--
from current levels of $0.18--$0.23 per kWh to $0.05--$0.10 per kWh by 
2015--a price that is competitive in markets nationwide.

STATUS OF CONCENTRATING SOLAR POWER (CSP) MARKETS

    Recent developments in the western United States illustrate the 
growing concern over greenhouse gas emissions, and consequently, a 
market climate that is open to further deployment of concentrating 
solar power (CSP) in that region of the country.
    In September 2006, California enacted the California Global Warming 
Solutions Act of 2006, which requires the state to reduce its 
greenhouse gas emissions by 25 percent by 2020.\1\ In March 2007, 
California and four other western states (Arizona, New Mexico, Oregon, 
Washington) announced the Western Regional Climate Action Initiative\2\ 
in which they agreed to work together to cut their states' greenhouse 
gas emissions. With the large solar resources available in the 
Southwest, CSP-generated electricity could play an important role in 
helping these states meet their emissions reduction goals. In the 
longer-term, CSP-generated electricity could help all the states reduce 
their greenhouse emissions.
---------------------------------------------------------------------------
    \1\ ``AB 32 Assembly Bill,'' California Legislature, Retrieved on 
September 31, 2006, from http://www.leginfo.ca.gov/pub/bill/asm/
ab<INF>-</INF>0001-0050/
ab<INF>-</INF>32<INF>-</INF>bill<INF>-</INF>20060831<INF>-</INF>enrolled
.html
    \2\ Western Regional Climate Action Initiative, Feb. 26, 2007. 
Retrieved on April 3, 2007 from http://www.climatechange.ca.gov/
documents/2007-02-26<INF>-</INF>WesternClimateAgreementFinal.pdf
---------------------------------------------------------------------------
    Solar energy is the southwest's most abundant renewable resource. 
In fact, California, Arizona, and New Mexico have enough combined solar 
energy to provide all the power needed by the entire country. CSP 
technology is the least expensive solar technology for providing large 
quantities of electrical power, and with sufficient storage, it can 
deliver baseload power. At a time when large quantities of carbon-free 
power will be needed; CSP power plants, constructed primarily of 
concrete, glass, and steel, can be quickly constructed and brought on 
line. The yearly CO<INF>2</INF> emissions from a 1,000 MW coal plant 
are approximately 2,300,000 tons. The yearly CO<INF>2</INF> emissions 
from a 1,000 MW CSP plant would be nearly zero (there may be some need 
for grid power during the operation of the plant). With access to 
adequate transmission, CSP could even provide inexpensive carbon-free 
electricity beyond the Southwest to other regions of the U.S.
    In the U.S., nine CSP power plants totaling 354 MW have been 
operating reliably in California for over 16 years, and CSP seems 
poised to grow significantly in the state. Each of the three major 
California utilities (Southern California Edison, San Diego Gas and 
Electric, and Pacific Gas and Electric) have signed power purchase 
agreements for a CSP project or have indicated an intent of doing so. 
In August 2005, Southern California Edison (SCE) signed a power 
purchase agreement for 500 MW of CSP dish-engine systems on a 4,500 
acre site near Victorville, CA, with an option to expand the project to 
850 MW. In September 2005, San Diego Gas & Electric (SDG&E) signed a 
power purchase agreement for a 300 MW dish-engine project in 
California's Imperial Valley, with an option of expanding the project 
to 900 MW.\3\ In August 2006, the Pacific Gas and Electric Company 
initiated plans with Luz II, LLC, to purchase at least 500 MW of solar 
energy beginning in the spring of 2010.\4\
---------------------------------------------------------------------------
    \3\ ``SDG&E Signs Solar Power and Other Renewables Energy Pacts,'' 
San Diego Gas & Electric Press Release, September 7, 2005.
    \4\ ``PG&E Announces Significant New Green Power,'' PG&E Press 
Release, August 10, 2006.
---------------------------------------------------------------------------
    The State of Nevada has put in place tax credits enabling the 
construction of a 64 MW CSP project near Las Vegas that recently came 
on line. Nevada Power will purchase the power from the plant. A one MW 
CSP system, completed in 2006, is operating in Arizona for Arizona 
Public Service. In addition, several other utilities, under the 
leadership of Arizona Public Service, are investigating the potential 
of forming a consortium that would buy power from a 250 MW CSP plant 
built in Arizona.
    The southwestern states also have strong renewable portfolio 
standards (RPS) which require that a specific portion of a state's 
electricity consumption be met by renewable energy by a certain year. 
RPS' are chief among the state policies that promote renewable energy, 
and some even specify that a certain amount of power must come from 
solar energy.

CONCENTRATING SOLAR POWER TECHNOLOGY STATUS

    As with all new energy technologies, cost is an issue. But CSP has 
an additional challenge: the technology requires scale to achieve its 
ultimate cost effectiveness. Couple the scale issue with high up-front 
capital costs and the investment risk is too large for current market 
conditions.
    The Solar Program addressed the cost issue by commissioning a 
detailed technical analysis of CSP by an independent engineering firm 
and then having the analysis reviewed by the National Research Council. 
Sargent and Lundy (S&L) was selected to conduct this analysis on the 
basis, among other factors, of its independence from the CSP industry 
and its recognized performance in conducting due diligence studies for 
the fossil power industry. S&L estimated that the cost of CSP 
technology can be significantly reduced from 12-14 cents/kWh (as of 
2003). Sargent & Lundey predicts projects ultimate costs for CSP 
troughs at 6.2 cents/kWh and power towers at 5.5 cents/kWh. Sandia and 
NREL (Sunlab) predict costs could be even lower.
    Since the S&L report was completed in 2003, the experience gained 
from trough plants being built in the U.S. and Spain is enabling 
industry to lower their cost through mass production and building 
larger plants. Since the S&L report was written, the price of steel, 
concrete, copper, and other commodity materials have risen. Although 
the numbers, as of 2007, are low, the figure continues to show the 
potential for CSP cost reduction.
    Because sunshine is most intense during the hot summer months when 
air conditioners are working the hardest, solar energy is a good match 
for a utility's peak load. With 3-5 hrs. of storage, CSP is also a good 
match to a utility's intermediate load. After gaining market 
penetration within the intermediate and peak load markets, however, CSP 
could expand into baseload generation markets through the expanded use 
of thermal storage, thereby providing a renewable alternative to 
baseload coal power. CSP technologies convert solar energy into thermal 
energy which is then stored in large tanks. This is an efficient way of 
keeping the energy until it's needed, at which time the hot fluid, 
often a molten salt mixture, is pumped to a power block where it is 
converted to electrical power through a turbine.

The Role of Thermal Energy Storage and Transmission Integration

    The Discussion Draft language on thermal energy storage addresses 
an important issue related to the intermittent nature of solar energy 
and its impact on utilities. Adding thermal storage to concentrating 
solar power (CSP) plants enables solar energy to be provided any time, 
day or night, that power is needed. Thermal storage also has the 
potential for being low cost. An independent study by Sargent & Lundy 
concluded that CSP costs could be reduced to between 4.3 and 6.2 cents/
kWh by 2020 for technology that utilizes thermal energy storage.\5\
---------------------------------------------------------------------------
    \5\ Assessment of Parabolic Trough and Power Tower Solar Technology 
Cost and Performance Forecasts, Sargent & Lundy Consulting Group, SL-
5641, May 2003.
---------------------------------------------------------------------------
    The potential for low-cost and efficient thermal storage is one of 
the key long-term attributes of large-scale CSP technologies. Key 
advantages of thermal energy storage are:

        <bullet>  High Value Dispatch of Electricity: Without thermal 
        energy storage, solar power is an intermittent power resource, 
        dependent on when the sunshine. Thermal energy storage allows 
        the collection of solar energy to be separated from the 
        generation of electric power, providing the ability to dispatch 
        generation when the value for electricity is highest.

        <bullet>  Firming Delivery for Solar Power: The ability to 
        store energy and dispatch solar power when it is needed helps 
        make solar power plants a more reliable or firm power resource 
        for the utility. Firming of delivery is an important aspect of 
        supporting the economics of solar power plants through utility 
        capacity payments.

        <bullet>  Increasing the Annual Capacity Factor: Solar power 
        generating systems without thermal storage achieve capacity 
        factors in the range of 25-30 percent. With the addition of 
        advanced, low-cost thermal energy storage, systems can be 
        economically sized to allow capacity factors of 75 percent or 
        higher. As a result, with the addition of thermal energy 
        storage it is possible for solar power plants to operate at or 
        near baseload conditions.

    The ability of CSP technologies to store energy presents an 
opportunity for DOE to establish an R&D effort that focuses on a solar 
technology that can produce baseload power at about five cents/kWh. 
Such systems would include 13-17 hrs. of thermal storage and would 
compete with the cost of power from coal plants using carbon 
sequestration technology. It is expected that an aggressive R&D program 
could achieve the cost goal by 2020.
    The Discussion Draft also addresses transmission integration, an 
important issue for CSP plants. CSP works best where the sun is most 
intense and there are few cloudy days, so plants are often located in 
desert or semi-arid locations where few people live. Transmission lines 
are required to bring the power from these remote locations to urban 
load centers. Throughout the West, access to transmission is generally 
limited because many lines currently operate at or near capacity. While 
transmission is a problem for all new power generation, it is 
particularly difficult for solar because solar power plants need to be 
located where the solar resource is best and these are not always near 
existing transmission lines. Addition transmission lines could allow 
solar energy from the Southwest to provide up to 6,800 GW of 
electricity to the U.S.

POTENTIAL R&D AND MARKET STRATEGY FOR CSP TECHNOLOGY

    During the last three years, representatives of the DOE and NREL 
solar programs have met with the energy and economic advisors to 
governors, energy regulators, state legislators, utilities, and other 
stakeholders in California, Nevada, Arizona, and New Mexico. These 
meetings were to provide the states the economic, environmental, and 
energy benefits of CSP. Each state expressed an interest in CSP, 
although their interest was tempered by the high cost of the 
technology. They were, however, encouraged by the Program's projections 
of significant cost reduction and also showed interest in finding ways 
to encourage the deployment of CSP in their states. Nevada subsequently 
implemented tax incentives that have led to the construction of a 64 MW 
CSP plant outside of Las Vegas.
    Utilities have demonstrated a serious interest in CSP for several 
reasons:

        <bullet>  The widespread availability of solar energy 
        throughout the Southwest provides utilities with flexibility in 
        locating CSP plants near existing or planned transmission 
        lines.

        <bullet>  Placing CSP plants on the ``right'' side of 
        congestion can reduce grid congestion and increase grid 
        reliability.

        <bullet>  CSP electricity production aligns closely with 
        periods of peak electricity demand, reducing the need for 
        investment in new generating plants and transmission system 
        upgrades.

        <bullet>  Thermal storage or the hybridization of CSP systems 
        with natural gas avoids the problems of solar intermittency and 
        allows the plant to dispatch power to the line when it is 
        needed.

        <bullet>  Large centrally-located power plants are the types of 
        systems that the utilities have operated for years and with 
        which they are most comfortable.

        <bullet>  Once the CSP plant is built, its energy costs are 
        fixed; this stands in contrast to fossil fueled plants that 
        have experienced large fluctuations in fuel prices during the 
        last several years.

        <bullet>  The economic studies performed by the states show 
        that a relatively small up-front investment can result in 
        downstream tax revenues for the State and local governments.

    Utility representatives expressed particular interest in CSP 
because its ability to store energy enables solar power to be 
dispatched to the grid through their entire period of peak demand, or 
whenever else it is needed. CSP was also attractive to them because of 
its size (50-250MW), use of conventional steam turbine power blocks, 
and the ability to hybridize CSP plants with natural gas.
    Utilities have indicated that even with storage and the other 
advantages mentioned above, it is hard for them to justify purchasing 
CSP power above 10 cents/kWh when they can buy less expensive wind 
power. In California, utilities can pass along the higher cost of 
renewable energy to their rate payers as long as it's under about 10 
cent/kWh. Reaching 10 cent/kWh is thus important for early market 
penetration. The federal investment tax credit is important because it 
does much to bridge the cost gap. It is also important for the cost of 
CSP power to be at 5-7 cents/kWh by 2015. So early market penetration 
of CSP could be driven by a long-term extension of the 30 percent 
investment tax credit for commercial solar technologies. But if the 
cost of CSP power is too high when the tax credit expires, the market 
will take a significant downturn or become completely stagnant. An 
objective of the DOE and NREL CSP R&D activities would be to decrease 
the cost of the technology in a timely enough fashion so the market 
remains healthy when the tax credits expire.
    To achieve this objective, we must reduce CSP costs to provide 
intermediate power at 5-7 cents/kWh with 4-6 hrs. of thermal storage. 
These activities would focus on developing the solar collector, 
receiver, and other components of trough plants to attain the system 
goal.
    To reach the long-term objective of providing baseload power, we 
will need to establish feasibility, develop components, evaluate, and 
test new system concepts beyond the trough plant design. The concepts 
likely to be examined include power towers, distributed power towers, 
concentrating line focus receiver (linear Fresnel), and dishes w/
storage. The criteria for developing these technologies will include a 
detailed analysis that defines the current state of the technology, the 
needed advancements in efficiency and cost of each component, the 
development and manufacturing pathways needed to achieve the goal, the 
time to achieve the advancements, and the ability of the industry 
partner to commercialize the technology.

THE PHOTOVOLTAICS R&D STRATEGY

    Prior to January 2006, our research focused on technical progress 
through increasing the conversion efficiencies of solar cells and 
reducing the manufacturing costs of photovoltaic modules. Our national 
laboratories--NREL and Sandia--implemented this R&D, which included 
providing relatively stable funding to companies and universities, 
resulting in steady, incremental progress. Hundreds of individual 
projects were funded at the national laboratories, universities, and 
companies that generated continued interest in photovoltaics throughout 
the country.
    But this picture changed after January 2006. We began with a change 
in program strategy, along with a fresh look at the solar energy 
industry by the investment community, and supportive policies from 
numerous State and local programs. The focus of our research shifted 
from technical progress on components to integrated PV systems. Under 
the new strategy, companies funded by SAI are expected to develop 
products for priority markets, and industry is expected to influence 
the research agenda for the national laboratories and universities.
    Dramatic progress is anticipated from multiple competitive 
solicitations, coupled with an aggressive process to evaluate results 
and eliminate awardees showing less than substantial progress. The 
first set of large awards, called Technology Pathway Partnerships, will 
support multiple industry-led partnerships over the full value-chain, 
whereas smaller projects will target earlier-stage technologies. Public 
attention will be attracted to these high-visibility projects, with the 
intent of stimulating consumer interest and eliminating barriers to PV 
deployment.
    Perhaps the most dramatic evidence of this new strategy was DOE's 
significant investment in a new funding opportunity for industry-led 
Technology Pathway Partnerships. Entrance criteria for commercial 
applicants included prototype components, pilot production 
demonstration, and an established business case. At the end of three 
year projects, awardees were expected to have commercial PV systems and 
subsystems with annual production of greater than 25 MW. These 
partnerships include collaboration with national laboratories, 
universities, and suppliers to focus on the development, testing, 
demonstration, validation, and interconnection of PV components, 
systems and manufacturing equipment. Through these efforts, the 
Partnerships are expected to reduce the installed cost to consumers to 
$0.05-$0.10 per kWh by 2015--a price low enough to open up all major 
U.S. electricity markets.
    Earlier this year, 12 Technology Pathway Partnership projects were 
selected to receive up to $168 million in DOE funding over the next 
three years, with the awardees contributing over 50 percent of the 
funding for these projects. Representing a broad cross-section of U.S. 
industry, the projects involve more than 50 companies, 14 universities, 
three non-profits, and two national laboratories in 20 states. The 
selected projects' leaders are Amonix, BP Solar, Boeing, Dow Chemical, 
General Electric, Miasole, Nanosolar, SunPower, United Solar Ovonic, 
Konarka, GreenRay and Soliant. This new portfolio continues our 
historical investment in thin films and increases support significantly 
for concentrator photovoltaics and crystalline silicon technologies. 
The portfolio is intended to deliver on the near-term potential in 
residential markets and commercial markets, which are targeted by 32 
percent and 48 percent of the funding, respectively, with longer-term 
utility markets following at 20 percent.
    In addition to the Technology Pathway Partnerships, DOE will be 
releasing a variety of other funding opportunities to round out the PV 
R&D pipeline. These opportunities will focus on developing new 
materials and processes for solar electric conversion, transitioning 
fundamental science studies into the fabrication of new PV devices, 
shortening the timeline for companies to transition pre-commercial PV 
module technologies into full-scale manufacturing, supporting 
university materials science and process engineering research and 
improving inverters and power electronics in distributed PV systems.

THE NREL PHOTOVOLTAICS R&D PROGRAM

    The Solar Energy Research Institute (SERI), now NREL, was 
originally created to develop the technologies needed to foster a 
dynamic solar industry. Our Laboratory has succeeded in large part at 
fulfilling this charter and has been vital to the development of the PV 
industry. In recent years, this industry has seen dynamic change and 
significant growth--thanks to past R&D successes at NREL.
    Importantly, this change has included the emergence of significant 
internal R&D at start-up and established companies, as well as a 
proliferation of PV research at university laboratories around the 
country. With the industry and academic elements of the domestic PV R&D 
community changing significantly, in early 2007 we began to reexamine 
our research strategy to ensure that it will be complementary and 
relevant in years to come.
    During spring of 2007, we began formulating a new multi-year 
research plan--with associated personnel and equipment plans--that 
recognizes this changing market context and is being developed with 
input from industry and academic collaborators. This planning process 
is intended to ensure the long-term vitality of NREL's research and its 
mission to help foster and sustain a strong American industry.
    The new plan resulting from this process will improve on the 
existing concept for managing NREL's PV R&D portfolio in several 
critical ways: (1) For a given technology development ``roadmap,'' the 
plan will more explicitly link the parameters targeted for device 
performance or process development to the market impact they would make 
if commercialized (e.g., in terms of change to commercial module costs, 
manufacturing equipment capital cost, or manufacturing bills of 
materials); (2) It will specifically identify the conditions and 
parameters under which a given device technology or process will be 
sufficiently proven to be transferred via licensing or other means for 
commercialization; (3) It will exhibit changing priorities over time, 
as research tasks in various areas are planned to be completed and as 
new technologies emerge for further development; and (4) The plan will 
explicitly identify research tasks that will be performed in industry, 
academia, or other institutions that are relevant to the activities and 
outcomes of NREL research activities.
    We are extremely excited about our progress thus far under the new 
strategic planning process. And we look forward to sharing the 
resulting R&D priorities and management procedures in October 2007, at 
the start of our next fiscal year.

PHOTOVOLTAICS PROGRAM OUTCOMES AND BENEFITS

    Upon realizing the SAI goal, it is expected that roughly two 
million metric tons per year of carbon emissions will be avoided by 
2015 and PV will provide approximately five GW of electricity 
generating capacity--displacing roughly the equivalent of five coal-
fired power plants--enough to energy to power about 1.25 million 
households. This is equivalent to 10 times the amount of PV installed 
today.\6\
---------------------------------------------------------------------------
    \6\ DOE's Office of EERE uses two energy-economy models--NEMS-
GPRA07 and MARKAL-GPRA07--to estimate the impacts of EERE programs on 
energy markets as part of its annual benefits analysis. The NEMS-GPRA07 
model is a modified version of NEMS, the midterm energy model used by 
the EIA. The MARKAL-GPRA07 model is a modified version of MARKAL, a 
model developed by Brookhaven National Laboratory.
---------------------------------------------------------------------------
    Distributed solar technologies will enable our ultimate goal of 
affordable zero energy homes and buildings which fulfills the 
President's Advanced Energy Initiative vision of changing the way we 
power our homes and businesses. Net-zero energy homes and buildings 
produce as much energy as they consume through improved efficiency 
combined with renewable energy, such as solar, providing needed power 
and offsetting any utility-provided energy over the course of a year. 
Optimizing the balance of energy efficiency improvements and solar PV 
will result in the most cost effective net zero energy home or building 
and connecting the solar PV system to the grid can allow customers to 
sell the excess solar energy back to the utility.
    Highly efficient buildings with distributed technologies reduce 
peak demand, and will ease the need for expensive new generating 
capacity, transmission and distribution lines as our economy grows. 
Building-integrated PV can make the buildings sector a source of energy 
diversity and low carbon electricity (the building sector currently 
accounts for 39 percent of U.S. energy use). Total energy use in the 
buildings sector is projected to increase an additional 30 percent 
through 2025, and we believe that solar PV can meet much of this 
demand.
    As the Committee's Discussion Draft notes, educating energy 
consumers is critical to achieving the market goals I have previously 
indicated. One of the ways we educate Americans about the new choices 
they have in heating, cooling and powering their buildings is a unique 
project that encourages the development of zero energy homes called the 
Solar Decathlon. The Decathlon, sponsored by DOE, challenges schools of 
architecture and engineering to design solar powered, zero-carbon, 
self-sustaining houses from the ground up to see which house is the 
most aesthetically pleasing and which house performs the best. Twenty 
collegiate teams from the United States, Canada, Puerto Rico, Spain, 
and Germany will participate in this year's competition, which will be 
held on the National Mall from October 12-20, 2007. The public is 
invited to visit the solar village and tour the houses, which showcase 
the latest green building and energy efficient technologies.

BUILDING ON MOMENTUM: STRATEGY & PRIORITIES FOR 2007

    During the first 18 months of the Solar America Initiative, DOE and 
NREL have worked together to implement a broad-reaching change in 
strategy with one clear purpose: to make PV technologies cost-
competitive in all major domestic grid-tied markets by 2015. We 
emphasize that this change was not implemented simply for the sake of 
change. But rather, to take advantage of progress in module efficiency 
and fabrication principally achieved by industry, universities, and the 
national laboratories over the years. These successes form the 
foundation for the PV systems that we will be supporting in the future.
    Priorities in 2007 include continuing to implement the funding 
opportunities described above. We will also establish the framework for 
additional university involvement in the Technology Pathway 
Partnerships and calibrate our Laboratory's research portfolio and 
future role. And finally, we will ramp-up our efforts in testing and 
evaluation of new product designs--an activity that is critical to 
assuring the reliability of the new products we are developing with 
industry.

SUMMARY: BALANCING SHORT- AND LONG-TERM R&D INVESTMENTS IN SOLAR POWER

    To address our near-term needs in solar power we need a national 
strategy that promotes the deployment of solar systems and processes 
that are ready to serve us today. At the same time, to address our 
longer-term needs and achieve a significant contribution from solar 
power technologies, we must make a major new commitment to the research 
required to deliver the next, and subsequent, generations of CSP, PV 
and other new technologies.
    The good news is that the United States can take back the global 
leadership it once had in the solar energy field--what is likely to be 
one of the most important new industries of this century--through 
investing wisely now and into the future. The timing is fortuitous, 
because by most accounts the next big market for global renewable 
energy in here in the United States.
    Thank you.

                               Discussion

    Ms. Giffords. Thank you so much all of you for your opening 
remarks. We have a good amount of Members here so I want to get 
going pretty quickly. Let us try to limit questions and answers 
to five minutes and see how far we get.

                        Solar Energy in Germany

    I would like to kick off with some of the comments Mr. 
Resch made in terms of what we can be doing as a country in 
comparison to Germany. What happened in Germany, and for the 
panel, you know, what can we learn from them, what are the 
take-aways, what are some of the mistakes and the pitfalls?
    Mr. Resch. Thank you, Congresswoman. What Germany did first 
and foremost was to make a long-term investment in solar energy 
and they did it during the worst economic downtown since World 
War II. So what they basically said is, we need to diversify 
our energy portfolio, we are becoming increasingly dependent 
upon natural gas coming from Russia, and they felt it was very 
important to look at what natural resources they did have in 
place, and that is certainly solar, although their resources 
are lower than ours was one of those resources, and they looked 
at all renewables including wind and geothermal and biomass. 
They created a structure which is a 20-year incentive structure 
to encourage the use of renewables. It is called a feed-in 
tariff, or the EEG is the acronym in Germany, and what it does 
is provide again a fixed incentive over a long period of time. 
It doesn't really translate, if you will, to the United States 
because our electricity laws are very different but the most 
important thing that they did was to give a long-term incentive 
structure. Now, what has happened is, manufacturing has 
expanded rapidly in Germany and they have created almost 40,000 
new jobs in Germany in the last five years because of the EEG. 
These are manufacturing jobs in eastern Germany, a lot of 
installation jobs. You are seeing solar go up on barns, on 
homes, on factories, really all over the country, and they have 
gone from being a country that ignored, if you will, solar to 
being the global leader. They install eight times as much PV as 
we do each year. They install about 80,000 solar water heating 
systems each year. In the United States, we install about 6,000 
solar water heating systems. And because of that, they have 
really created an economic force and growth in Germany that 
frankly hasn't been seen since the high tech, frankly the chip 
industry is a classic example, the U.S. technology invented in 
the United States being commercialized by the Germans and the 
Japanese and increasingly the Chinese. So what they have done 
is provide a long-term incentive and structure for encouraging 
people to use solar.

                        Solar Check-off Program

    Ms. Giffords. Thank you. How would the proposed solar 
research and promotion program or the check-off program enable 
industry to promote the use of solar power in a way that it 
currently cannot, and why is the involvement of the Department 
of Energy for this program so useful?
    Mr. Resch. The check-off program really does several 
things. First and perhaps most important is, it allows all of 
the industry to collectively pool its resources together. So 
when you look at all of the individual companies that are out 
there, they just don't have the budgets, if you will, to do a 
national campaign on their own or even a branding or marketing 
campaign but the beautiful thing about a check-off program, it 
is a very, very small surcharge that then collectively and 
certainly over time creates a pool of money that then can be 
used for education and outreach. The second is really the 
public perception on solar. When you do the polling and you ask 
people what do they think of solar, they want to see more 
solar, they want to use more solar. My gosh, you know, you 
inventory--you ask anybody in this audience behind me, I 
guarantee half the people would say--or more would say I want 
to put solar on my house at some point in the future. But they 
need to figure out how to do that. We need to have a mechanism 
that allows consumers to learn more about solar, to learn that 
this is what solar looks like. It is a beautiful thing. It is 
elegant technology, you know, that it has incredible 
environmental benefits, that although the costs may be high up 
front in the long run, it does pay for itself over time and can 
be a good hedge against let us just say higher energy prices. 
So that type of mechanism needs to be pulled together, and what 
we have found is that programs like ``Got Milk'' and the pork 
program and the cattlemen's programs have worked. They have 
worked effectively for agriculture and industries that again 
are diverse, that have, you know, literally thousands of small 
farmers or that have hundreds of major, you know, agricultural 
providers but that collectively when they pool their resources 
can get something done. I think the Department of Energy 
becomes a critical entity because it allows, let us just say 
the government input and coordination on research and public 
perception and so what we would want to make sure is anything 
that we are doing with this program is operating in a very 
consistent manner with the Solar America Initiative and 
research and development programs that are going on in the DOE, 
in large part to make sure that there is no duplication and 
that the federal resources are used as effectively as possible 
but also to get the insight from the researchers around the 
country into this program.
    Ms. Giffords. Thank you.
    The Chair now recognizes Ranking Member Hall. Thank you for 
being here.
    Mr. Hall. Thank you, ma'am. Thank you very much, and thanks 
for a good panel here, and Rhone, good to see you again. You 
are too young, but----
    Mr. Resch. That is changing quickly, sir.
    Mr. Hall.--I think you are going to be a fast learner, and 
I like your natural-gas background.

                   Comparison of Solar Energy to ANWR

    Mr. Hayden, in your testimony you have advocated a study on 
locating large-scale concentrated solar power on federal land, 
and you said a single 250-megawatt facility would occupy 1,250 
to 2,500 contiguous acres of land. With the hard, cold facts 
being that the proposed drilling areas for ANWR is 2,000 acres, 
I believe that is the correct figure, with the potential for 
recovering over 10 billion barrels of oil, a possible 50 
percent increase in total U.S. proven reserves creating roughly 
one million jobs here in the United States, my question is, can 
a solar installation produce this much of a return on the same 
amount of land or more?
    Mr. Hayden. Thank you, Congressman, for the question.
    Mr. Hall. Did you write the question? You didn't send me 
the question, did you? I really want a good answer.
    Mr. Hayden. You asked the question in terms of I think 
productivity of the land is, and obviously we all understand 
that that is a very complex topic to look at productivity of 
land use and so I think there would be a very imperfect 
comparison between an ANWR drilling site and a solar site. In 
fact, if we look at what the challenges are to making solar 
actually competitive, you know, just on shear costs, we are 
challenged in the sense that nature has put together the fossil 
fuel resources into highly dense form and extracting it with, 
you know, resource extraction may not have a large footprint 
but the counterbalance, the land use of the solar does not 
deplete the resource. It is working in real time to harvest 
sunlight. Secondly, there is a ripple effect where the 
technology is advanced into bringing the solar into play. So I 
would agree with you that if you look at the footprint alone as 
one metric competing against fossil fuel in a highly dense form 
is very challenging for any renewable but if you look at how 
fossil fuel over its entire life cycle of being replaced could 
compete with solar, then solar now has an advantage because the 
technology is very efficient in terms of, say, nominally 25 
percent conversion of sunlight into energy where fossil fuel 
has a much lower efficiency on its entire basis. So all these 
things are of course arguable in how you look at it but the 
solar technology does have the opportunity to deliver forever 
and----
    Mr. Hall. They could exist and be compatible together?
    Mr. Hayden. I think that is a very important point. We have 
seen in my work of trying to combine mining uses, for example, 
where they have buffer zone and land with productive uses of 
solar.
    Mr. Hall. With us being so totally dependent upon people 
that really don't trust us and we don't trust, sitting here 
with a fear that China will offer them a buck a barrel more 
than we are paying them, do you like the comparison when they 
say don't disturb little ANWR, the pristine little area of ANWR 
when it is 19 million acres and we are using 2,000. Did you 
hear the comparison that it would be like putting a postage 
stamp at the end of a tennis court and saying that ruined the 
whole tennis court? The good combination of the two with solar 
would be the same. It doesn't hurt the land at all.
    Mr. Hayden. Well, I am not sure that Alaska would be a 
great place for the solar equipment. It would generate pretty 
good during half the year and not so good during the other half 
of the year, but I think there is a lot of opportunity for 
hybrid composite uses of land.

                    More on Solar Check-off Program

    Mr. Hall. But you make another point there. If it is dark 
half the year, what are they hiding up there anyway?
    I have one other question of Dr. Arvizu on the neutrality 
of the Department of Energy on check-offs. Are there any other 
check-off programs at DOE? Should there be a generic renewable 
check-off program? Is that a good use of DOE's resources? I 
will just give you the full barrel.
    Dr. Arvizu. Thank you. Actually there are merits to what I 
believe are intended in terms of the value that check-off 
programs bring. I think the rationale at the Department of 
Energy is what is the role of the Department and how should it 
endorse or otherwise encourage what we think are very 
appropriate education programs, and I think Mr. Resch actually 
articulated very nicely the benefits and the value that 
educating the public has in terms of promoting the use of 
renewable energy. The question is still I think an open one 
inside the Department as to whether or not the Department has, 
you know, a role that couldn't be satisfied by perhaps closer 
coordination with the private sector. One of the things we are 
trying to do at the National Renewable Energy Laboratory is 
connect very closely with the industry and with the private 
sector to make sure that our goals and objectives are aligned 
and these public-private partnerships provide as much benefit 
both to the taxpayer as well as to the private sector. In the 
end, this is about making investments. This is about having 
return on those investments, putting market signals where the 
value is extracted, and we have got a lot of work to do in 
those particular areas. So the check-off program, although it 
is important, isn't the highest priority that we are working on 
but we see the merit and the value of it and open for 
discussion as to----
    Mr. Hall. My time is up. If I had more time, I would ask 
you if being open, you mean they are going to remain neutral on 
check-off, and question, why shouldn't DOE be focused on 
research? And I may write you a letter and ask you those 
things.
    Thank you, Madam Chairman.
    Ms. Giffords. Thank you, Mr. Hall, and let me also note 
that in this draft legislation, no money would come directly 
from DOE from the check-off. It would all come from the private 
sector.
    The Chair recognizes Mr. McNerney.
    Mr. McNerney. Thank you, Mrs. Chairwoman, and I just want 
to say that I am very excited about the future of solar and I 
applaud you for the bill. It is a nicely crafted bill.

                  Manufacturing Cost for Solar Energy

    You know, the real limitation for solar. You have talked 
about education. Education is a limiting factor but the real 
limitation is the price. I come from the wind industry and what 
happens in that industry is that as we get on the manufacturing 
curve, the cost goes down just out of production volume, but I 
am not convinced that is the case with solar, especially with 
photovoltaic. So my question I guess for Dr. Arvizu is, do you 
see the technology in photovoltaic and in CSP leading to lower 
cost with increasing volume or again is some type of technical 
limitation going to prevent the cost from coming down, and if 
not, could you kind of go into that a little bit for me?
    Dr. Arvizu. Yeah, sure, and I know that Mr. Resch has 
something else to say as well. I would offer that the incentive 
programs that have been put in place both in Germany and in 
Japan have demonstrated very clearly that with these policy 
measures and incentives and encouraging a market which now has 
exponential growth does in fact reduce the cost, and what we 
are seeing is that the costs are coming down, things like 
balance assistance cost inverters and installation costs and 
things that relate to siting and installation are all in fact 
now a much smaller fraction of the overall system cost than 
they used to be. So it does inform our research programs 
because I think there is plenty of space and opportunity to 
reduce costs both on what I call the business end of the 
technology which has to do with the conversion process from 
solar to electricity, and whether that is at the cell level for 
crystalline silicon technology or at the module level when it 
is thin-film technology, we see tremendous progress being made 
there, and it is a matter of a lot more volume, a lot of 
learning curves. Clearly first-generation technology is on an S 
curve, if you are familiar with how technology finds its way 
into the marketplace, and you probably need to jump onto 
second-generation technology, which is a different S curve with 
different learning curves.
    Mr. McNerney. We are past second-generation technology with 
solar photovoltaic now, aren't we?
    Dr. Arvizu. Well, not in the parlance that we use. You 
know, first-generation technology is the technology I started 
with in the 1980s and it is the staple. I sponsored this 
research literally in 1985 with Dick Swanson at Stanford 
University. It is now commercial product. Technology that we 
are working on in the laboratory now is what we call second 
generation--thin films, concentrating, a variety of high-
efficiency technologies. There is yet a third generation. That 
is the organic, really high efficiency, I call it 
revolutionary. It is maybe a few years down the road but we are 
right now trying to get second generation into the marketplace. 
So there is a lot of room to be had and I think what you will 
find is maybe these companies are investing in second-
generation technology today.
    Mr. Resch. And Congressman, if I could just add a couple of 
points in response. We have seen historically the price of 
solar come down so when the incentives for solar were dropped 
in 1983, the market continued. I mean, it dropped but, you 
know, we continued to use solar energy, and since 1983 we have 
seen the price of photovoltaics come down by 90 percent. The 
learning curve that we have seen is for every doubling of 
manufacturing capacity, we see about a 20 percent reduction in 
the price of photovoltaics. So what is really needed is a long-
term stable driver for the market so that if I am a 
manufacturer, I am going to scale up my production. I mean, 
most of the manufacturing facilities are 20-, 30-, 40-megawatt 
plants. That is pretty small. We need gigawatts-scale plants, 
and the only way you are going to get that is by providing a 
long enough incentive so that you can make sure your investment 
in that plant is actually returned. And the example I use for 
wind, I think we are probably a decade behind wind. Wind has 
had the production tax credit, granted on and off, but they 
have had the production tax credit for 14 years. Solar has had 
the investment tax credit for about 17 months. So, you know, 
the market is really just starting in the United States with 
respect to any kind of market incentives coming from the 
Federal Government, so we are hopeful we will see a long-term 
incentive that will spur manufacturing, then drive down costs.

                    Tax Incentives for Solar Energy

    Mr. McNerney. And, you know, in wind, the tax credits had a 
big impact. The initial tax credits were investment tax credits 
and they caused a lot of substandard equipment to be put in the 
field and it kind of hurt the industry's reputation for years 
and years. What sort of tax incentive do you think would be the 
most effective for solar then, given that history?
    Mr. Resch. Because solar tends to be distributed generation 
and having a very high upfront cost, we found that the 
investment tax credit works best. At the end of the day, the 
investment tax credit isn't large enough for you to put in 
expensive non-operating equipment. Everything is UL listed. 
Everything comes with, you know, certification. Everything has 
to be grid connected, and with the investment tax credit, it 
still has to pay for itself in a reasonable period of time. So 
we are seeing the commercial segment of the marketplace, so 
think of Lowe's, think of Home Depot, Fresh Field stores 
putting solar up on their roofs where you have got an energy 
manager and you have got an account watching to make sure the 
system performs, very sophisticated equipment that is 
performing, so the ITC works best for us.
    Mr. McNerney. I mean, basically what you have just said is 
that the investment tax credit is probably more effective than 
production tax credits for solar?
    Mr. Resch. That is correct. The production tax credit is--
the bottom line is yes, the ITC works better than the PTC.
    Mr. McNerney. Thanks for your honesty there. I am out of 
time.
    Ms. Giffords. Mr. Inglis.

            Tax Incentives and Net Metering of Solar Energy

    Mr. Inglis. Following up on Mr. McNerney's questions, what 
should be more effective, some kind of tax credit or a net 
metering kind of proposal?
    Mr. Resch. You really need both. Net metering allows the 
system to work effectively, so just to give you an example, on 
a day like today, even though I am using air conditioning at my 
house, I am generating excess electricity. If Jane was living 
next door to me, it would be going into her house and it would 
be going into Hal's house as well, and what that does is, it 
really stabilizes the grid. It allows utilities, if you will, 
although they are still going to buy peak demand, to have less 
congestion, less constraint on the distribution grid.
    Mr. Inglis. It also makes it much more attractive for me to 
put into a system, right, because----
    Mr. Resch. Then you wouldn't have to buy a battery backup 
system that would store, so it actually is a lower cost. You 
almost use the grid, if you will, as your battery or as your 
reserve.
    Mr. Inglis. Right, and I would also have the capacity to 
recoup some of my investment. I mean, we have to figure out a 
way to pay for this thing, putting it on my roof, and so a tax 
credit is one possibility. Another possibility is net metering.
    Mr. Resch. Net metering, it differs by every state. Right 
now we don't have net metering laws so what exists in Maryland 
is very different from what we have in Virginia, which is very 
different from what we have in D.C. And so it is very difficult 
from a business model to determine which one is the right one. 
If we had uniform net metering, that would make a very big 
difference, and if you had time-of-use rates, which means that 
you are paying for the price of--the real cost of the 
electricity on a day like today, I guarantee Pepco as they are 
pulling in new demand isn't paying eight cents per kilowatt-
hour. They are probably paying 20 cents a kilowatt-hour.

                    More on Solar Check-off Program

    Mr. Inglis. Something tells me that our friends at Energy 
and Commerce would say they have jurisdiction over that, that 
net metering thing, but it is fun to dream about such topics. 
Anyhow, so how about--speaking of jurisdiction, is this a 
voluntary check-off or a mandatory check-off?
    Mr. Resch. It is a mandatory check-off program that 
companies then have the option of opting out and so it becomes 
voluntary after it is created.
    Mr. Inglis. And how does that work?
    Mr. Resch. You would pay into it and then you have the 
opportunity to request a refund. So what this--the way the 
structure works, and this is a very important part, especially 
as the U.S. market continues to develop is, we are importing--
we may be importing more and more panels from China to avoid a 
free ridership use structure of the program so that everybody 
pays into it initially. If they decide they don't want to 
support the program for whatever reason, then they can opt out 
and get a reimbursement for the money that they paid in.
    Mr. Inglis. So what free rider would not go to that extra 
step of asking for a refund? Just a lazy free rider that 
doesn't realize their opportunity or----
    Mr. Resch. It forces them to get involved. It forces them 
to see the merits of a program. It forces them to either sit on 
the board or at least engage with the board as to what the 
program is all about and at least they understand it so they 
are making a conscious decision as opposed to an ignorant, I 
don't want to get involved decision, and there is probably peer 
pressure that would keep people to participate. I am sure that 
exists in agriculture too.
    Mr. Inglis. I ask this question--does anybody know, is this 
a sequential referral or something or--to Energy and Commerce. 
Do we have jurisdiction over it? I don't know. It is an 
interesting question if we would have jurisdiction over such a 
mandatory check-off.
    I yield to the Chair.
    Ms. Giffords. Mr. Inglis, when we put this legislation 
together, we were obviously looking at jurisdiction. Because we 
had a panel that was qualified, we thought it was important to 
come and have a discussion about this because this is one of 
the main parts of what would be so helpful for the industry. 
That is why we are still working on that.

                 Storage and Efficiency of Solar Energy

    Mr. Inglis. And a question for the panel is, which is more 
crucial to it? Is it a storage question or the efficiency 
question--efficiency of conversion? As I understand it, the 
solar cells--I wish I knew how to explain it. Roscoe will 
explain it to us next. He has got the next question, to explain 
this conversion issue and the efficiency of it. I don't know 
how to express it. But we are talking a lot about storage here 
and we are not talking much about the efficiency of the 
conversion.
    Mr. Arvizu. Let me take a stab at that. I think it really 
comes down to the economics. It really comes down to how many 
cents per kilowatt-hour am I paying life cycle for the power. 
When you add storage to concentrating solar power, you improve 
or increase the value by a tremendous amount because, as Rhone 
talked about earlier, you are putting--you are allowing there 
to be essentially power generation at a time when you may in 
fact have peak power use, which there is a higher value on that 
certainly to the utility. I know that in Spain there is a feed-
in tariff as well and they put a big premium on having storage, 
in other words, being able to generate electricity even past 
the normal sunlight hours, and by putting in the generation, 
the developers actually get an 18--I am sorry--an 80 percent 
additional return on investment by putting in the storage, so 
that is just in economic terms. The efficiency is important. 
Typically the cost is important so it is the efficiency and a 
cost tradeoff so sometimes you have high efficiency, high cost, 
sometimes you have low efficiency, low cost. Sometimes those 
are equivalent, and if there is a tradeoff, I think you need to 
go back to how many cents per kilowatt-hour life cycle, you 
know, all in, all out kind of a metric to determine which one 
has the most attractiveness to it.
    Mr. Hayden. If I could jump in, there is a--Congressman, 
there is a diversity of technologies in the solar field which 
is a good characteristic of the technology space. We are going 
everywhere from the photovoltaics that Rhone brought the 
example of to concentrating solar power, which is large scale, 
and if I can kind of put the example out there of, people are 
very concerned about what their price of electricity is 
primarily until the lights go out and then all of a sudden they 
start having concern about the reliability of electricity, and 
so around the world prices of electricity and reliability both 
vary situationally. As we start with solar today, the primary 
focus outside of this proposed work is on efficiency. Everyone 
is looking at cost. But as solar becomes more successful, just 
like wind has become more successful, then greater attention 
gets paid to the reliability. So it depends on where you are in 
the development. First you worry about cost. Then you worry 
about cost plus reliability, and I think that is what is looked 
at here is that we are starting to be more realistic about 
solar than we were a few years ago.
    Ms. Giffords. Mr. Bartlett, please.

              Characterization of Support for Solar Energy

    Mr. Bartlett. Thank you very much. Thank you for your 
testimony. There are three groups in our country that ought to 
have common cause in wanting to move away from fossil fuels to 
renewables, solar included, and I am wondering if those three 
groups have joined--have locked arms or are they now 
criticizing the other group's premise. One is the global 
warming people, and of course, after you have paid the carbon 
price of producing the solar panel, there is no carbon emission 
in producing power. There are the national security people, who 
lament the fact that we are so dependent on foreign oil and to 
the extent we can use solar, we are going to use less foreign 
oil. And there are the peak oil people who believe that 
although we may muddle through the global warming and the 
national security, there is no muddling through peak oil. If it 
is not there, it is not there. And these three groups ought to 
have common cause. Have they locked arms or are they still 
criticizing each other's premise?
    Mr. Resch. I think everyone has been very busy and focused 
on their own respective issues, but having said that, there is 
a very clear unification that these three issues need to be 
addressed in a very similar fashion. They are not mutually 
exclusive. They have to be dealt with at the same time, and I 
would say that the groups working on global warming, national 
security, peak oil and certainly solar, we are engaged with all 
three of those groups.

         Comparison of Centralized to Distributed Solar Energy

    Mr. Bartlett. Well, the solutions to those problems are 
exactly the same: move away from fossil fuels to sustainable 
renewables and of course solar is a big one of those. If you 
have grid tie, what is the advantage of a large, centralized 
production rather than putting it over 1,000 home rooftops? I 
would think that the most widely--the more widely dispersed it 
is, the better off it is. So why are we focusing on these big 
facilities out in the desert that are a long way from 
populations, and of course the further you move these electrons 
over the wire, the fewer of them reach the other end of the 
wire, unlike you putting a gallon of oil in the pipeline 1,000 
miles away, you get a gallon of oil. You put electrons in a 
wire, and if you are far enough away you get none of them out 
the other end of it. So I am having trouble understanding why 
we are focusing on these large, centralized productions rather 
than distributing them widely over thousands of house roofs.
    Mr. Arvizu. Let me start. I think our infrastructure today 
is based on a concept of big power plants, big wires, and so a 
lot of it has to do with, so how do we assimilate into the 
infrastructure of today. There is actually a cost issue, the 
larger scale and certainly in the case of concentrating solar 
power, one can make the case that there is actually better 
economics if you aggregate large scale, put this thing all 
centrally located. There is a value of distributed generation, 
which I think is to your point that I think we probably miss 
and don't fully appreciate, and to a large degree we kind of 
discriminate against distributed generation because it is 
difficult to hang those onto the grid today. We do need an 
intelligent grid. We need a grid that can accommodate a 
distributed set of generation facilities but it is more 
difficult today to do that. I think ultimately we get to a 
point where I think distributed generation is valued at perhaps 
a premium as opposed--because it allows you lots of other 
flexibilities. But in today's environment, central station 
power is what utilities like, and when you start--you are 
talking about RPSs and those things as we have in Colorado. The 
way you get there most quickly is large solar farms, large wind 
farms, and that is the kind of thing that people are looking 
at. I think ultimately we will get to, I think, the broader 
question that you are asking, which is the value of distributed 
generation.

                              Net Metering

    Mr. Bartlett. Thank you. Unless you are producing more 
electricity this month than you use, don't you automatically 
have net metering? If you take the meter out and reverse it, 
you run it backwards. So if you--that is why they put a seal on 
it, by the way, so you can't do that. Don't you automatically 
have net metering whether the power company wants it or not if 
you have solar panels on your roof?
    Mr. Resch. No, you do not. It depends entirely on your 
meter. If you have your standard spinning meter, the answer is 
yes, you have the capability of net metering, but it is 
entirely dependent upon the law of that state. Each state has 
different net metering laws. In some cases you might spin it 
backwards and they are only going to pay you wholesale 
electricity prices rather than retail electricity prices. In 
some cases they are going to charge you a surcharge for 
transmission and distribution. It differs by state, every 
state.

                      Reliability of Solar Energy

    Mr. Bartlett. I have a question--we need to standardize 
that, of course, but I have a question about grid tie and 
reliability. I have a wind machine I put up and I find out that 
it is a grid-tie wind machine and it has to see 120 or it won't 
produce any electricity. As soon as it stops seeing 120, it 
stops producing electricity. Now, I understand the reason for 
that is you don't want to electrocute the poor lineman who has 
come to fix the wire because you are still pumping juice into 
it after it is down, but just when I need it most, it is not 
there. Wouldn't you think that we would be interested in some 
backup wherever you have solar panels on your roof, and 
shouldn't we have systems where you can now isolate yourself 
from the grid and produce electricity for yourself with some 
storage on site? Just when I need it most, now it is not there.
    Mr. Resch. I think you are seeing significant advancements 
certainly in the private sector, also the National Renewable 
Energy Laboratory (NREL) with respect to storage technologies 
so your typical lead acid batteries, your car batteries are 
your best option today. I think within a couple of years you 
will see some very sophisticated storage technologies at a much 
lower price that allow you to do that, sir.
    Mr. Bartlett. Even if I have the storage facility, my wind 
machine stops working when it doesn't see 120, or 240. It just 
quits.
    Mr. Resch. I am afraid that is a subject for another panel. 
This is just a solar group.
    Mr. Bartlett. When you talk of turning that off, I 
understand the need for it. You don't want to be pumping 
electricity into the wire when the lineman thinks it is dead so 
you are going to electrocute him. I understand that. But you 
need a way to isolate your home so you still can run your 
freezer and have lights and so forth when the power is off, 
don't you?
    Dr. Arvizu. You do, and there is power electronics that we 
are now working on to solve those kinds of problems so that it 
is much more user friendly. We have not really focused on those 
stand-alone power applications as effectively as we can or 
should have because other things have taken priority but we are 
working on those.
    Mr. Bartlett. Thank you.
    Ms. Giffords. Thank you, Mr. Bartlett.

                    Solar Workforce Training Program

    A couple questions for Ms. Weissman and Mr. Sarubbi. 
Arizona is now the fastest-growing state in the Nation, a lot 
of home building, and people are really interested obviously. 
They come out there to get out of the cold and the rain and the 
snow and people want to take advantage of, you know, the 
wonderful sunlight we have. So in terms of this training, what 
kind of skill shortage do you predict in the future related to 
solar installation and maintenance with this increased demand, 
and can this legislation address this looming shortage? And 
also if the two of you would address the question on whether or 
not we have communities with these training programs that have 
actually seen an improvement in terms of the quality of the 
installers of the solar panels.
    Ms. Weissman. Thank you for the question, Madam Chair. I 
think without a doubt, you know, what we are starting with, our 
goal here is to have a strong market. In order to have a strong 
market, we need to have qualified installers. We need to make 
sure that consumer confidence is ensured, that you pay the 
money that you are paying for a system that is installed 
properly and that you don't have to come back for service calls 
or for fixing the initial installation. In order to get to that 
point, you need training to make sure that we have a good 
installer population as well as good product to put out on the 
roof or in the field. We are certainly finding that those 
installers that go through the North American Board of 
Certified Energy Producers (NABCEP) certification program are 
demonstrating a higher level of quality of installation. Now, 
that does not mean that people who are not NABCEP certified are 
not qualified. I don't want to imply that. But we are finding 
that having to go through the NABCEP credentialing process 
really takes a hard look at some of the most important issues 
including familiarity with the national electrical code, making 
sure that--you know, understanding orientation, understanding 
attachment to the roof, understanding wiring, understanding all 
the different major tasks and subtasks that are necessary to do 
a competent job so that we are finding that what the NABCEP 
certification program is doing is not only certifying and 
making sure that we have qualified workers but we are making 
sure that the training is set to those standards to make sure 
that they know what they are doing, and I think that what 
NABCEP has done in addition to elevating the workforce, it has 
also increased the need for good training and education. And we 
get calls all the time, we get e-mails all the time, where can 
I get training so I can become NABCEP certified. So what we are 
seeing is that not only is the credential a great signal to 
consumers but it is also increasing the need for better 
training.
    Mr. Sarubbi. If I could add to my colleague Jane here, New 
York State Energy Research Development Authority (NYSERDA) has 
tied their incentive package to people who are certified, 
NABCEP certified. So at least the homeowners who are reaping 
the benefits of this incentive are at least assured that they 
are getting it from a certified installer, so that is helping 
improve the standards. And as Jane mentioned, we are getting a 
lot of phone calls for training in Hudson Valley with the 
sponsorship of the Interstate Renewable Energy Council (IREC) 
as well as NYSERDA are doing national electrical code training 
seminars, you know, for the electrical inspectors out there but 
also building inspectors. We are doing specific training in 
that area, bringing as many building inspectors into the fold 
and the type of solar systems that they are going to have to go 
out and approve in the community. So that in itself is helping 
the standards increase alone. And it is amazing. We had a web 
site put up just a few months ago as we were getting our solar 
program off the ground and the amount of hits that we are 
getting on that web site, you know, showing the interest, you 
know, from the community out there is tremendous and I am 
getting nervous from the amount of e-mails that I am receiving 
on a daily basis from people who are interested in the 
training, either to receive the training or homeowners who are 
interested in actually have somebody who is certified, you 
know, to be able to install it, so they are coming to Hudson 
Valley. That is where they looking for that information because 
they are going out in the web: who can I get to come install a 
nice solar system on the house that I know it is going to be a 
credibly installed system and it is going to be--you know, meet 
all the standards of industry. So we are seeing that growth.
    Ms. Giffords. The Chair recognizes Mr. Udall.

                    More on Solar Workforce Training

    Mr. Udall. Thank you, Madam Chair. I wanted to come and 
hear from the panel today. This is an area, as you all know, of 
great fascination but also great potential. I also wanted to 
show my solidarity with Dr. Arvizu, who heads up the National 
Renewable Energy Laboratory, which is in part located in my 
district in Colorado. This is such an exciting time for us I 
think as a country and as a broad industry. In Colorado we 
recently passed Amendment 37, which put a renewable portfolio 
standard (RPS) in place for the State of Colorado, and I took 
advantage of that opportunity. I now have a three and one half 
kilowatt system on my roof. It is fun to make electricity and 
at the right time of day to go out and see the meter running 
backwards and knowing that you are not only reducing your own 
bill but you are putting some power back on the grid. So I want 
to thank the Chairwoman for holding this really, really 
important hearing and giving us the opportunity as Members of 
Congress not only to learn more about what the potential is but 
also what we can do to help provide greater incentives. Having 
arrived late, I don't know all the questions that have been 
asked but I am curious, given the great team that came to 
install the system on my home, what sorts of stories that the 
panel has heard both positive and in some cases negative about 
workers without training attempting to install solar panels. I 
don't know who would be best to speak to that question. Ms. 
Weissman?
    Ms. Weissman. Thank you, Congressman. Well, there are 
always stories to tell, and I think that we were finding 
problems. We are seeing the problems. You know, shading is a 
big issue. Certainly in some parts of the country with, you 
know, the trees, a small tree today could be a big tree 
tomorrow and so are seeing that those, you know, installers who 
are not properly trained are not, you know, realizing that 
shading is a real issue, and if they don't see the tree and the 
leaves and even the trees in the winter when there are no 
leaves in certain parts of this country that this will be a 
problem. Most states do require that a licensed electrician do 
the final hookup of the system, and we think that is great and 
that is how it should be, but what we are also finding is that 
different trades who know their trade very well may not know 
solar very well, and so certainly training is very important on 
the actual, you know, the characteristics of solar and the 
technology and what is needed to put up a good system. So what 
we are finding and you know, what we are seeing now too with 
more incentives going on both at the State level and the 
federal level, is what we want to prevent is any guy or gal 
with a truck and a ladder to think they can put this stuff up 
on the roof. That is not true. You know, it is going to be a 
problem. So that even those people that may feel that they are 
doing a good job may in fact not be. It was interesting, when 
we started NABCEP, the certification program, we had a lot of 
the old timers say, you know, I am not going to take a test, I 
know what I have been doing, I have been doing this for 20 
years, grandfather me in, and we said absolutely not; we are 
not going to give you a seal of approval. You know, if you know 
what you are doing, you are going to pass this four-hour exam 
and, you know, that will show proof that we can give you the 
certification mark. So we are pretty serious in terms of making 
sure that if we are going to certify somebody, they know what 
they are doing and prevent some of the stories that we have 
heard or that we have seen, some of the mistakes that have been 
made, some of the stupid mistakes that have been made out in 
the field. What we want to make sure is customers are going to 
get, you know, a well-run system that is going to last a long 
time.
    Mr. Resch. And just to add one other comment. The IBEW has 
done, I think an excellent job in training in certain key 
markets but starting to go national training their members to 
certify and install solar systems in an appropriate manner. So 
I think that--when you start to see that shift where you have 
large trade unions, where you have, you know, large roofer 
groups starting to reach out and train and educate and, if you 
will, give them new skill sets, I think that is a fundamental 
sea change in the capability of installers going forward. 
Certainly linking with Jane's program at NABCEP is absolutely 
critical as well.
    Ms. Weissman. But if I can just add onto Mr. Resch's 
comment, the International Brotherhood of Electrical Workers 
(IBEW) and the National Joint Apprenticeship and Training 
Committee (NJATC) do sit on the board of directors of the North 
American Board of Certified Energy Practitioners so we have 
been very involved with the union from day one. In addition, 
the NJATC, the training arm for the IBEW, just published a 
fantastic textbook on photovoltaic systems which I know that a 
lot of the community colleges are beginning to use as their 
main learning tool.
    Mr. Udall. I see my time has expired. If the Chairwoman 
would indulge me for 30 more seconds?
    Speaking to your comment about shading not only with leaves 
on trees but the tree branches themselves, that was one of the 
processes we had to go through. We had a big old cottonwood 
tree that was blocking at certain times of the day the system, 
and I found out in the process of installing the system that if 
you have any shading on any part of the system, it affects the 
overall system in very dramatic ways. So we had to make the 
decision. It was almost like letting go of your firstborn 
child, taking down this tree, but I was convinced that taking 
down the tree was worth the pain because of the benefits that 
you accrue, and I was told that taking down the tree but at the 
same time installing the system was the equivalent of planting 
100 more trees. So I hope that sales job was accurate. This was 
a learning process for myself and my family.
    I thank the Chairwoman for her indulgence and for holding 
this very, very important hearing. These technologies and what 
our economic future will involve. It is also about energy 
security and about environmental benefits, so this is very, 
very important. Thank you.
    Ms. Giffords. Mr. Inglis.
    Mr. Hayden. Could I add to some of those comments, Madam 
Chair? Some comments have been made including yours just now 
which I would like to kind of try to--understanding though that 
the issues that we are running into about the shading, the 
tree, distributed--point up that there is need for more than 
one piece of the solar solution and the distributed solution 
that has a lot of public popularity has its limits that are 
important for us to overcome to get a large percentage of our 
energy to come from solar. For example, we have our solar test 
site in Tempe, Arizona, and I can tell you that the college 
students that live in the condos and the urban area, they do 
not have the option of having solar on their roof. I live in 
Tempe, and even though I work on solar, my solar panels are 
with APS's site at Prescott, Arizona, and the reason is, as an 
engineer I know that they are far more productive than they 
would be on my roof, and that is important to me. If I am going 
to see a lot of our resources put into a very important solar 
panel and also find storage options, I don't want to see them 
wasted in an imperfect application. So to address some of the 
points made, there is--about 85 percent of the energy that 
comes from a Four Corners power plant makes it to the customer 
in Phoenix. The highest fraction of that energy goes over the 
wires. The wires are very good at delivering energy. So even 
though we do see the value of rooftop solar, it certainly won't 
get us to the 40 percent-type number that solar I think could 
get if we are allowed to build larger facilities that are more 
efficient, bring the power in to where it is needed, and 
secondly, to bring in the storage technologies that would allow 
the utility to help provide that backup power that otherwise 
these panels can't do on their own. So it underscores I think 
one of the values of this discussion is that it is not a one 
size, one solution fits all. If we want mainstream America to 
use solar, we have got to make it easy. We can't just make it 
for us environmentally motivated folks to be the only ones 
using solar. Thank you.

                       Efficiency of Solar Energy

    Mr. Inglis. A follow-up on that. If the efficiency of the 
conversion were higher, it would make the distributed more 
attractive, right?
    Mr. Hayden. No, not at all. The efficiency is a good 
parameter but the fluctuation is the issue that talks about 
reliability. In fact, when we build a project of any size, we 
have to look at the reliability on customers. The Congressman 
talked about the wind system tripping. That also affects things 
like your power electronics, manufacturing businesses, power 
quality. So if you do have an efficient system that is good for 
its economics but there will be interruptions from clouds. 
There will be interruptions for other reasons and we have to 
match the load.

                        Storage for Solar Energy

    Mr. Inglis. Which brings me to the other question which is 
about the storage issue which, from what I have been hearing 
this morning, is crucial. It seems that the section of the 
bill--sections of the bill dealing with that are relatively 
brief. Is there something else we should be saying in those 
sections about storage besides what we are saying here?
    Mr. Hayden. We discussed that before. We provided testimony 
on that very subject because we see more than just the thermal 
being possible storage solutions. The thermal is worth 
mentioning because in the case of certain technologies, thermal 
is very directly used but there is other proven large-scale 
solar technology for storage--I am sorry--storage technologies 
such as compressed air energy storage, other things that while 
we are all waiting and working on the new batteries, there are 
things that can be done sort of on a regional basis.
    Mr. Inglis. I suppose these battery breakthroughs really 
could also be the--I mean, there are a number of things that if 
they broke could make it so that there--if we had the 
breakthroughs in a various number of areas, you would have wide 
scale--more use of the resource, right?
    Dr. Arvizu. There is no question about that. Storage has 
continued, as I call it, to be the Achilles heel of renewable 
energy in general. If we just had a better storage system--we 
have been working on batteries for a very long time, literally, 
you know, decades. And progress is slow. Progress--we are 
making progress but progress is slow, and I think ultimately, 
you know, converting wind and the other intermittent type of 
resources to some sort of energy carrier like hydrogen or 
compressed air, whatever it might be, is really going to change 
the economic equation considerably. I know I sit on the 
National Science Board and we are doing things for--actually 
trying to provide power at the South Pole while we are doing 
some fairly energy-intensive experiments, and what are looking 
for stand-alone systems that are not polluting, because right 
now we have got--we are polluting in the southern hemisphere 
because of all the diesel fuel that we are using down there. 
And we are looking for, you know, some of these advanced 
concepts that down there you would pay an exorbitant amount of 
money for that particular application and there are some 
things--we are looking at how can you convert wind energy to 
hydrogen and to use it when you essentially--when the wind 
doesn't blow or solar energy to hydrogen or a variety of other 
technologies and things, and I think ultimately you need to 
look at that whole system's architecture. So you need to look 
at them in the broadest context. You know, I am very bullish on 
the fact of zero-energy buildings. We use more energy in 
buildings than in most any other application that we have and 
so the distributed value on a building that is efficiently 
designed with its own power generation source and its own 
storage has great value and benefit. At the systems level, is 
it still a little bit costly although we are making huge 
progress and we have got examples of Habitat for Humanity homes 
that generate more energy that they consume, and so it can be 
done on a modest building, and it is a matter of changing a 
variety of things. It is what we talked about earlier, bring 
the price signal where the decisions are being made. You know, 
construction for buildings is not incentivized to save energy. 
And so all those things need to be part of the package and I 
think we need to look more holistically at the whole issue.

                         Conversion to Hydrogen

    Mr. Inglis. To the objection I hear, and when I talk about 
hydrogen, about why convert, just out of curiosity, it is not 
exactly a subject of this hearing but why convert to hydrogen 
in those cases you talked about, particularly at the Poles 
where Dr. Bartlett and I saw the same thing you are talking 
about, diesel fuel being brought in belching out the 
smokestacks when we got a lot of wind and a solar there.
    Dr. Arvizu. The why convert part is because it really is an 
elegant solution. You don't pollute anything, obviously. You 
convert--you know, you change water to hydrogen and oxygen and 
then you use the energy and it converts back to water. It is 
very costly at this point and that is the reason that we don't 
do it more, you know, uniformly elsewhere. But in that 
particular environment, the cost that you pay for the energy of 
transporting fossil fuel down there is exorbitant and there is 
just no reason why you wouldn't in terms of economics do the 
thing that is less environmentally insulting than the other 
thing.
    Mr. Inglis. Thank you.
    Ms. Giffords. Mr. Hall.
    Mr. Hall. Thank you.

                    More on Solar Check-off Program

    Mr. Resch, you know, as in some other fields, global 
warming, for instance, everybody talks about the cost and the 
fears and the projections and predictions and all but most of 
those people that are recommending that we just go all out on 
global warming fail to talk about cost. They shy away from 
that. They don't want to talk about who has to go by the cash 
register at a time when China is polluting on an increasing 
ratio with coal. So I will ask you something. How about the 
industry? Has anyone expressed any concern about planning the 
assessment, and will this result in increased cost to the 
consumer? I don't see how you can keep from it, but you would 
have to answer that. And how much would the assessment be and 
how is it going to be done, case-by-case basis or individually?
    Mr. Resch. Thank you for your question, and with respect to 
the check-off program, I think there is initially concern about 
what is the right way to structure it, where do you assess 
within the solar stream, how far upstream, how far downstream, 
do you assess at the installer or do you assess at the 
manufacturer, should it include all equipment, should it just 
include PV modules, what about solar water heating. There are a 
lot of questions and I think good questions that need to be 
resolved and I think the way this program is structured is, it 
has flexibility, that all the rules are not set in stone, that 
there is an opportunity to adjust the rate or determine an 
appropriate rate that would actually produce an appropriate 
amount of money that, you know, first the industry is willing 
to spend and raise and that it doesn't penalize the consumer or 
penalize the manufacturer to the greatest extent. So, you know, 
I would say we don't have all the answers but part of that is 
the discussion with the Department of Energy and getting the 
board together to determine what is the right level and just 
make sure all the right players are involved. I mean, we have a 
couple of suggestions in our written testimony for improvements 
to the program and I think what you will find is that most or 
all of the manufacturers will agree that what is needed is a 
campaign along these lines. They may disagree on timing when 
that program should be in place but all of them want to 
participate and make sure they have a voice in the development 
of that program.
    Mr. Hall. Well, we got airliners that, all except 
Southwest, are going broke flying full and going broke because 
of fuel and they have to turn to the consumer. You might hear 
in the city of Washington the cab drivers I think at midnight 
last night increased their minimum fee to $2.50 instead of 
$1.50. That has gone up almost 50 percent. How are we going to 
keep the assessment from going to the consumer? Why wouldn't 
it?
    Mr. Resch. Well, there is two ways to look at it, one of 
which is that as there is more competition, there is a lot more 
pressure on the price downward, and when you look at the oil 
and gas industry other than propane, they shy away from any 
kind of structure along these lines because it actually goes 
back to the producer, that the costs are passed back to the 
producer, not onto the consumer because the consumer is only 
willing to spend so much, and what we have really seen in the 
solar industry in the last couple of years is increased 
competition, increased competition to put cheaper panels. They 
are scaling up manufacturing. Prices are coming down. You know, 
feedstock materials are starting to increase in supply and 
again putting downward pressure on the price. It is unclear. I 
mean, I think if you were to step back with an economist, you 
would have one--two economists, one of them would say it is 
going to be passed on to the consumer, the other would say that 
the manufacturers will absorb the cost. But I think what we are 
looking for, you know, is a level of assessment that is small 
enough so that it is not a major hit on either side, the 
manufacturer's side or the installer's side but yet 
collectively as this industry grows, we can use those resources 
to educate the public on the benefits of solar energy.
    Mr. Hall. To be continued?
    Mr. Resch. To be continued. Absolutely.
    Mr. Hall. Let me ask the panel, if I have some more time 
here. The language of the bill provides for criminal penalties 
for release of information obtained under the authority of the 
Act to ``any agency or officer of the United States for any 
purpose other than implementation of this Act.'' What 
information do you think they are seeking to protect here? What 
is being protected, and do you agree that criminal penalties 
are necessary?
    Mr. Resch. Well, I think a lot of it is confidential 
business information and, you know, I think that part of that 
provision you are referring to goes back to the hey, you know, 
we need you to open your books in order for us to make sure 
that what you are reporting to us is accurate if you are 
participating in this program and that if that information 
leaks out-a lot of it is CBI that you would want to make sure 
that companies are comfortable with the government looking into 
their books with respect to confidential business information, 
if I am referring to the section of the bill that you are.
    Mr. Hall. It is a mandatory program?
    Mr. Resch. It is a mandatory program that companies can opt 
out of.
    Mr. Hall. And it is pretty strong language, ``any agency or 
officer,'' that provides for criminal penalties. That is pretty 
strong. Do you agree that criminal penalties are necessary?
    Mr. Resch. I think that what----
    Mr. Hall. You may not have an opinion.
    Mr. Resch. This program is modeled after the existing 
agriculture programs and, you know, what I would say is, 
certainly we can discuss the right way to ensure compliance and 
maybe that is an overly aggressive way and maybe the way it 
works in agriculture shouldn't--you know, we shouldn't be doing 
it in energy. But I would say this is modeled after existing 
programs. So it seems to have worked previously but certainly 
there is opportunities to modify it if necessary.
    Mr. Hall. My time is up. There is a lot more we could 
discuss, but I can do that with you by letter. I thank you.
    Ms. Giffords. Thank you, Mr. Hall.

                    More on Solar Check-off Program

    And Mr. Resch, just to clarify, how many other programs are 
out there that we are looking at? I know we talked about milk, 
we talked about beef.
    Mr. Resch. There are 17 programs right now between energy 
and agriculture that are promotion programs along these lines.
    Ms. Giffords. And have there been problems with companies 
and confidentiality and issues like this in the past that we 
know of?
    Mr. Resch. I would have to get back to you on that. I don't 
have specific examples. I imagine that they are consistently 
written in the same manner in order to address concerns that 
have been raised in the past but I am not entirely sure.
    Ms. Giffords. Mr. Hall, we will get back to you on that 
because I am curious as well.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much. I would just like to 
note that if there were an unending succession of ANWRs and we 
were willing to pay the price for sequestering the 
CO<INF>2</INF>, we wouldn't need to be talking about solar, 
would we? But the reality is that there is not an unending 
succession of ANWRs. I have ten kids, 15 grandkids and two 
great-grandkids, and wouldn't it be nice if I left them a 
little energy for their future, which is one of the reasons I 
won't vote to drill in ANWR until they commit to me they are 
going to use all the energy from ANWR to invest in alternatives 
because today we have no surplus energy to invest in 
alternatives or oil wouldn't be $69 a barrel, right?
    I would also like to note that unless you are making 
hydrogen from a non-fossil fuel, using hydrogen probably 
results in a larger carbon footprint than not using it unless 
you are going to use it in a fuel cell, which we don't yet have 
because you will always get less energy from the less hydrogen 
that you get from the energy source in which you produced it. 
If that is a fossil fuel, obviously burning hydrogen in a 
reciprocating engine is going to leave a larger carbon 
footprint than if you hadn't used the original fuel. Just 
noting how we are creatures of habit, I was at the South Pole 
twice in the last five years. For six months the sun shines all 
day, every day and the wind never stops blowing, and we create 
essentially all of our power there from flown-in diesel. Now, 
is that dumb? We are really creatures of habit, aren't we?
    You know, the sun is 93 million miles away. I have a place 
in West Virginia. My friends are amazed that I make ice from 
the sun. I have a Sun Frost refrigerator hooked up. But I put 
my first solar panels on the roof. I have 153 acres. They said, 
why in the devil are you doing that. You know, the sun is 93 
million miles away. If I put it on the roof or on the ground 
beside the building, it makes no difference as far as the sun 
is concerned. It is very much cheaper and easier to put it down 
on the ground. So unless you are in a subdivision and have got 
to put it on your roof, don't put it on your roof. It is a 
whole lot easier to maintain on the ground. A big cost, a big 
part of the cost of putting in these solar panels is just the 
carpentry or whatever you want to call it to mount these 
things, and you don't need to have some guy do that, you know. 
The Home Depot has a great slogan, ``You can do it. We can 
help.'' We need to be telling these people how to mount it. I 
don't have any problem with a certified electrician hooking up 
the power. Wiring them and hooking it is a very small part of 
the cost of putting them in, and you don't need to have 
somebody come put it in. If you can change a faucet washer, you 
can install solar panels. It really isn't that tough. So I 
would just encourage you, you don't need to further increase 
the cost of putting these in. You can do it; we can help, and 
we need some help out there like, you know, you don't put it 
where it is going to be shaded and so forth.

                       More on Storage for Solar

    Let me ask you a question about storage. Isn't it true that 
for these large facilities, it is hard to beat the battery that 
never fails, which is--unless you have to replace the pump or 
the turbine. Why don't we just pump water uphill and then let 
it flow back when we need the energy? Isn't that about as good 
a battery as we can get with about as high efficiency as any 
battery we have got?
    Mr. Hayden. Simple answer, yes.
    Mr. Bartlett. Yes. If the project permits it, why shouldn't 
we be doing that everywhere?
    Mr. Hayden. Well, everywhere including desert climates 
where water is--Arizona is an example where it is done today on 
hydro plants that exist. Creating a new hydro plant just for 
that purpose would require a high reservoir, a low reservoir, 
water, et cetera. So those are the practical issues. I do 
recognize pumped hydros being a very excellent efficient 
solution when you can do it. Compressed air is another one that 
we are looking at it because it has similar favorable 
attributes, different implementation. But in terms of Arizona 
as an example, most of the lakes, water flows downhill so there 
are those places where it has been done, Roosevelt Lake and 
others, I believe, but I think that in terms of creating new 
lakes just for that purpose, that would be quite a challenge on 
the water side.
    Mr. Bartlett. There are a lot of places where the 
topography and the water available----
    Mr. Hayden. If I may, I know that those discussions have 
been taken to the dam operators and they have had challenges in 
terms of their most economical operation of that asset. So you 
would have to take that question to some of the existing dam 
operators.
    Mr. Bartlett. I would just like to note that if you don't 
have electricity, the thing you miss the most is lights, and it 
is very easy, and I would encourage--I would hope that we would 
encourage people if they are putting in a stand-alone system 
that they use direct current lights. You don't need an 
inverter. It is really simple. You have a solar panel and you 
have lights, and if they are direct current, they work, and 
there is really nothing to fail. So the first thing you miss in 
your home when the electricity goes off is the lights go off, 
and if you are looking at those things that make life 
comfortable, you know, being able to see and have lights is 
very essential, and that is pretty much a failsafe system if 
you have direct current, DC. If you have 120 volts, you got 
that really complicated inverter full of--I don't trust 
computers in these little things. They may or may not work. The 
lead acid battery works all the time, doesn't it? And you don't 
need anything in between the battery and your 12-volt or 24-
volt or 48-volt valise on your fluorescent lights, do you? It 
is a very efficient use of electricity and very failsafe, and I 
think more people ought to be encouraged to put those in, and 
that is so you can see your way around the house when the 
lights go out, right?
    Thank you very much, Madam Chair.
    Ms. Giffords. Thank you, Mr. Bartlett.

                Water Use for Concentrating Solar Power

    We don't have a tremendous amount of time left and I would 
like the panel to focus a few minutes on this issue of water, 
and Mr. Hayden, perhaps Dr. Arvizu as well. You know, obviously 
out west we do have some real issues in terms of just not 
having the water. We have got 25 million users on the Colorado 
River right now. We are in a drought. We have increased demands 
of the current water supply that we do have. So I am interested 
in terms of the requirements for a CSP plant. Can they be built 
to use air cooling instead of water cooling enabled to 
eliminate the water requirements, and are water constraints an 
obstacle to the wider adoption in your opinion of CSP 
technologies?
    Mr. Hayden. Thank you, Madam Chair. Yes, water is an issue. 
It is one of the issues that is on the sequence of working 
through the biggest challenge of cost just to get us started 
which fortunately, in my years of working this, I see a lot of 
progress right now so I am happy to hear that we are starting 
to look at the water, meaning that we are serious about this 
moving forward, and it is absolutely an issue. The present day 
CSP systems use water for cooling to about the extent that a 
conventional power plant does, and therefore it is acceptable 
in some views but we would like to do better. Obviously a lot 
of farmland is getting converted for residential largely 
because of water so the water situation is not static. It is 
becoming more of a pressure. So in every sense if we want to 
use more of this energy technology, reducing water use is 
important. In terms of the present-day designs, there is 
something called air cooling where they replace the water 
evaporation cycle with fans and just move the air through a 
radiator-type structure. That can be done today but it wasn't 
the economical solution for the present-day installations. It 
is available today but we would like our cake and eat it too. 
We would like it to be available and also more efficient and 
less costly. Secondly, I will mention that other concentrating 
solar power technologies including concentrated photovoltaics, 
dish engine technologies don't use water cooling at all. So 
when we again talk about CSP, usually we are talking about the 
trough technology with water cooling but there are other 
technology solutions that will compete with the trough and so a 
trough needs to try to move itself forward with water reduction 
and at the same time these other technologies might come 
forward and be low-water-use technologies. In fact, we 
sometimes notice how little water is valued on a dollar basis 
and yet how much it is valued on an emotional basis, and that 
sort of contradiction is what we are grappling here with on its 
application with solar.
    Dr. Arvizu. If I could add just a little bit on that. 
Absolutely, I think we have been looking at technologies that 
really don't use, you know, any water that is not self-
contained in the system. You know, for a long time, I can 
remember in the 1980s we looked at a variety of gas-cooled 
reactors. We looked at--we have actually the best heat transfer 
medium for these concentrating thermal systems is typically a 
molten salt or something that has got a very high specific heat 
to it. So you don't have really a contained water need for the 
actual, you know, working end of those particular plants and 
there are ways to get around having to use any water if you 
really chose to do that, but it is a matter of economics. It is 
a matter of pushing the technology and making it most cost-
effective. And there is in fact as Mr. Hayden says this whole 
idea that you can put concentrating photovoltaics. The biggest 
problem with these concentrating systems, as I mentioned in my 
testimony, is the upfront capital cost, and one of the things 
that we are looking at is how can you reduce that cost 
dramatically in some of these concentrating--troughs in fact 
are some things that are being pioneered right now in Australia 
that are I think very cost-effective and also can be done in a 
manner that is very, very miserly relative to the water use. So 
this is not a problem that I believe is in any way a 
showstopper or couldn't be overcome but for the will and the 
R&D program that goes along with trying to stand up with some 
pilots to make sure that it operates the way we think it ought 
to.

                       Concentrating Solar Power

    Ms. Giffords. A couple other questions, because I know we 
are running out of time. First of all, APS, Mr. Hayden, I 
understood took 14 years to construct the solar trough, 14 
years, I think. Why was the hiatus so long, and is that 
something that we can learn from as well?
    Mr. Hayden. Well, the proper way to look at that 14 years 
is, no one had done it in 14 years and we chose to pursue that, 
and I will give you a pragmatic answer. I have been going to 
DOE meetings for all my career and having the solar industry 
run up and say buy 100-megawatt power plant and everything will 
be fine. Now, we are talking about hundreds of millions of 
dollars when they do that and we under a regulated structure do 
not have the opportunity to just spend hundreds of millions of 
dollars that is not least cost so what we chose to do was to 
challenge those solar companies to make a small-scale plant 
just to prove that they could get on their feet again because 
the present regime of folks making the trough is not the same 
folks that built it decades ago and they actually needed to 
give a new start. So literally when they built our first 
megawatt, it was all of a sudden kind of a deer in the 
headlights moment when oh, you mean we really have to build 
this thing, and they had fundamental decisions such as were 
they going to use aluminum or were they going to use steel, who 
were they going to get their tubes from. So fortunately, even 
though one one-megawatt is a very small project, it gave them 
the opportunity to start getting it together, and then when 
they had the 64-megawatt opportunity in Nevada, they had 
momentum. All I can say that we did was, we broke the ice. We 
didn't have dollars available under our regulated structure to 
buy hundreds of megawatts but we did have the dollars available 
to break the ice.

                    More on Solar Workforce Training

    Ms. Giffords. Before I turn to Mr. Inglis, Mr. Resch, if 
you could address Mr. Bartlett's comments about--and I know he 
had to leave--about just anyone being able to kind of put on 
these solar panels and--I mean, I am not an expert but it 
sounds--what I have seen is pretty complicated stuff.
    Mr. Resch. There is two points I will make there. First is 
that Home Depot does sell solar panels in New Jersey and in 
California, and if you wanted to go out and by a solar system, 
you could do it. Say you have a garden shed and you wanted to 
put lights up in the back, very simple, you know, something you 
could do. You are dealing with electricity so you have got to 
be smart about it and so you don't want anybody--you don't want 
your kids running out there and playing around with it. I mean, 
it is electricity. But when you really do step back and 
understand electricity, it is fairly understandable. Now, he is 
referring to a direct current, a DC, versus what we actually 
use in our homes, which is alternating current, so it gets a 
little more complicated. You have more equipment. I decided to 
use a contractor to install the solar system in my house 
because I don't want to climb up on a roof, first of all. 
Second of all, I don't really understand electricity all that 
well in the sense of how I install it in my home, and just like 
anything else, I went out and I got three bids, and so when 
Congressman Udall was talking about shading and all the rest, 
well, you know, there is a little bit of the buyer beware. You 
want to get three bids, just like you would for any system. 
When you install an air conditioning system in your house, a 
hot water heater, you are going to get a couple of bids and 
then find out which one is the best and which one seems the 
most knowledgeable. So I would tend to say that we are not 
quite there with the technology to say it is plug and play, any 
consumer could go out and just quickly install it on their 
house with respect to photovoltaics. I think we will get there 
at some point in time. We are not there yet.
    Mr. Sarubbi. Can I just add to that? Teaching electricity 
in my entire career and former electrician, I would be a little 
nervous to know that homeowners were going to go out on a 
regular basis and install systems, you know, when we talk about 
grounding needs, when we start talking about liability because 
the first time there is a fire at somebody's house, the thing 
you hear most often is that it came from electricity, it was an 
electrical problem. So we certainly don't want to create that 
environment with the solar industry where people are going to 
Home Depot and not that they can't buy that small type of 
system but if I am going to be putting a 3KW, seven or even 
10KW system on my house, I want to know that it is installed by 
a certified, you know, company that I have got longevity with 
that system and so I would be a little leery about moving in 
that direction at this point in the industry. And DC in 
reference to AC, converters today are so much more efficient 
and reliable, you know, that I don't see the conversion of 
moving to DC, you know, in our house, direct current power and 
retrofitting all our lights for that, you know, environment, as 
opposed to staying with alternating current just doesn't make 
sense at this point.

                    More on Solar Check-off Program

    Mr. Inglis. Just one quick follow-up. We were talking 
earlier about the reporting requirements and the disclosure of 
information, and did anybody want to make any further comments 
about that? Is there something about the disclosure of 
information that was of concern in previous programs, these 17 
programs?
    Dr. Arvizu. I am not exactly sure what the major issues 
were. We are aware of some lawsuits that have been brought 
against the U.S. Department of Agriculture based on those 
programs. It kind of--it highlights the fact that there is a 
liability issue or risk that comes along with monitoring or 
administering one of these programs, and I don't have the 
details of that but I would suggest that there is a lot more to 
be--to explore regarding what assumption of liabilities there 
are in administering the program.
    Mr. Inglis. I have no further questions, Madam Chair.
    Ms. Giffords. Before bringing this hearing to a close, I 
just want to thank all of our panelists and I really want to 
thank you for the time and the effort that went into preparing 
for your testimony today and for helping to craft this 
legislation. I also want to thank the other Members for being 
here and asking some great questions. I learned a lot and I 
hope that Members did and the general public as well.
    The record will be held open for additional statements from 
the Members and for answers to any follow-up questions the 
Subcommittee may ask the witnesses. The witnesses are excused 
and the hearing is now adjourned. Thank you all very much.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Herbert T. Hayden, Solar Technology Coordinator, Arizona 
        Public Service Company, Phoenix, Arizona

    As the Solar Technology Coordinator for APS, my field of activity 
has been on the technological assessment and advancement of solar 
technologies. I am pleased to offer my views on the technical topics 
such as thermal energy storage, solar integration to regional 
transmission grids, and reduction of water consumption as these issues 
relate to larger scale solar technologies such as concentrated solar 
projects (CSP).
    However, there are other aspects of the proposed legislation 
pertaining to workforce training and the promotion of solar power anti 
certification, which are policies more directly impacting manufacturers 
and installers of photovoltaic systems (PV), and other solar-related 
equipment. Those questions would be better answered by those 
individuals who are more familiar with the public policy concerns 
associated with the development of the solar industries. My answers in 
those areas are limited and I respectfully defer to others who may feel 
qualified to address those issues.

Questions submitted by Representative Ralph M. Hall

Q1.  Are you familiar with the Institute of Sustainable Power? Do you 
feel comfortable having them run a certification program? What type of 
a fee would you envision would be required for them to ``certify'' 
workforce training programs?

A1. I am not familiar with the Institute of Sustainable Power

Q2.  Have you reviewed the legislation being proposed here today? Do 
you think it makes sense to create two additional layers of bureaucracy 
for the Secretary of Energy to promote solar power or do you feel it 
would be easier to just give DOE a grant to promote solar power? Please 
explain.

A2. We believe the objectives of the legislation regarding thermal 
storage and CSP are appropriate and productive. I have not reviewed the 
referenced legislation in regards to the education and promotion of 
solar power, and I do not have an opinion on those aspects.

Q3.  Do you think solar power needs to be promoted in order to be 
successful as an energy resource?

A3. I believe that solar power is a proven energy technology, however 
the costs of solar are still too high for it to compete as an energy 
resource of substantial scale. Solar costs can be further reduced as 
the technology advances and matures, and incentives for the use of 
solar will allow that to happen more quickly. Promotion of the benefits 
of solar power can also encourage the use of solar.

Q4.  Do you support the language in the bill that requires private 
companies to open their books and records to Members of the Board for 
inspection?

A4. I have no opinion on this question.

Q5.  The language of the bill provides for criminal penalties for 
release of information obtained under the authority of the Act to ``any 
agency or officer of the United States for any purpose other than 
implementation of this Act.'' What information do you believe this 
language is seeking to protect? Do you agree criminal penalties are 
necessary?

A5. I have no opinion on this question.

Q6.  The language of section 9 requires the continuation of the solar 
promotion board and committee should be contingent upon a vote by the 
manufacturers and importers. Would you support a referendum prior to 
creation of the Board and Committee? Why or why not?

A6. I have no opinion on this question.

Q7.  What enforcement by the Secretary of Energy do you envision that 
might warrant a civil penalty for noncompliance under section 10 of 
this bill? Is this section necessary?

A7. I have no opinion on this question.

Q8.  What type of investigation do you believe it would be necessary 
for the Secretary of Energy to conduct under Section 11 of this bill?

A8. I have no opinion on this question.

Q9.  How will your organization benefit from this legislation?

A9. APS, as a public utility with a strong commitment to the 
development of renewable energy resources would derive benefits from a 
comprehensive energy bill that a) provided incentives for utility use 
of solar, such as the ITC, and b) aided in technical areas such as 
thermal energy storage, reduced water consumption, and the integration 
of CSP facilities with regional transmission grids.

Q10.  What kind of yearly revenues does the solar industry have which 
could be used in a promotion program as envisioned by the legislation?

A10. I do not have the knowledge of the facts pertaining to solar 
industry revenues.

Q11.  Where does each of you see solar power as a part of the Nation's 
energy mix by 2015 by percentage if this bill is enacted?

A11. Solar is the largest renewable energy resource in Arizona. If you 
add the possibility of integrating solar energy into the regional 
transmission grid and improving its availability with storage or other 
methods, the contribution of solar energy in sunny regions like the 
southwest could help states in the southwest and west reach their 
overall renewable energy goals, which currently range from 10 percent 
to 20 percent or more. I am not in a position to determine how this 
would translate to the Nation's energy mix as a whole, where other 
renewable energy resources may also contribute a substantial share of 
the Nation's energy mix. However, from a technical perspective, the 
intermittent nature of solar energy resources requires utilities to 
rely heavily upon conventional energy resources to meet customer 
demands and to protect infrastructure. If technology is developed to 
allow for solar energy storage or other means of making the output of a 
solar plant firm and reliable, this would make solar energy more viable 
for a greater share of the Nation's energy mix.

Q12.  What is your view of cost sharing of the training programs 
between the states and Federal Government?

A12. I have no opinion on this question.

Q13.  Are the unions opposed to the training provisions in the bill?

A13. I have no information on this topic.

Q14.  Is the Draft discussion draft duplicative of any current 
programs? If so which ones? What are the metrics that will evaluate 
success of the training or solar programs?

A14. I have no information on this topic.

Q15.  Recognizing the scarce resources of the Federal Government, would 
you rather see tax dollars go to innovative technologies or advertising 
solar power?

A15. From my perspective as a technologist, federal support for 
innovative technologies is critical. However, the question about 
whether advertising is a more effective way to use tax dollars is 
outside of the purview of my work and is an issue better answered by 
others.

Q16.  In your opinion why does the contribution of solar power remain 
relatively low? Is it ultimately due to the cost?

A16. Cost is certainly a major reason the contribution of solar power 
in the overall energy mix remains low today. In addition, most solar 
technologies generate electricity only when the sun is shining so other 
sources of electricity are necessary to provide firm electric power in 
response to customer demand. For those solar power technologies that 
include storage capability, cost continues to be a factor since the 
cost of storage adds to the overall cost of the infrastructure. Both 
issues will need to be addressed for solar to become a larger part of 
the electric energy mix for any electric power utility.

Q17.  The Thermal Energy Storage Section of the discussion draft is 
quite brief and your testimony seems to focus on the need for a great 
deal of research and development into the area of thermal energy 
storage. What elements do you feel should be addressed in a thermal 
energy storage research and development program?

A17. As to the elements that should be addressed in a thermal research 
and development program, the key is that the market related to this 
technology responds to demonstrated solutions. Therefore, even existing 
technology concepts could be more rapidly accepted as economically 
feasible if there was a commercial demonstration, and one that 
exhibited favorable cost, environmental and reliability features. 
Studies and lab validations are an essential first step. However, to 
attract the kind of up-front capital needed for a commercial project, a 
significant demonstration with an ongoing field operation may prove 
necessary to satisfy investors.

Q18.  Are you supportive of a check off program for solar energy as 
included in the discussion draft? Would ASP be a participant?

A18. My understanding is the term ``check-off program'' relates to a 
program for solar education and promotion that would apply to 
manufacturers and importers of solar products. Whether APS would be a 
subject to such a check-off program will depend on a variety of 
factors, therefore we would seek clarification of how the program could 
apply to a utility that could be working with solar products.

Q19.  You mention the use of federal land for locating large scale CSP. 
What environmental, including siting concerns, do you see being faced 
by such a project? 2,500 contiguous acres of land is how big of an 
area? Can you give me a frame of reference?

A19. In regards to the reference to 2,500 acres of land, consider that 
a square mile ``section'' of land is 640 acres. The 2,500 acre 
suggestion would be about four square miles, and could accommodate 
sufficient CSP facilities for the generation of approximately 500 MW of 
power. The factors that would have to be considered as part of a site 
selection would be an Environmental Impact Statement, consideration of 
impacts on adjoining property uses, the available natural resources, 
zoning restrictions, taxes, etc.

Q20.  You've testified that CSP is ``the most cost effective solar 
technology'' and the one that has the ``greatest potential to compete 
economically'' with conventional generation. What are the relative 
costs between CSP and conventional generation? Could you elaborate on 
the figures you are using? Follow up--You have testified in favor of a 
long-term extension of the 30 percent Investment tax credit (ITC). How 
long is ``long-term'' in your mind? And as you've said the potential 
for CSP to be competitive is so great, would it be so without the ITC 
in place.

A20. Projects with commercially demonstrated CSP technologies are being 
offered at less than twice the cost of conventional generation, 
sometimes significantly less, but not quite competitive with 
conventional generation. These current project costs are dependent on 
the 30 percent ITC, currently available to third-party owners. The ITC 
reduces the cost sufficiently to make large scale CSP attractive to 
many utilities. If the ITC is not extended, we believe large scale CSP 
plants will be simply too expensive and will not be constructed in the 
foreseeable future. Large scale CSP plants take a minimum of three to 
five years to site, permit and construct. Consequently, the ITC should 
be extended for a minimum of five years, but ten years would be 
preferable. We believe that ten years would be sufficient to generate 
numerous projects resulting in greatly reduced costs and a sustainable 
industry, independent of tax credits.

Q21.  Would you favor extending the 30 percent ITC to public utilities? 
If it were to be extended to these entities, would it make sense to 
place greater costs for research, training, land use and environmental 
concerns and the overall promotion of solar power on these public 
utilities?

A21. Generally, we favor the use of a meaningful ITC program as an 
incentive to public utilities for the investment in renewable energy 
facilities such as CSP. However, an ITC has to be carefully weighed by 
an organization contemplating using the ITC to see if its operations 
qualify, and whether the conditions on the ITC can be met.

Q22.  Mr. Hayden, you mention in your testimony that one of the main 
issues with solar and wind energy is their intermittency. You suggest 
that we need more R&D into the area of storage. Are the storage issues 
different between wind and solar energy? Should we focus our energies 
on storage for stationary applications generally so that we could use 
the research for more than just solar technologies? Without adequate 
storage technology, how much growth can reasonably be expected in the 
solar energy market?

A22. Wind and solar energy definitely have different storage issues in 
terms of availability and compatibility with current technologies. Wind 
energy technologies and the various kinds of solar energy technologies 
would integrate differently with the known available storage 
technologies, such as thermal, compressed air, pumped hydro, and 
batteries. For example, any source of electric energy could be used to 
drive the compressor of a compressed air storage system, or to pump 
water for a hydro-storage system, which stores the energy for later 
use. However, since the CSP systems use thermal processes, they have a 
unique opportunity to use thermal storage more directly by storing 
solar heat before it is used to make electricity.
    In summary, a broad support of stationary storage solutions in 
conjunction with the development of CSP resources is a good idea, and 
thermal storage technology is particularly well associated with current 
CSP plans. Without some means of addressing the availability of 
intermittent renewable energy sources, and providing incentives such as 
ITC and rate recovery, public utilities like APS will continue to find 
it difficult to expand solar energy in its energy mix. APS regards all 
of these issues as important to the further development of renewable 
energy resources and without some changes in these areas, electric 
utilities will continue to primarily rely upon traditional energy 
resources to meet their customer needs and protect existing 
infrastructure.
                   Answers to Post-Hearing Questions
Responses by Rhone Resch, President, Solar Energy Industries 
        Association

    The Solar Energy Industries Association thanks the Subcommittee for 
the opportunity to testify and to provide written responses to 
questions asked by the Committee Ranking Member. On the questions 
pertaining to workforce training, we would defer to those expert 
witnesses who appeared before the Subcommittee to testify specifically 
on the workforce provisions in the discussion draft. Should you have 
additional questions either relating to or independent of the responses 
below, please do not hesitate to contact our offices at your 
convenience.

Questions submitted by Representative Ralph M. Hall

Q1.  Have you reviewed the legislation being proposed here today? Do 
you think it makes sense to create two additional layers of bureaucracy 
for the Secretary of Energy to promote solar power or do you feel it 
would be easier to just give DOE a grant to promote solar power? Please 
explain.

A1. SEIA reviewed the discussion draft prior to the hearing and has 
since had the opportunity to review the provisions that were passed out 
of the Committee. Based on our reading of the draft, the primary 
composition of the Board, and the direction it is to provide, will come 
from industry. The participation of the Secretary of Energy on the 
Board seems appropriate, given the large role the DOE plays in the 
development of solar technologies, but it seems clear that the solar 
industry will (appropriately) remain the lead agent in disseminating 
information about solar products.

Q2.  Do you think solar power needs to be promoted in order to be 
successful as an energy resource?

A2. Solar power, particularly in the distribution generation model, 
requires increased consumer awareness in order to achieve greater 
deployment. As we have stated in written testimony to the Committee,

         Though growing exponentially and constantly innovating, the 
        U.S. solar industry is still in a nascent period. . .solar 
        [photovoltaics] provides less than 1/30th of one percent of the 
        current U.S. electricity supply. Furthermore, PV is primarily a 
        distributed generation technology that is installed on the 
        rooftops of homes and businesses throughout the U.S.--a 
        paradigm shift from the traditional model of centralized 
        electricity generation. Most solar installation companies are 
        small businesses, typically employing no more than a few dozen 
        people, and lacking the budget to reach a broad swath of 
        consumers.

         Thus, even as consumers embrace the idea of solar power, they 
        are usually not fully aware of its capabilities and they have 
        misconceptions about how a solar energy system works in a home. 
        Market reports demonstrate a lack of consumer understanding 
        that solar electricity operates just like regular electricity 
        and is the same kind of electricity that a local utility 
        company provides. 29 percent of respondents to the May 2007 
        Roper survey were not aware that solar energy can power common 
        electric devices like computers or appliances. A number of 
        common myths persist about modern solar technology, such as the 
        belief that solar will not work in places outside of the 
        Sunbelt or that solar devices require more energy to 
        manufacture than they produce in their lifetime, and these 
        myths often inhibit consumer consideration of solar as a viable 
        energy source.

         Furthermore, consumers lack information on how to find solar 
        companies or what solar products might be available. On a daily 
        basis, the most common phone calls to SEIA come from consumers 
        who ask, ``Where can I find solar for my home?'' The industry 
        has taken a number of steps to centralize this type of 
        information, including the development of a national solar 
        installer directory, Findsolar.com. Individually, several 
        companies have undertaken consumer awareness campaigns that 
        focus on basic technology education. Yet these efforts clearly 
        do not equate to the potential reach of a national consumer 
        awareness campaign.

    Therefore, we believe that a national campaign promoting solar 
energy would significantly increase solar's market growth.

Q3.  Do you support the language in the bill that requires private 
companies to open their books and records to Members of the Board for 
inspection? The language of the bill provides for criminal penalties 
for release of information obtained under the authority of the Act to 
``any agency or officer of the United States for any purpose other than 
implementation of this Act.'' What information do you believe this 
language is seeking to protect? Do you agree criminal penalties are 
necessary?

A3. All corporations have confidential business information that must 
be safeguarded in order to encourage companies to do business in the 
U.S. The relevant provisions of this discussion draft are designed to 
facilitate the collection of market data for purposes of levying 
assessments on producers, while safeguarding data from dilatory or 
improper use. We perceive that this approach borrows largely from the 
legislation used to create other industry check-off programs and would 
welcome a continuing dialogue on how best to achieve effective 
reporting and compliance.

Q4.  The language of section 9 requires the continuation of the solar 
promotion board and committee should be contingent upon a vote by the 
manufacturers and importers. Would you support a referendum prior to 
creation of the Board and Committee? Why or why not?

A4. SETA would be open to a referendum prior to the creation of the 
Board and Committee. Furthermore, it is our understanding that the 
industry would have the power to periodically evaluate the 
effectiveness of the program, with a focus on its economic benefits to 
industry members. This is appropriate given that then solar check-off 
program is funded by a tax that is established by the industry, with 
the blessing of members of the industry, and for the benefit of the 
industry as well as the general public.

Q5.  What enforcement by the Secretary of Energy do you envision that 
might warrant a civil penalty for noncompliance under section 10 of 
this bill? Is this section necessary?

A5. In studying existing check-off programs, it appears common that 
enforcement powers are granted to eliminate the problem of ``free 
riders,'' or nonpaying companies that might otherwise benefit 
economically from programs that others have funded. Without enforcement 
provisions, programs would be less likely to ensure that all companies 
participate.

Q6.  What type of investigation do you believe it would be necessary 
for the Secretary of Energy to conduct under Section 11 of this bill?

A6. Most likely, any such investigations would be pursuant to issues of 
compliance with the assessment process.

Q7.  How will your organization benefit from this legislation?

A7. SETA is a 501(c)(6) non-profit association that works to make solar 
power a mainstream and significant component of the U.S. energy supply. 
As the discussion draft currently provides, SETA would be able to serve 
on the promotion board and play a role in designing and implementing a 
national consumer awareness campaign. In doing so, SEIA would address 
one of its core functions: to educate consumers on the benefits of 
solar technologies.

Q8.  What kind of yearly revenues does the solar industry have which 
could be used in a promotion program as envisioned by the legislation?

A8. Globally, the solar photovoltaic industry manufactured 2.2 
Gigawatts of product in 2006. The U.S., with seven percent market 
share, manufactured PV products worth slightly more than $1 billion, 
with a net export of 10 percent of product.

Q9.  Where does each of you see solar power as a part of the Nation's 
energy mix by 2015 by percentage if this bill is enacted?

A9. As stated in SEIA's testimony, a check-off program will only 
succeed if appropriate incentives are in place, including an eight-year 
extension of the federal investment tax credits (ITC). Over the past 
decade, due to a lack of progressive national policy, the U.S. has lost 
global leadership in the race to attract solar energy manufacturing, 
installation, and jobs. Long-term demand-side incentive policies in 
Japan and Europe have spurred the formation of hundreds of new 
companies and tens of thousands of new solar industry jobs in those 
countries; Germany, with the solar resources of Anchorage, AK, installs 
eight times more PV each year than the entire U.S. With appropriately 
designed incentive policies and increased consumer awareness, we 
anticipate that solar power could provide 10-15 percent of new 
incremental generating capacity annually in the U.S. by 2015.

Q10.  I note that, as indicated in Section 2(7), the program is 
generally intended to improve the ``competitive position. . .of solar 
energy products in the marketplace.'' Because the program includes 
importers, apparently this means promoting all solar products 
(including German) against other technologies. Does this matter to 
American producers?

A10. We anticipate that U.S. companies would, by far and away, benefit 
the most from a strong demand signal in the U.S. market. One of the 
realities of solar commerce is that companies generally prefer to 
manufacture high-tech products close to where the markets are, rather 
than ship them overseas and go through an extensive distribution 
system. In Germany, a national feed-in tariff incentive program for 
solar PV has helped to industrialize some of that country's most 
economically depressed regions. In the U.S., the states with the best-
designed and long-term incentive programs have attracted the most 
development. Thus, in the current race for global solar energy 
leadership, increasing consumers' awareness and demand for solar is one 
of the optimal methods for growing the U.S. industry.

Q11.  Has the SEIA tried to do a voluntary check-off program?

A11. SEIA has not tried to implement a voluntary check-off program. In 
formulating our testimony on the discussion draft, we looked at other 
industries that had implemented check-off programs. Historical 
examination shows that industries have indeed organized voluntary 
check-offs, but they account for only a small share of all funding for 
generic efforts. It seems likely that the establishment of legislative 
authority helps ensure the efficacy of check-off programs. This 
authority facilitates the practicalities of dealing in interstate 
commerce and, as mentioned above, helps to eliminate the problem of 
``free riders,'' or nonpaying companies that might otherwise benefit 
economically from programs that others have funded.

Q12.  In your testimony, you talk mostly about distributed generation 
technologies of solar energy. Do you see more of a potential for solar 
energy on this smaller scale or as a large solar power plant?

A12. We believe that there is a vital role both for distributed solar 
generation and for concentrating solar power (CSP) in the U.S. energy 
portfolio. Both PV and CSP provide high-value electricity during peak 
demand hours, from 10 A.M. to 5 P.M. on hot, sunny days, thus helping 
to conserve the use of valuable natural gas. The Western Governors' 
Association Solar Task Force recently identified 200 GW of prime 
potential sites for CSP in the Southwest, including several sites in 
Texas. Furthermore, a study by Navigant Consulting found that eligible 
rooftop space in the U.S. could provide 700 GW of PV. We encourage the 
greater use of CSP and PV alike.

Q13.  How many members does the SEIA have? How many member 
organizations I companies would benefit from additional funding for 
research? How many member organizations/companies would not?

A13. SEIA represents over 550 companies involved in the U.S. solar 
energy industry. Through our weekly newsletters and alerts, we actively 
encourage our members to participate in collaborative R&D efforts with 
the Department of Energy under the President's Solar America 
Initiative, announced by the White House in the 2006 State of the Union 
and first funded in FY 2007. The DOE Solar Energy Technologies Program 
has, at the time of this writing, announced two rounds of funding 
awards. The recipients are consortia of industry (usually several 
companies per award), national laboratories, universities, and non-
profits. While it would be imprecise to guess how many companies would 
benefit from future research funding, we anticipate that such funding 
would continue to be directed towards collaborative research teams 
incorporating companies from throughout the solar value chain.
                   Answers to Post-Hearing Questions
Responses by Jane M. Weissman, Executive Director, Interstate Renewable 
        Energy Council; Vice Chair, North American Board of Certified 
        Energy Practitioners

Questions submitted by Representative Ralph M. Hall

Q1a.  Are you familiar with the Institute for Sustainable Power?

A1a. Yes.
    The Institute for Sustainable Power's (ISP) accreditation and 
certification programs began 1996. International renewable energy, 
education, training, and accreditation experts worked to create ISPQ 
Standard #01021, which provides the guidelines and sets the bar for the 
accreditation of training programs and the certification of trainers in 
the renewable energy field. The objectives of the Standard are:

        <bullet>  to provide training programs worldwide with a 
        harmonized training content- and delivery-guide for the 
        knowledge and skills competencies for renewable energy 
        workforces;

        <bullet>  to increase the confidence level that industry, 
        employers, consumers, financiers, and governments can have in 
        the participating training programs and trainers by providing a 
        globally accepted process of evaluation and surveillance (audit 
        and periodic re-evaluation) of training programs and trainers, 
        and periodic re-evaluation of the standards; and

        <bullet>  to encourage safety and the training of safe 
        practices within the industry.

    In 2005, ISP decentralized operations and created licensees for 
operations in the United States, the UK and the Asia-Pacific area.
    As of July 2005, the Interstate Renewable Energy Council (IREC) is 
the North American Licensee for the Institute for Sustainable Power's 
Quality (ISPQ) International Standard #01021 for Renewable Energy 
Training Accreditation and Instructor Certification programs. IREC is 
responsible for the full accreditation and certification cycle 
including processing applications, assigning registered auditors, 
awarding the credential, and maintaining all records of applicants, 
candidates and certificants.
    IREC awards formal recognition for five (5) ISPQ designations:

        1.  Accreditation for Training Programs

        2.  Accreditation for Continuing Education Providers

        3.  Certification for Independent Master Trainers

        4.  Certification for Affiliated Master Trainers

        5.  Certification for Instructors

    Using the ISPQ International Standard #01021 as a guide, with an 
approved Task Analysis as the content standard, IREC's ISPQ-Registered 
Auditors evaluate candidates for accreditation and certification 
through a desk and/or on-site audit. The Auditors prepare the results 
of their evaluation and report to the IREC ISPQ Award Committee which 
is responsible for the final decision on training accreditation and 
trainer certification.
    Two attached documents demonstrate the rigor and depth of the ISPQ 
process: Standard #01021 and the Candidate Handbook. For further 
information, please visit www.isaausa org.

Q1b.  Do you feel comfortable having them run a certification program?

A1b. Yes. The Interstate Renewable Energy Council has been working for 
over two decades as a non-profit organization committed to moving 
renewable energy resources into the marketplace. IREC emphasizes 
education and outreach, stakeholder coordination, technical assistance, 
workforce development, the adoption and implementation of uniform 
guidelines and standards, and consumer protection. IREC is known for 
its ability to identify critical issues, build networks, and develop 
and disseminate information tools that make the work of solar energy 
stakeholders more effective. The Council has a proven track record for 
producing material and products with the highest professional 
standards, meeting deadlines and managing its operations efficiently 
and effectively. (www.irecusa.org)
    IREC's Accreditation and Certification Programs receive counsel and 
oversight from a national, 10-person advisory board which includes 
trainers, industry, and credentialing and education experts.

Q1c.  What type of fee would you envision would be required for them to 
``certify'' workforce training programs?

A1c. To date, below is the current fee application and maintenance fee 
structure. The fees are purposely kept low. In this early stage of 
operation, the fee structure does not support the full management and 
administration of the ISPQ process.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  How will your organization benefit from this legislation?

A2. IREC's goal is a simple one--to guarantee quality training for the 
solar energy practitioner. The ISPQ process is a rigorous one and there 
has been considerable resources spent to make this credentialing 
process fair, based on industry-developed standards, and provide non 
bias, third-party assessment of training programs. All documents and 
procedures have received subject-matter expert and legal review. We 
would like to see this legislation encourage the ISPQ assessment 
process but our goal is to make sure that there is assessable, quality 
training available for solar energy installers.

Q3.  What is your view of cost sharing of the training programs between 
the states and Federal Government?

A3. When possible, IREC encourages cost sharing especially for states 
with System Benefit Funds. However, we do not think that states without 
these funding resources should be penalized. We recommend that cost 
sharing is encouraged but not required.

Q4.  Are the unions opposed to the training provisions in the bill?

A4. We have not had any direct conversations with the unions in regard 
to this bill. However, the National Joint Apprenticeship and Training 
Committee (NJATC) supports ISPQ goals and its mission, and intends to 
facilitate voluntary JATC participation in the ISPQ framework. NJATC is 
presently seeking Accredited Training Program status under ISPQ for 
Solar Photovoltaic (PV) Systems. The scope of this accreditation will 
cover the new NJATC Solar PV System curriculum, its ITC facilities in 
Alcoa, TN, NJATC instructors, its program administrative policies and 
courses offered by NJATC. We would be happy to provide contact 
information to the NJATC.
                   Answers to Post-Hearing Questions
Responses by Joseph T. Sarubbi, Professor/Department Chair, Building 
        Systems Technology Department, Hudson Valley Community College

Questions submitted by Representative Ralph M. Hall

Q1a.  Are You familiar with the Institute for Sustainable Power?

A1a. Yes.

Q1b.  Do you feel comfortable having them run a certification program?

A1b. Yes. The Institute for Sustainable Power has worked hard to ensure 
that companies, installers, and training institutions meet rigorous 
standards that will make certain the type of reliability needed for 
positive industry growth and consumer confidence. I have intimate 
knowledge of ISP's standards and believe they do well to manage quality 
assurance/quality control (QA/QC).

Q1c.  What type of fee would you envision would be required for them to 
``certify'' workforce training programs?

A1c. An exact figure is difficult for me to ascertain. To ensure that 
all institutions applying for accreditation meet ISP standards a site 
visit to the institution seeking accreditation by the ISP evaluation 
team is essential. In Hudson Valley Community College's situation, the 
New York State Energy Research and Development Authority provided the 
resources to allow the College to position itself for Accreditation. 
National sponsorship of ISP could reduce the costs associated with 
institutional accreditation and help these institutions move swiftly, 
yet responsibly, towards accreditation. The Interstate Renewable Energy 
Council (IREC) developed a fee structure for evaluation of solar 
programs and institutions seeking accreditation, and Hudson Valley 
Community College is working within these fee guidelines. I am 
confident in IREC's ability to manage the costs associated with 
accreditation and certification.

Q2a.  Have you reviewed the legislation proposed here today?

A2a. Yes.

Q2b.  Do you think it makes sense to create two additional layers of 
bureaucracy for the Secretary of Energy to promote solar power or do 
you feel it would be easier to just give DOE a grant to promote solar 
power? Please explain.

A2b. The Solar Energy Industries Research and Promotion Board, as well 
as the Solar Energy Industries Research and Promotion Operating 
Committee make sense in that they will be strong advocates for the 
advancement of the solar industry. The members of the Board, as well as 
the Committee, will be stakeholders in the solar industry and will 
provide a platform for sound solar energy initiatives. While an 
argument could certainly be made that we are creating more levels of 
bureaucracy, in this case, I believe the layers are valid; especially 
knowing that (1) no Board and Committee members will receive 
compensation for their service, and (2) most, if not all, Board and/or 
Committee members will be utilizing the resources, staffs, and 
facilities of existing organizations.

Q3.  Do you believe solar power needs to be promoted in order to be 
successful as an energy resource?

A3. Yes. There is a certain level of complacency that exists in our 
society and I've learned throughout the years that an effectively 
promoted initiative has positive outcomes. There are many examples to 
point to, some of which were identified during the hearing. I truly 
believe that an educated public is our strongest asset and right now I 
don't believe that the Nation yet fully understands the value of 
investing in solar power, especially the younger generation. The same 
could be said for other renewable energy resources.

Q4.  Do you support the language in the bill that requires private 
companies to open their books and records to Members of the Board for 
inspection?

A4. I don't have the expertise to adequately answer this question.

Q5.  The language of this bill provides for criminal penalties for 
release of information obtained under the authority of the Act to ``any 
agency or officer of the United States for any purpose other than the 
implementation of this act.'' What information do you believe this 
language is seeking to protect? Do you agree criminal penalties are 
necessary?

A5. Again, I believe I don't have the expertise to adequately answer 
this question.

Q6.  The language of section 9 requires the continuation of the solar 
promotion board and committee should be contingent upon a vote by the 
manufacturers and importers. Would you support a referendum prior to 
creation of the Board and Committee? Why or why not?

A6. Again, I believe I don't have the expertise to adequately answer 
this question.

Q7.  What enforcement by the Secretary of Energy do you envision that 
might warrant civil penalty for noncompliance under section 10 of this 
bill? Is this section necessary?

A7. Again, I believe I don't have the expertise to adequately answer 
this question.

Q8.  What type of investigation do you believe it would necessary for 
the Secretary of Energy to conduct under section 11 of this bill?

A8. Again, I believe I don't have the expertise to adequately answer 
this question.

Q9.  How will your organization benefit from this bill?

A9. Hudson Valley Community College received a grant from the New York 
State Energy Research and Development Authority to establish our solar 
program. As a leader in solar training Hudson Valley Community College 
will be able to seek additional resources to develop new solar training 
programs that are responsive to the industry, as well as expand our 
existing program offerings. As the solar industry grows, Hudson Valley 
Community College would seek additional funding for solar programmatic 
initiatives which include resources for additional faculty, curriculum 
development, and enhanced training facilities to react to industry 
trends.

Q10.  What kind of yearly revenues does the solar industry have which 
could be used in a promotion program as envisioned by the legislation?

A10. Again, I believe I don't have the expertise to adequately answer 
this question.

Q11.  Where does each of you see solar power as a part of the Nation's 
energy mix by 2015 by percentage if this bill is enacted?

A11. This bill will go a long way towards making the United States a 
national player in the solar power generation industry, and inform the 
world that we are serious about renewable energy.

Q12.  What is your view on cost sharing of the training programs 
between the states and Federal Government?

A12. Again, I believe I don't have the expertise to adequately answer 
this question.

Q13.  Are the unions opposed to this training bill?

A13. Quite the contrary. The International Brotherhood of Electrical 
Workers, for example, is very invested in training their journeyman in 
solar installation technology. They see economic growth and job 
creation with this bill. One only has to look at New York City's 
``Million solar roofs'' initiative to see the impact on job creation as 
a valid example.

Q14.  Is the draft discussion draft duplicative of any current 
programs? If so which ones? What are the metrics that will evaluate 
success of the training or solar programs?

A14. A handful of states, such as California, New Jersey, and New York, 
have solar training initiatives that have proven track records, but the 
United States needs a national program to ensure the type of growth 
that it aspires to reach by 2015. A national program will ensure other 
states will have the opportunity to enhance job creation in the solar 
industry.

Q15.  Mr. Sarubbi, you have demonstrated that the photovoltaic program 
at your community college is in high demand and has been able to seek 
out several business partners. Does the Federal Government need to be 
involved to ``spur'' further collaborations?

A15. Absolutely! Our success was driven by a collaborative effort 
between a State government agency, as well as national organizations 
such as IREC, with the resources and guidelines to establish an 
effective solar training program, and an educational institution with 
the vision to see the value of this training. The government resources 
gave the college the confidence to move forward, which made attracting 
support from local solar companies viable. Our growth is still 
contingent on procuring resources that would allow the College to 
expand its offerings and further develop partnerships. It's all about 
confidence. Having the DOE as a sponsor of solar training programs will 
spur confidence and ensure industry growth.

Q16.  As your program has grown, have you had to advertise your 
services?

A16. Interestingly, the College has gained significantly in ``free'' 
advertisement as news agencies continue to report on the success of our 
solar training programs, further spurring interest in the community. 
The ``press'' has helped us ``get the word out'' and the College has 
been the beneficiary of this exposure. The College also maintains a 
website link dedicated to solar training which continues to garner 
attention from those seeking information about gaining solar training.

Q17.  What we've heard today from a number of experts that explain that 
solar technologies are rapidly changing and evolving. Do you offer a 
continuing education program to meet these changing demands?

A17. Absolutely! Hudson Valley Community College has a Workforce 
Development Institute that seeks to continuously provide training to 
meet the needs of industry and solar training is no different. For 
example, as state and local building and electrical codes change to 
adapt to the changing solar technology, the College provides workshops 
for code inspectors to keep them abreast of these latest technological 
advances. The College is currently developing ``advanced'' solar 
training courses that will be offered through Workforce Development to 
keep Certified Installers ``fluid.''

Q18.  Has the Department of Energy assisted you in anyway? If so, how?

A18. At this stage I am not aware of any direct assistance from the 
Department of Energy.
                   Answers to Post-Hearing Questions
Responses by Daniel E. Arvizu, Director, National Renewable Energy 
        Laboratory, U.S. Department of Energy

Questions submitted by Representative Ralph M. Hall

Q1.  Are you familiar with the Institute of Sustainable Power? Do you 
feel comfortable having them run a certification program? What type of 
a fee would you envision would be required for them to ``certify'' 
workforce training programs?

A1. I am familiar with the Institute for Sustainable Power which 
coordinates, develops, and maintains international standards for the 
evaluation and qualification of renewable energy, energy efficiency and 
distributed generation training providers. ISP has a solid reputation 
for the quality of the work it does. I am not in a position to comment 
on an appropriate fee for certifying workforce training programs.
    I would suggest, however, that the Department of Energy (DOE) Solar 
Program be consulted on options for improving training and 
certification of solar energy professionals. As part of its Solar 
America Initiative, the DOE has created a program to improve and expand 
solar installer training in cooperation with the North American Board 
of Certified Energy Practitioners (NABCEP). The DOE's efforts in this 
area may be of interest to the Committee.

Q2.  Have you reviewed the legislation being proposed here today? Do 
you think it makes sense to create two additional layers of bureaucracy 
for the Secretary of Energy to promote solar power or do you feel it 
would be easier to just give DOE a grant to promote solar power? Please 
explain.

A2. I will defer to DOE on this question.

Q3.  Do you think solar power needs to be promoted in order to be 
successful as an energy resource?

A3. As Americans begin to enjoy more options as to where they get their 
power and fuel, I believe they need clear, credible and consistent 
information about all energy sources to help them make informed 
decisions about which options to choose.

Q4.  Do you support the language in the bill that requires private 
companies to open their books and records to Members of the Board for 
inspection?

A4. I will defer to DOE on this question.

Q5.  The language of the bill provides for criminal penalties for 
release of information obtained under the authority of the Act to ``any 
agency or officer of the United States for any purpose other than 
implementation of this Act.'' What information do you believe this 
language is seeking to protect? Do you agree criminal penalties are 
necessary?

A5. I will defer to DOE on this question.

Q6.  The language of section 9 requires the continuation of the solar 
promotion board and committee should be contingent upon a vote by the 
manufacturers and importers. Would you support a referendum prior to 
creation of the Board and Committee? Why or why not?

A6. I will defer to DOE on this question.

Q7.  What enforcement by the Secretary of Energy do you envision that 
might warrant a civil penalty for noncompliance under section 10 of 
this bill? Is this section necessary?

A7. I will defer to DOE on this question.

Q8.  What type of investigation do you believe it would be necessary 
for the Secretary of Energy to conduct under Section 11 of this bill?

A8. I will defer to DOE on this question.

Q9.  How will your organization benefit from this legislation?

A9. NREL will not directly benefit from this legislation.

Q10.  What kind of yearly revenues does the solar industry have which 
could be used in a promotion program as envisioned by the legislation?

A10. I will defer this question to the Solar Energy Industries 
Association.

Q11.  Where does each of you see solar power as a part of the Nation's 
energy mix by 2015 by percentage if this bill is enacted?

A11. This bill addresses, and in some cases expands on, a number of 
important areas of solar energy research, development and demonstration 
currently sponsored by the DOE. It identifies critical research on 
thermal storage for concentrating solar power technologies that will 
make those technologies significantly more valuable to utilities 
interested in integrating them within their system. It also calls for 
continuing studies of that integration with a particular focus on water 
issues critical items for successful market penetration of CSP.
    I would suggest that the DOE be consulted regarding the additional 
demonstration programs the bill mandates for daylighting, solar air 
conditioning, and photovoltaics. The DOE is currently expanding its 
efforts on demonstration and deployment of distributed solar and 
building efficiency technologies, and I believe that commercialization 
of these technologies will occur most rapidly if it is pursued within 
the context of the broader requirements and opportunities in the 
buildings sector.
    Together, these various efforts will reinforce the DOE programs to 
move solar energy into position to make a significant contribution to 
the U.S. energy picture by 2015. The amount of solar power in our 
future energy mix will depend on a number of factors, but supporting 
legislation can help accelerate the amount we have in 2015.

Q12.  What is your view of cost sharing of the training programs 
between the states and Federal Government?

A12. I will defer to DOE on this question.

Q13.  Are the unions opposed to the training provisions in the bill?

A13. NREL is not qualified to answer this question.

Q14.  Is the Draft discussion draft duplicative of any current 
programs? If so which ones? What are the metrics that will evaluate 
success of the training or solar programs?

A14. I will defer to DOE on the first part of the question dealing with 
duplication of current programs. As to metrics for evaluating the 
success of training and other solar programs, the major metric for the 
Solar Program is the levelized cost of electricity. The attached slide 
presents the goal of the solar program to have competitive prices of 
electricity in the three market sectors (residential, commercial, and 
utility) by 2015. A secondary goal is to have about 4 gigawatts of 
installed solar power by 2015.

Q15.  In your testimony you state that the ``Solar Energy Program goal 
is to reduce the cost of solar photovoltaic technologies so that they 
become cost competitive with other sources of electricity in all major 
U.S. markets by 2015.'' Are you on track to reach this goal? What major 
hurdles would prevent you from doing so?

A15. The current DOE Solar Program in photovoltaics is designed to make 
solar electricity cost competitive in the three major markets--
residential, commercial, and utility--by 2015 through the President's 
Solar American Initiative. This initiative builds on the experience 
with bringing down the costs of solar electricity from successful 
programs in Japan and Europe. The program is currently on track to meet 
these 2015 targets for the U.S. consumer. Technology investments and 
consistent policies are both important, but to ensure success, to 
increase the technical leadership of the U.S. in this expanding high-
technology business, and to build a solid technical workforce in the 
U.S. economy, the investment in R&D both in the short- and long-term, 
must be strong, consistent and sustainable.

Q16.  You mention that CSP power plants can be quickly constructed. How 
quickly and how much do they cost to build? Are there any NIMBY issues 
involved with their siting and construction?

A16. SolarGenix recently completed construction of a 64 MW plant near 
Las Vegas, Nevada. Construction of the 64 MW plant took approximately 
one year to complete. This matches previous experience in the late 
80'slearly 90's where nine CSP plants were built in the Mojave Desert 
over a period of six years.
    It is hard to predict NIMBY issues. CSP plants tend to be located 
in desert regions not ideal for residential development. However, as is 
the case in California, concerns have risen over the development of CSP 
on sensitive habitats (e.g., Desert Tortoise). As with other forms of 
conventional or renewable generation, construction of new transmission 
or upgrades of existing transmission can raise regional concerns.

Q17.  Are there any CSP plants with thermal storage in operation today? 
Are any hybrid CSP/natural gas plants in operation? If not, when can we 
expect to see them running?

A17. All of the existing nine parabolic trough plants operating in the 
Mojave Desert are hybridized with natural gas, therefore supplying 100 
percent of their rated capacity during peak utility periods. Two plants 
under construction in Spain (anticipated to be operational in 2008 and 
2009) will use 6-7 hours of two-tank indirect molten salt storage. 
However storage costs need to be reduced before such plants would be 
considered economically competitive.

Q18.  How does this legislation fit within the Administration's energy 
initiatives? I know that the Administration announced $168 million to 
help reduce the cost of solar energy.

A18. I will defer to DOE on this question.

Q19.  Has the Administration done a cost estimate of the bill? Page 20 
calls for an unlimited authorization. What is your estimate?

A19. I will defer to DOE on this question.

Q20.  Solar power has had problems with environmental concerns with 
toxic like cadmium used in some photovoltaic cells. Does CSP use cells 
that contain these kinds of materials that might cause environmental 
concerns? Are there any environmental concerns as to land use, etc.?

A20. Concentrating Solar Power systems use thermal energy to drive an 
energy conversion device (steam/gas turbine or Stirling engine) rather 
than solar cells. Heat transfer fluids used by some systems can consist 
of synthetic oils or molten salts can both be considered hazardous but 
have been widely used and permitted in commercial or demonstration 
plants in California. Land use can be a concern where plants are being 
considered near sensitive habitat areas (e.g., the Desert Tortoise in 
California's Mojave Desert). Parabolic trough and power tower plants 
require water for cooling (as with conventional generation) although 
dry cooling designs have been studied and are being considered for 
future plants.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
